<html>
<title> - H.R. 822, H.R. 4806 and H.R. 4838</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                   H.R. 822, H.R. 4806 and H.R. 4838

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, July 22, 2004

                               __________

                           Serial No. 108-105

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-098                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               Stephanie Herseth, South Dakota
Tom Osborne, Nebraska                George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Dennis R. Rehberg, Montana           Ruben Hinojosa, Texas
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Tom Cole, Oklahoma                   Joe Baca, California
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                     GREG WALDEN, Oregon, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Scott McInnis, Colorado              Tom Udall, New Mexico
Walter B. Jones, Jr., North          Mark Udall, Colorado
    Carolina                         Anibal Acevedo-Vila, Puerto Rico
John E. Peterson, Pennsylvania       Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Stephanie Herseth, South Dakota
J.D. Hayworth, Arizona               VACANCY
Jeff Flake, Arizona                  VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 22, 2004..........................     1

Statement of Members:
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     4
    Larsen, Hon. Rick, a Representative in Congress from the 
      State of Washington........................................     7
        Prepared statement of....................................     9
    Nethercutt, Hon. George R., Jr., a Representative in Congress 
      from the State of Washington...............................     6
        Prepared statement of....................................     6
    Neugebauer, Hon. Randy, a Representative in Congress from the 
      State of Texas.............................................    60
        Prepared statement of....................................    62
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3
    Udall. Hon. Tom, a Representative in Congress from the State 
      of New Mexico, Statement submitted for the record..........    60
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon, Prepared statement of.....................    67

Statement of Witnesses:
    Chase, Gene L., C & C Contracting, Inc.......................    33
        Prepared statement of....................................    36
    Fadden, Chris, Vice President, Washington State Snowmobile 
      Association................................................    48
        Prepared statement of....................................    50
    Husmann, Ed, Sky Valley Resident and Snohomish County Farm 
      Bureau Member..............................................    28
        Prepared statement of....................................    30
    Pope, Art, Executive Director, Northwest Youth Corps.........    63
        Prepared statement of....................................    64
    Reardon, Aaron, Snohomish County Executive...................    44
        Prepared statement of....................................    46
    Rey, Hon. Mark, Under Secretary for Natural Resources and 
      Environment, U.S. Department of Agriculture................    12
        Prepared statement of....................................    13
    Sax, Jeff, County Council Member, District 5, Snohomish 
      County, Washington.........................................    22
        Prepared statement of....................................    25
    Town, Mike, Friends of the Wild Sky..........................    39
        Prepared statement of....................................    41


 LEGISLATIVE HEARING ON H.R. 822, TO ENHANCE ECOSYSTEM PROTECTION AND 
 THE RANGE OF OUTDOOR OPPORTUNITIES PROTECTED BY LAW IN THE SKYKOMISH 
 RIVER VALLEY OF THE STATE OF WASHINGTON BY DESIGNATING CERTAIN LOWER-
  ELEVATION FEDERAL LANDS AS WILDERNESS, AND FOR OTHER PURPOSES; H.R. 
  4806, TO PROVIDE FOR A LAND EXCHANGE INVOLVING FEDERAL LANDS IN THE 
   LINCOLN NATIONAL FOREST IN THE STATE OF NEW MEXICO, AND FOR OTHER 
     PURPOSES; AND H.R. 4838, TO ESTABLISH A HEALTHY FOREST YOUTH 
 CONSERVATION CORPS TO PROVIDE A MEANS BY WHICH YOUNG ADULTS CAN CARRY 
    OUT REHABILITATION AND ENHANCEMENT PROJECTS TO PREVENT FIRE AND 
SUPPRESS FIRES, REHABILITATE PUBLIC LAND AFFECTED OR ALTERED BY FIRES, 
          AND PROVIDE DISASTER RELIEF, AND FOR OTHER PURPOSES.

                              ----------                              


                        Thursday, July 22, 2004

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 11:05 a.m., in 
Room 1334, Longworth House Office Building, Hon. Richard W. 
Pombo, [Chairman of the Committee on Resources] presiding.
    Present: Representatives Pombo, Walden, Flake, Inslee, Tom 
Udall, and Herseth.
    Also Present: Representatives Larsen and Nethercutt.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Subcommittee on Forests and Forest Health 
will come to order.
    Good morning. Today, we will hear three bills: H.R. 822, 
which would designate 106,000 acres as the Wild Sky Wilderness 
in Washington State; H.R. 4838, which would create the Healthy 
Forest Youth Conservation Corps; and H.R. 4806, which would 
facilitate a land exchange between Lubbock Christian University 
and the Lincoln National Forest in New Mexico.
    The Chairman. I ask unanimous consent that Representative 
Nethercutt have permission to sit on the dais and participate 
in the hearing. Hearing no objection, so ordered.
    Under Committee Rule 4(g), the Chairman and the Ranking 
Minority Member can make opening statements. If any other 
Members have statements, they can be included in the hearing 
record under unanimous consent.
    I would first like to recognize our colleagues from 
Washington, Mr. Nethercutt and Mr. Larsen, who are requesting 
this hearing. The proposed Wild Sky Wilderness has been a big 
issue in the State of Washington. And after meeting recently 
with Mr. Nethercutt, I agreed to hold a hearing on H.R. 822 to 
discuss and further examine its merits.
    As the Chairman of the Resource Committee, I have had many 
wilderness bills sent my direction. To expedite review of these 
bills, the Committee has carefully crafted guidelines that all 
reasonable and sound wilderness proposals should meet. My 
criteria simply requires bills to meet the standards and intent 
set forth in the 1964 Wilderness Act.
    Often in the past, wilderness areas have been designated 
without good-faith consultation and demonstrated local support, 
and I believe that is wrong. Local communities and economies 
are particularly effective by wilderness designations. They 
must have a say in the legislation affecting them, their 
community and their way of life. The hearing today will help in 
this regard.
    Simply said, a segment of H.R. 822, the Wild Sky Wilderness 
Act is not consistent with the Committee's guidelines or the 
Wilderness Act. Much of the proposed wilderness area does not 
meet the actual definition of wilderness. Wilderness, as 
written in the 1964 Act, is, and I quote, ``An area where the 
earth and its community of life are untrammeled by man and an 
area of undeveloped Federal land retaining its primeval 
character and influence.'' Yet H.R. 822 has miles of roads, 
culverts, bridges and dams, and this is not wilderness.
    Last year, the Administration stated on the record that the 
Wild Sky Wilderness proposal would include roughly 16,000 acres 
of land deemed not suitable by the Forest Service. This 
includes some 8,000 acres of previously harvested and roted 
land, roughly 2,000 acres of private land, about 3,000 acres of 
public access routes and close to 3,000 acres for Forest 
Service boundary adjustments.
    The authors of this bill also claim that the wilderness 
would protect outdoor opportunities of the area. Yet due to 
endangered species in the area and late successional reserve 
requirements, it would be nearly impossible for the Forest 
Service to create any new trails in much of this area. The 
reality is that existing management restrictions, in the 
opinion of the local Forest Service, would likely preclude the 
building of any new trails in the area. Thus, there would be 
less access, not more, for this area.
    To sum up, I would like everyone to take a look at the 
picture of the bridge. This bridge is located near the center 
of the proposed area. How can this be considered untrammeled by 
man? With all of this said, I am willing to work with Mr. 
Nethercutt, and Mr. Larsen, and Senator Murray on the 
legislation to address those concerns and move a bill that is 
supported by the communities, protects from wildfire and other 
natural disasters and is consistent with the Wilderness Act. 
Unfortunately, a line has already been drawn in the sand. 
Yesterday, Senator Murray stated that anything less than a 
wilderness designation for the entire area would basically be 
unacceptable.
    Mr. Nethercutt has already expressed his enthusiasm to work 
with the Committee on this bill that is good for all of the 
State of Washington, and I am hopeful that my other colleagues 
in the House share this willingness.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    I'd first like to recognize and thank our colleagues from 
Washington, Mr. Nethercutt and Larsen, for requesting this hearing. The 
proposed Wild Sky Wilderness has been a big issue in the State of 
Washington, and after meeting recently with Mr. Nethercutt, I agreed to 
hold a hearing on H.R. 822 to discuss and further examine its merits.
    As the Chairman of the Resources Committee, I've had many 
wilderness bills sent my direction. To expedite review of these bills, 
the Committee has carefully crafted guidelines that all reasonable and 
sound wilderness proposals should meet. My criteria simply require 
bills to meet the standards and intent set forth in the 1964 Wilderness 
Act.
    Often, in the past, wilderness areas have been designated without 
good-faith consultation and demonstrated local support--this, is wrong. 
Local communities and economies are particularly affected by wilderness 
designations--they must have a say in legislation affecting them, their 
community and their way of life. The hearing today will help in this 
regard.
    Simply said, a segment of H.R. 822, the Wild Sky Wilderness Act, is 
not consistent with the Committee's guidelines or the Wilderness Act. 
Much of the proposed wilderness area does not meet the actual 
definition of wilderness. Wilderness, as written in the 1964 Act is 
``an area where the earth and its community of life are untrammeled by 
man'' and ``an area of undeveloped Federal land retaining its primeval 
character and influence.'' Yet, H.R. 822 has miles of roads, culverts, 
bridges and dams--this is not wilderness. Last year, the Administration 
stated on the record, that the Wild Sky wilderness proposal would 
include roughly 16,000 acres of land deemed not suitable by the Forest 
Service. This includes some 8,000 acres of previously harvested and 
roaded land, roughly 2,000 acres of private land, about 3,000 acres of 
public access routes, and close to 3,000 acres for Forest Service 
boundary adjustments.
    The authors of this bill also claim that the wilderness would 
protect ``outdoor opportunities'' of the area--yet, due to endangered 
species in the area and late successional reserve requirements, it 
would be nearly impossible for the Forest Service to create any new 
trails in much of the area. The reality is that existing management 
restrictions (and the opinion of the local Forest Service) would likely 
preclude the building of any new trails in the area. Thus, there would 
be less access, not more, for this area.
    To sum up, I'd like everyone to take a look at the picture of the 
bridge below. This bridge is located near the center of the proposed 
area. How can this be considered ``untrammeled by man''?
    With all of this said, I am willing to work with Mr. Nethercutt, 
Mr. Larsen and Senator Murray on the legislation to address these 
concerns and move a bill that is supported by communities, protects 
from wildfire and other natural disasters, and is consistent with the 
Wilderness Act. Unfortunately, a line has already been drawn in the 
sand. Yesterday, Senator Murray stated that anything less than a 
wilderness designation for the entire area would basically be 
unacceptable. Mr. Nethercutt has already expressed his enthusiasm to 
work with the Committee on a bill that's good for all of Washington 
State. I'm hopeful that my other colleagues in the House share that 
willingness.
                                 ______
                                 
    The Chairman. I would now like to recognize Mr. Inslee, the 
Ranking Minority Member, for any statement he may have.

STATEMENT OF THE HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Inslee. Thank you. I want to thank Mr. Pombo for 
convening this hearing as well.
    I think John Muir said it best. He said, ``In God's 
wildness lies the hope of the world, the great, fresh 
unblighted, unredeemed wilderness.'' And now after years of 
bipartisan effort, Congress has a chance to protect the 
Creator's handiwork, provide a new jewel in our national crown 
of wilderness and pass the new wilderness bill in Washington 
State in 30 years, the Wild Sky, which is truly a bipartisan 
achievement.
    This is great country. I went up there and climbed Baring 
Mountain last Sunday, and I just want to share just a couple 
bits of information with the Committee, just a couple pictures. 
Some will be obvious, some will not.
    Here is the first picture. When you are in the Wild Sky 
wilderness, you feel like you are in the wilderness. I was 
there, and scraped knees and all, I was in the wilderness.
    Second picture. To answer a myth that the only people who 
enjoy wilderness are sort of fit athletes, here is a guy, you 
will see his gray hair--I don't know if his gray beard shows--
going up on the mountain. This is not just for Olympic 
athletes. You find old folks enjoying the woods.
    Next picture please.
    And most importantly, who you find in the woods, when I 
just got out of the car at the Baring Mountain trailhead, this 
is the family, the Rowl [phonetic] family from Woodinville, 
Washington, out for maybe their kids' first hike. And those of 
us who know the value of wilderness, a lot of us had our first 
hike with dad or mom, and this is a tradition that this Wild 
Sky wilderness is intended to create. And if you see these 
kids, if you look at their eyes, you know what we are really 
talking about. So the young and old enjoy it, the rural, the 
urban, the rich and poor. This is for all folks.
    Second point I want to make. This wilderness, Wild Sky, is 
probably the most carefully worked wilderness bill for several 
years for two reasons:
    One, it made accommodations for multiple uses, for bikes, 
for horses, for the disabled community, changes to accommodate 
the snowmobile community. It was very cleverly worked.
    Third, this bill has the most important timber in it, which 
is the low-level timber which protects the cardiovascular 
system of Northern Washington and the Skykomish drainage 
because we understood, and the drafters of this bill 
understood, that the low-level timber provides shade, 
filtration of water and help with the salmon that are so needy, 
and these are the salmon that get higher in the Cascades than 
any other salmon run probably in the State of Washington. This 
protects low-level timber.
    And fourth point, and this is one where there is more than 
a modest degree of disagreement of good, sincere people, 
including Mr. Pombo and myself. It is a gross misinterpretation 
of the wilderness bill to suggest that the U.S. Congress is 
constitutionally prohibited from declaring wilderness where a 
human being has walked. If we did that, we would never, ever 
declare a wilderness.
    As one of the creators of this said--Henry Jackson--who 
said, ``A serious and fundamental misinterpretation of the 
Wilderness Act has recently gained some credence, thus, 
creating a real danger to the objective of securing a truly 
national wilderness preservation system. It is my hope to 
correct this false so-called `purity theory,' which threatens 
the strength and broad application of the Wilderness Act.''
    As did Republican Mark Hatfield, who said the same thing, 
who said, ``I am not a lawyer, but the effect of such an 
interpretation would be to automatically disqualify almost 
everything. For few, if any, lands in this continent or any 
other have escaped man's imprint to some degree.'' And that is 
why he allowed a wilderness in the Eagle Cap wilderness to 
include previous logged lands, a good Republican Senator.
    That is why the originator of the bill, Representative 
Saylor, said, ``I have fought too long, and too hard, and too 
many good people in this House and across this land fought with 
me to see the Wilderness Act denied application by this kind of 
obtuse or hostile misinterpretation or misconstruction of the 
public law and the intent of Congress of the United States.''
    Protecting these lowest-level forests, these lowest-level 
forests are not the lowest priority. They are the highest 
priority, and we can't part out the Wild Sky wilderness sort of 
like a used car and lop off these most high-priority forests in 
this entire system. It is not fair to the salmon, it is not 
fair to the timber, and most importantly it is not fair to 
those kids who deserve a functioning ecosystem, and that is why 
this bill needs to pass, which is a bipartisan effort of many, 
many people who have worked many, many years in this regard.
    Let me see if I have a last point. You are waiting for it, 
Mr. Pombo, is that right, my last point?
    [Laughter.]
    Mr. Inslee. The last point I just want to make is this 
thing is probably, you are never going to get total unanimity 
on any wilderness bill, but I have seldom seen such a broad 
consensus that has been developed. You have mayors, and city 
councils and probably 96/98 percent of the population within an 
hour of this wilderness, and I hope that their will is followed 
by this Committee.
    Thank you, Mr. Pombo.
    The Chairman. I would like to recognize, in deference to 
Mr. Nethercutt, I would like to recognize Mr. Nethercutt for a 
very brief statement before we go to the author of the bill.

      STATEMENT OF THE HON. GEORGE R. NETHERCUTT, JR., A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Nethercutt. Mr. Chairman, I want to thank you. I 
appreciate your kindness and courtesy in holding the hearing 
today. It has been 4 years since the whole Wild Sky issue was 
presented, and it is a tribute to you, sir, that you would hold 
a hearing. And I appreciate your willingness to do so and have 
disparate views, I am sure, be presented here.
    I want to tell you that I had a chance to go to Wild Sky. I 
have talked with you about this area. And it is beautiful. It 
is gorgeous country. I went with former Governor Dan Evans and 
Mike Town, one of the witnesses today. I have also talked with 
those who are not in favor of a Wild Sky wilderness measure. I 
met with Ed Husmann in his home, talked to Jeff Sax--two of the 
witnesses here today--and I respect their views, too. There is 
controversy about this issue.
    Mr. Larsen and I have had a good working relationship, I 
believe, trying to come to some consensus. And I have asked my 
staff to look for ways that we can get to the result I think 
everybody wants, and that is preservation of the area, with due 
respect for the various parties who are part of the region and 
part of the area. So I am looking forward to finding some 
common ground with you, Mr. Chairman. I do believe this is a 
beautiful area that would be preserved, and I think we have to 
be open to ideas about how we can reach the common objective, 
and that is to provide the resources for people in the future, 
but also access for all.
    So I am pleased to be with you. I look forward to listening 
to the witnesses and gaining the benefit of the testimony of 
all who are here today, and I thank you all for letting me sit 
on the panel and be a participant.
    [The prepared statement of Mr. Nethercutt follows:]

Statement of The Honorable George R. Nethercutt, Jr., a Representative 
                in Congress from the State of Washington

    Mr. Chairman, I want to thank you, I appreciate your kindness and 
courtesy in holding the hearing today.
    It has been 4 years since the whole Wild Sky issue was presented 
and it is a tribute to you, sir, that you would hold a hearing and I 
appreciate your willingness to do so and have disparate views I'm sure 
be presented here.
    I want to tell you that I had a chance to go to Wild Sky. I've 
talked to you about this area. And it is beautiful. It is gorgeous 
country. I went with former governor Dan Evans and Mike Towne, one of 
the witnesses today.
    I've also talked with those who are not in favor of a wild sky 
wilderness measure. I met with Ed Hussman in his home, I talked with 
Jeff Saks--two of the witnesses today. And I respect their views, too.
    There is controversy about this issue. Mr. Larsen and I have had a 
good working relationship, I believe, trying to come to some consensus. 
I've asked my staff to look for ways that we can get to the result I 
think everybody wants and this is preservation of the area with due 
respect for various parties who are part of the region and part of the 
area. So, I'm looking forward to finding some common ground with you, 
Mr. Chairman.
    I do believe this is a beautiful area that should be preserved. And 
I think we have to be open to ideas about how we can reach the common 
objective and that's to provide resources for people in the future and 
but also access for all. So, I'm pleased to be with you. I look forward 
to listening to the witness and gaining the testimony--the benefit of 
the testimony--of all who are here to day and I thank you for letting 
me sit on the panel and being a participant.
                                 ______
                                 
    The Chairman. Well, thank you, Mr. Nethercutt. I appreciate 
the kind words. I am sure that your constituents and Mr. 
Larsen's constituents that are here today that have been 
following this issue with such great interest in the Washington 
press expected to walk in this morning and see me in a red suit 
with horns and a pitchfork.
    [Laughter.]
    The Chairman. But I do appreciate your kind words.
    Mr. Larsen, we have a slight issue. We are going to recess 
the Committee for about 5 minutes, and Mr. Larsen and I are 
going to run down the hallway, and we will be right back.
    [Recess.]
    The Chairman. I would like to introduce our first witness. 
We have the primary author of the legislation, Rick Larsen, who 
represents the Second District of Washington, and as I 
understand it, in whose district most, if not all of this, Wild 
Sky area is included.
    Mr. Larsen?

STATEMENT OF THE HON. RICK LARSEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Larsen. Thank you, Chairman Pombo, and Ranking Member 
Inslee and members of the Subcommittee. I want to thank you, 
Chairman, for holding this hearing today. It has been a long 
road to get here, and it has been a rocky one in some respects, 
a smooth one in other respects, but I really do appreciate the 
chance to be here and the opportunity to have this hearing.
    As the bill's prime sponsor, I am asking you today to 
support H.R. 822 and to pass it favorably, with some 
modifications, which I will discuss in my testimony. I would 
also like unanimous consent to enter into the record a packet 
that I think you may have already, but there have been some 
additions, a response to your letter outlining the criteria 
that you had hoped for in wilderness areas. I have that packet, 
plus some additions, and with unanimous consent, I would like 
to enter that in the record.
    The Chairman. Without objection.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Larsen. Thank you. H.R. 822 represents the next step in 
a long line of successful bipartisan efforts in Washington 
State to designate wilderness areas where people can be assured 
of clean places to hunt and fish in the future. The Wild Sky is 
a hands-on wilderness.
    Congress passed the last Wilderness Act for Washington 
State in 1984 when a bipartisan effort brought a bill to 
President Ronald Reagan or signature that created, among other 
wilderness areas, the Henry M. Jackson Wilderness.
    It is now time to create the next generation of wilderness 
for Washingtonians.
    The Wild Sky Wilderness Act is unique. It is unique in that 
it includes lowlands around the Skykomish River and its 
tributaries, easily accessible to the surrounding population. 
As a result, it has earned the support of the Washington 
Coalition of Citizens with Disabilities. Inclusion of lowlands 
has the added benefit of providing protection for fish in these 
tributaries, leading groups like the Wild Steelhead Coalition 
to endorse it.
    The Wild Sky Wilderness Act has strong bipartisan support. 
Our colleague, Representative Jennifer Dunn, is a co-sponsor. 
In the packet, you will find a letter signed by seven local 
Republican legislators, including the Washington State Senate 
Majority Leader. Former Republican Governors and our current 
Democratic Governors support passage. Likewise, the packet 
includes a letter of support from Democratic State legislators.
    The Wild Sky Wilderness Act has local support. The mayor of 
the town of Index, the closest local Government to the proposed 
wilderness said he believes the Wild Sky wilderness will be the 
best thing that ever happened to his valley. The cities of 
Monroe and Snohomish, both located on Highway 2 heading out to 
the Wild Sky, have passed resolutions of support.
    The Wild Sky Wilderness Act has strong business support. 
REI, Incorporated, the Nation's largest consumer cooperative, 
with its focus on the outdoor adventure industry, is an 
endorser, as are David and Lynn Meier, co-owners of A Stone's 
Throw Bed and Breakfast and A Cabin in the Sky vacation rental. 
Additionally, the Snohomish County Economic Development Council 
supports the proposal.
    I want to provide two words about the process that got us 
here: inclusiveness and compromise.
    My staff and Senator Patty Murray's staff, the prime 
sponsor in the Senate, have worked over the last 3 years to 
answer many of the concerns brought by several groups. The 
result has been that an original idea of 120,000 acres became a 
106,000-acre bill proposed in H.R. 822. Additionally, over the 
last 6 weeks, my staff, Senator Murray's staff and 
Representative George Nethercutt's staff, have worked very hard 
to further refine the bill.
    Although that work is not now reflected in the map that 
currently accompanies H.R. 822, I support these changes that 
cut an additional 2,500 acres from the bill since they address 
issues related to roads, private property, snowmobile access 
and a proposed repeater site.
    This inclusiveness has led many outdoor groups to support 
the bill or express neutrality, when traditionally they may 
have generally opposed wilderness.
    As you can tell, the Wild Sky proposal is a product of 
compromise. I would argue that now we are in the ``nip and 
tuck'' stage of the proposal and any major changes would 
represent an ``extreme makeover'' and undercut the value of 
this bill.
    A recent poll in my district shows that the public views 
the Wild Sky proposal favorably by a 79-percent to 18-percent 
margin. My office has received 3,684 letters and e-mails in 
support, and I have received 142 against.
    Now, I do not want to minimize remaining opposition to the 
Wild Sky bill nor do I want to overstate it. It should be put 
in the context of the 3 years of hard work that has gone into 
creating this next generation of Washington State wilderness. 
This work has resulted in a bill that has gained broad support 
from local communities, businesses and a strong bipartisan 
group of elected officials in the best tradition of past 
Washington wildernesses.
    So I ask the Subcommittee to consider H.R. 822, with these 
modifications, and schedule a markup as soon as possible so 
that we can celebrate the 40th anniversary of the Wilderness 
Act with an excellent addition to the Nation's wilderness 
areas.
    Thank you.
    [The prepared statement of Mr. Larsen follows:]

 Statement of The Honorable Rick Larsen, a Representative in Congress 
                      from the State of Washington

    Chairman Walden, Ranking Member Inslee, and members of the 
Subcommittee:
    Thank you for holding this hearing on H.R. 822, the Wild Sky 
Wilderness Act of 2003. As the bill's prime sponsor, I ask you to 
support H.R. 822 and pass it favorably with modifications, which I will 
discuss in my testimony.
    H.R. 822 represents the next step in a long line of successful 
bipartisan efforts in Washington state to designate wilderness areas 
where people can be assured of clean places to hunt and fish in the 
future. The Wild Sky is a hands-on wilderness.
    Congress passed the last Wilderness Act for Washington State in 
1984 when a bipartisan effort brought a bill to President Ronald Reagan 
for signature that created among other wilderness areas the Henry M. 
Jackson Wilderness.
    It is time to create the next generation of wilderness for 
Washingtonians.
    The Wild Sky Wilderness Act is unique. It is unique in that it 
includes lowlands around the Skykomish River and its tributaries easily 
accessible to the surrounding population. As a result, it has earned 
the support of the Washington Coalition of Citizens with Disabilities. 
Inclusion of lowlands has the added benefit of providing protection for 
fish in these tributaries, leading groups like the Wild Steelhead 
Coalition to endorse it.
    The Wild Sky Wilderness Act has strong bipartisan support. Our 
colleague, Representative Jennifer Dunn, is a co-sponsor. In the packet 
you will find a letter signed by seven local Republican legislators, 
including the Washington State Senate Majority Leader. Former 
Republican Governors and our current Democratic Governor support 
passage. Likewise, the packet includes a letter of support from 
Democratic state legislators.
    The Wild Sky Wilderness Act has local support. The Mayor of the 
Town of Index, the closest local government to the proposed wilderness, 
said he believes the Wild Sky wilderness would be the best thing that 
ever happened in his valley. The cities of Monroe and Snohomish, both 
located on Highway 2 heading out to the Wild Sky, have passed 
resolutions of support.
    The Wild Sky Wilderness Act has strong business support. REI, Inc., 
the nation's largest consumer cooperative with its focus on the outdoor 
adventure industry, is an endorser as are David and Lynn Meier, co-
owners of A Stone's Throw Bed and Breakfast and A Cabin in the Sky 
vacation rental. Additionally, the Snohomish County Economic 
Development Council supports the proposal.
    I would like to provide two words about the process: inclusiveness 
and compromise.
    My staff and Senator Patty Murray's staff, the prime sponsor in the 
Senate, have worked over the last three years to answer many of the 
concerns brought by several groups. The result has been that the 
original idea of a 120,000-acre proposal became a 106,000-acre bill 
proposed in H.R. 822. Additionally, over the last six weeks, my staff, 
Senator Murray's staff and Representative George Nethercutt's staff 
have worked to further refine it.
    Although that work is not now reflected in the map that currently 
accompanies H.R. 822, I support these changes that cut another 2,500 
acres from the bill since they address issues related to roads, private 
property, snowmobile access and a proposed repeater site.
    This inclusiveness has led many outdoor groups to support the bill 
or express neutrality when they traditionally might have generally 
opposed wilderness.
    As you can tell, the Wild Sky proposal is a product of compromise. 
I would argue that we are in the ``nip and tuck'' stage of the proposal 
and any major changes would represent an ``extreme makeover'' and 
undercut the value of this bill.
    A recent poll in my district shows that public views the Wild Sky 
proposal favorably by a79 percent to 18 percent margin. My office has 
received 3,684 letters and e-mails in support. I have received 142 
against.
    I do not want to minimize remaining opposition to the Wild Sky. Nor 
do I want to overstate it. It should be put in the context of the three 
years of hard work that has gone into creating this next generation of 
Washington state wilderness. This work has resulted in a bill that has 
gained broad support from the local communities, businesses and a 
strong bipartisan group of elected officials in the best tradition of 
past Washington wildernesses.
    I ask the Subcommittee to consider H.R. 822 with modifications and 
schedule a mark-up as soon as possible so that we can celebrate the 
40th anniversary of the Wilderness Act with an excellent addition to 
the nation's wilderness areas.
                                 ______
                                 
    The Chairman. Thank you, Mr. Larsen.
    I realize that you have been working on this bill for a 
long time and, as just about anything that we do, in order to 
get a good bill through, it takes a lot of compromise in order 
to get there.
    I guess the major question I have for you is the purpose of 
doing this in Wild Sky, the purpose of having a bill to protect 
that area, I am assuming it is so that an area that is 
relatively pristine in its nature would be protected from 
logging, mining, development of any kind and that that is 
really the underlying goal that you have.
    Mr. Larsen. I think it is more than that, Mr. Chairman. The 
fact that this is located relatively close to Highway 2, and it 
is within an hour's driving distance of a large part of the 
Central Puget Sound population, and that the inclusion of its 
lowlands mean that we have accessible wilderness area, that is, 
it is not just rocks and ice, but it is places that people can 
get to and preserving that area, so that we know that that area 
will always be there for accessibility, I think that is more 
the driver, as opposed to just trying to create a wilderness to 
stop logging, stop mining and so on.
    My view is that we have an opportunity that creates an 
accessible wilderness area that is unique, and we should take 
that opportunity.
    The Chairman. You stated, in your statement, that any major 
changes would represent an extreme makeover and undercut the 
value of the bill. On the areas that, in my mind, don't qualify 
as wilderness, and I have had this discussion with you before, 
I can see the value in protecting those, and you and the others 
from Washington State have all made it perfectly clear that you 
wanted that area protected.
    If we can come up with a designation that protects that and 
maintains it in its current state, but does not classify it as 
wilderness, would that not satisfy your desire to have those 
lowlands protected and reserved for future generations?
    Mr. Larsen. I would like to see H.R. 822 with the 
modifications that we have developed over the last 6 weeks that 
have passed. Recalling the conversation that we had earlier 
this week, I think we ought to see where this hearing takes us, 
have the hearing and see where it takes us. I think that is 
maybe some of the language that we have used. We are probably 
going to need a breather after today would be my guess, and 
probably a well-deserved and well-earned breather. But I would 
like to, we have worked very hard on this bill over the last 3 
years. I understand that obviously others will want to see 
changes in it as well. I would like to see H.R. 822 passed, 
again with the modifications that we have worked out over the 
last 6 weeks.
    The Chairman. Well, I look forward to working with you and 
the rest of the Washington delegation to try to iron this out 
and figure out if there is a way that we can move a bill 
forward that everybody can be happy with. So thank you very 
much for being here to testify.
    Mr. Larsen. Thank you.
    The Chairman. Mr. Inslee?
    Mr. Inslee. Thank you.
    First, thanks, Rick, for your diligence on this and all of 
the other Members, Senator, Congressman Nethercutt, and 
everybody who has been working on this so hard because I think 
you have put a lot of sweat equity into it, principally in 
listening, which has been pretty important in this process.
    Later in the day, there might be one individual who 
expresses a concern about traffic on Highway 2. This is the 
highway that goes in the Southern part of the wilderness. It 
has about 20- to 40,000 people a day use it. There was a 
concern or maybe a concern expressed that this would create 
enormous safety issues.
    Could you comment on that, what may be done to resolve any 
issues on Highway 2 that we have been working on?
    Mr. Larsen. Sure. I think it is obviously going to be 
important to hear from Councilman Sax on the specifics, and I 
appreciate those concerns.
    To understand U.S. Highway 2, it is not a country road. It 
is a U.S. highway, and it stretches from Everett to Boston and 
is a major East-West corridor in Washington State. So it does 
get a lot of traffic. Traffic issues on Highway 2 have been 
longstanding. Whether or not the Committee acts on this bill, 
the traffic issues won't go away. They are mainly consisting of 
safety and of congestion.
    Addressing them is important. And just for the record, in 
the Transportation Equity Act bill that we are all working hard 
to try to get through Congress, there is $1.4 million 
identified for the Cities of Monroe and Sultan for both traffic 
safety and traffic congestion improvements on Highway 2 to 
address these longstanding concerns.
    In addition, I think it is important to note that not only 
the mayor of Index, but the Cities of Monroe and Snohomish on 
Highway 2, have passed resolutions in support of the Wild Sky 
bill, despite ongoing concerns about traffic on Highway 2. So I 
think it is a good story to tell about the work that is being 
done to address these issues of safety and congestion.
    Mr. Inslee. Just a comment. My sort of belief is that 20- 
to 40,000 people use that highway now. At the most, if you 
figure another 100 cars might come into the wilderness because 
it is wilderness, that is about the biggest number I have ever 
seen on a wilderness trail. That is at the Snow Lakes 
wilderness over in the Alpine Lakes wilderness. That is .005.5 
percent increase. I don't see this as a reason to hold up this 
Wild Sky.
    Could you just enumerate a little about, you know, this is 
a finished product or we hope to be a finished product, could 
you just enumerate, with some more specificity, the changes 
that you made in response to local constituents' concerns in 
regard to the boundaries in application of this.
    Mr. Larsen. Since the 106,000-acre proposal?
    Mr. Inslee. Well, you can start at the beginning. How about 
since the first inception of the idea?
    Mr. Larsen. The first idea, the 120,000-acre proposal 
included an area basically southeast of the current proposal, 
Windy Ridge, and is largely used by outdoor recreational folks, 
snowmobilers and so on, and we just took that entire part out, 
about 14,000 acres. So that never actually made it into the 
bill.
    Since introduction of the bill, and over the last 6 weeks, 
I have been working with Representative Nethercutt and Senator 
Murray to cut an additional 2,500 acres out to accommodate 
concerns about the location of a proposed repeater site that 
would have been inside the boundary of the proposed wilderness 
and required helicopter access. Well, that repeater site has 
been switched to a site, and we basically carved out that area, 
so it is not in the wilderness at all.
    There have been some road issues that cropped up on the map 
when it was redrawn that we carved out as well. There is a 
section in the northeast part of the bill, 1,800 acres or so, 
where there are roads that we carved out that are used by 
snowmobilers. And there are areas inside, some private 
inholdings inside that have roads leading to them, where the 
roads have, we have basically ``cherry-stemmed'' along those 
roads to get to the private inholdings, so those roads are not 
included in the changes.
    Mr. Inslee. Thank you.
    Mr. Larsen. Mr. Chairman, you have been very gracious 
already, and I look forward to your continued graciousness on 
this issue.
    The Chairman. Well, I look forward to working with you and 
the rest of the delegation to get this through, and I 
appreciate you taking the time to testify before the Committee 
this morning.
    Mr. Larsen. Thank you. I am going to head back to our other 
committee. And I may be back, if I may get permission to sit up 
on the dais, if I get a chance to return.
    The Chairman. Yes. Hopefully, you will have a chance to 
return. I am not trying to cut off any of the other Members 
from having a chance to ask Mr. Larsen questions, but we have 
been called for a vote down the hall, and we are going to 
recess temporarily.
    [Recess.]
    The Chairman. The Committee will now come to order. I would 
like to introduce Panel 2. We have The Honorable Mark Rey, 
Under Secretary for Natural Resources and the Environment at 
the Department of Agriculture.
    Mr. Rey, again, welcome back to the Committee. When you are 
ready, you can begin.

  STATEMENT OF THE HON. MARK REY, UNDER SECRETARY FOR NATURAL 
   RESOURCES AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify on the three bills on your docket this 
morning. I will simply summarize my complete statement and 
submit that for the record.
    With regard to H.R. 822, the Administration does not oppose 
the passage of the legislation, the designation of Wild Sky 
wilderness as a component of the National Wilderness 
Preservation System. We recognize and commend the Washington 
delegation for its ongoing collaborative approach and local 
involvement to contribute to the bipartisan support for the 
bill. There are some issues that we would like to work with the 
Committee and the bill sponsors on to improve H.R. 822.
    While the vast majority of the lands described in H.R. 822 
are appropriate for wilderness designation, the 16,000 acres of 
the bill would not be considered suitable for wilderness 
designation under the existing Forest Service regulations and 
planning directions and that the current allocation of these 
lands could be protected in another way.
    The Department supports the administrative provisions in 
the bill, particularly provisions for a repeater site to 
provide communication for safety and health purposes. The 
Department also supports the provisions for land exchange in 
the Glacier Peak wilderness and provisions for management of 
the existing SNOTEL site in that wilderness. So, in sum, the 
Department does not oppose enactment of H.R. 822.
    The Department does not oppose enactment of H.R. 4806, the 
Pine Springs land exchange.
    With regard to H.R. 4838, the Healthy Forest Youth 
Conservation Corps Act, I am testifying today not only on 
behalf of the Department of Agriculture, but the Department of 
Interior as well. The Departments are supportive of the 
concepts embodied by H.R. 4838, particularly the recognition of 
the importance of the work conducted by State's Natural 
Resources, Agriculture and Forestry Departments, and we 
recognize the values associated with providing opportunities 
for Youth Corps to be more proactive in Healthy Forest work.
    We would, however, like to bring to the Committee some 
issues the departments have identified with H.R. 4838 that 
might require further consideration.
    We have significant concerns, for example, with the 
inclusion of youth, Age 16 and 17, in some of the programs 
authorized by H.R. 4838. Wildland fire suppression or forest 
and watershed restoration work authorized under H.R. 4838 pose 
threats to their safety that cannot be mitigated. As you are 
well aware, firefighting is an arduous and dangerous job that 
requires a certain amount of maturity, decisionmaking 
capability and perspective in order to perform safely. Federal 
firefighting agencies recognize that this level of maturity 
cannot be expected of 16- and 17-year-old individuals and, 
through policy, will not place these individuals in hazardous 
roles.
    We would like to work with the Committee to address that 
issue and others in this legislation. And, with that, I would 
be happy to respond to any of the questions of the members of 
the Committee.
    [The prepared statement of Mr. Rey follows:]

   Statement of Mark Rey, Under Secretary for Natural Resources and 
  Environment, U.S. Department of Agriculture, on H.R. 822, Wild Sky 
Wilderness Act of 2003; H.R. 4806, Pine Springs Land Exchange Act; and 
     H.R. 4838, Healthy Forest Youth Conservation Corps Act of 2004

    Mr. Chairman: Thank you for the opportunity to appear before you 
today to provide the Department's view on H.R. 822 to enhance ecosystem 
protection and the range of outdoor opportunities protected by law in 
the Skykomish River valley of the State of Washington by designating 
certain lower-elevation Federal lands as wilderness; H.R. 4806 to 
provide for a land exchange involving Federal lands in the Lincoln 
National Forest in the State of New Mexico; and H.R. 4838 to permit 
young adults to perform projects to prevent and suppress fires, and 
provide disaster relief on public land through a Healthy Forest Youth 
Conservation Corps.
H.R. 822--Wild Sky Wilderness Act of 2003
    H.R. 822 would designate approximately 106,000 acres of additional 
wilderness on the Mt. Baker-Snoqualmie National Forest in the State of 
Washington. It directs the Secretary to assure adequate access to 
private in-holdings within the Wild Sky Wilderness and establish a 
trail plan within and adjacent to the wilderness. The bill authorizes 
the use of helicopter access to construct and maintain a joint Forest 
Service and Snohomish County repeater site to provide improved 
communication for safety, health, and emergency services.
    H.R. 822 also requires the Secretary to exchange specified lands 
and interest in land with the Chelan County Public Utility District. If 
the District offers to the Secretary approximately 371.8 acres within 
the Mt. Baker-Snoqualmie National Forest, in exchange for a permanent 
easement, and the Secretary accepts title, the Secretary must convey to 
the District a permanent easement including helicopter access, 
consistent with such levels as used as of the date of this bill's 
enactment, to maintain an existing SNOTEL site on 1.82 acres on the 
Wenatchee National Forest. The SNOTEL site is currently used to monitor 
the snow pack for calculating expected runoff into hydroelectric 
projects. If, after the exchange occurs, Chelan County notifies the 
Secretary that they no longer need to maintain the SNOTEL site, the 
easement will be extinguished and all rights conveyed pursuant to the 
easement would revert to the United States.
    The Department does not oppose the designation of the Wild Sky 
Wilderness as a component of the National Wilderness Preservation 
System. We recognize and commend the delegation for its collaborative 
approach and local involvement that contribute to bipartisan support 
for this bill. However, the Department would like to work with the 
Committee to improve H.R. 822.
    While the vast majority of the lands described in H.R. 822 are 
appropriate for wilderness designation, the Department has significant 
concerns with approximately 16,000 acres. These acres would not be 
considered suitable for wilderness designation under the provisions of 
the 1964 Wilderness Act or under existing Forest Service regulations 
and planning direction. The Department believes that the current 
allocation of these lands under the Mt. Baker-Snoqualmie Forest Plan 
continues to be the most suitable designation for these acres.
    The lands that we believe are appropriate for designation under the 
Wilderness Act, approximately 90,000 acres, consist of all of the Eagle 
Rock Roadless Area and portions of Glacier Peak A, B, K, and L. These 
areas retain their undeveloped character and are largely without 
permanent improvements or human habitation. Limiting the wilderness 
designation to these lands would address many of the Department's 
concerns.
    The areas we propose for exclusion from wilderness designation 
include low elevation forests that have been utilized for timber 
harvest and mining over the last 80 years, still showing visible 
evidence of road building, logging and mining activities. The areas 
also include approximately 27 miles of existing roads, some of which 
are all weather, drivable, and graveled. Several of the roads receive 
significant visitor use associated with recreation opportunities. The 
Rapid River Road is such a travel way and we recommend excluding it, in 
its entirety, from wilderness designation. The types of recreation 
experiences enjoyed by users along the Rapid River Road corridor 
include driving for pleasure, nature photography, fishing, picnicking 
and dispersed camping at a number of pull-off sites along the road. In 
the winter snowmobiles use this road as a part of the snowmobile trail 
system, traveling to its end point.
    Another concern lies with roads, both outside and adjacent to the 
proposed wilderness boundary that have narrow corridors subject to 
landslide and river bank erosion. This situation poses significant 
public access and resource management issues, as the proximity of the 
proposed boundary could result in constraints related to necessary 
repairs and road reconstruction work. We would like to work with the 
Committee on more appropriate boundaries.
    Further, we propose the exclusion of most of the approximately 
2,400 acres of private patented mining claims and private timberlands. 
A boundary adjustment in the Silver Creek drainage would remove most of 
the private lands from the proposed Wilderness.
    Finally, the approach to naming these disconnected areas of land 
collectively as the Wild Sky Wilderness may cause public confusion, 
particularly since some of the areas proposed for designation are 
immediately adjacent to the existing Henry M. Jackson Wilderness. In 
order to minimize administrative costs and reduce public confusion, the 
Department suggests designating only Eagle Rock Roadless Area as Wild 
Sky Wilderness. The Glacier Peak Roadless Areas A,B,K, and L should 
become additions to the adjacent Henry M. Jackson Wilderness.
    The Department supports the administrative provisions in the bill, 
particularly provisions for a repeater site to provide improved 
communications for safety and health purposes. The Department also 
supports the provisions for land exchange in the Glacier Peak 
Wilderness and provisions for management of the existing SNOTEL site in 
that wilderness.
H.R. 4806--Pine Springs Land Exchange
    H.R. 4806 would authorize the Secretary of Agriculture to exchange 
with the Lubbock Christian University all right, title and interest in 
approximately 80 acres of National Forest System land within the 
Lincoln National Forest, New Mexico upon receipt of acceptable title 
approximately to 80 acres of non-federal land. The University has 
operated a summer camp in the Lincoln National Forest on 40 acres that 
it owns for over 40 years. The University seeks to exchange 80 acres 
that it owns elsewhere in the Forest for 80 acres immediately adjacent 
to its existing camp. The bill directs that the exchange be equal in 
value, that the appraisal conform to federal appraisal standards and 
that the proponent of the exchange and the United States share the 
costs of the exchange equally. The bill authorizes cash equalization 
payments in excess of 25% of the value of the federal land and 
reduction in the amount of land offered by the United States to 
equalize values.
    The Forest Service and Lubbock Christian University have discussed 
an administrative land exchange since 2001, roughly comprising the 
lands described in the bill. While the Department is not opposed to the 
exchange, we would like to work with the committee and the bill's 
sponsor on amendments to insure potential issues related to 
floodplains, wetlands, threatened and endangered species, water rights 
and outstanding mineral rights are adequately addressed.
H.R. 4838--Healthy Forest Youth Conservation Corps Act of 2004
    H.R. 4838 would establish a Healthy Forest Youth Conservation Corps 
and would authorize the Secretary of Agriculture and the Secretary of 
the Interior to enter into contracts or cooperative agreements with 
existing state, local, non-profit conservation corps, or Indian Tribe 
or state natural resources, agriculture, or forestry departments, to 
carry out projects to prevent fire and suppress fires, rehabilitate 
public land affected or altered by fires, and provide disaster relief. 
The bill directs the Secretaries to give priority to certain projects, 
including those that will: (1) reduce hazardous fuels on public lands; 
(2) restore public land affected or imminently threatened by disease or 
insect infestation; (3) rehabilitate public land affected or altered by 
fires; (4) assess windthrown public land at a high risk of reburn; and 
(5) work to address public land located near a municipal watershed and 
municipal water supply.
    As to H.R. 4838, I am testifying on behalf of both the Department 
of Agriculture and the Department of the Interior today. The 
Departments are supportive of the concepts embodied by H.R. 4838, 
particularly the recognition of the importance of the work conducted by 
state natural resources, agriculture, and forestry departments, and we 
recognize the values associated with providing opportunities for youth 
corps to be more proactive in healthy forest work. We would however, 
like to bring to the Committee some issues the Department has 
identified with H.R. 4838 that may require further consideration by the 
Committee.
    In many respects, with the exception of including youth aged 16 and 
17, the goals of H.R. 4838 are consistent with already existing 
authorities that the Department has supported, including the Healthy 
Forests Restoration Act (HFRA) [P.L.108-208], Public Land Corps Act of 
1993, P. L. 103-82 Title II, and the Youth Conservation Corps Act of 
1970, P. L. 91-378.
    However, we have significant concerns, with the inclusion of youth 
aged 16 and 17 in the programs authorized by H.R. 4838. Wildland fire 
suppression or forest and watershed restoration work authorized under 
H.R. 4838 pose threats to their safety that cannot be mitigated. The 
Administration has concerns about the Committee's expectation regarding 
the authorization of specific appropriations contained in the bill 
given current and future funding constraints.
    As you are well aware, firefighting is an arduous and dangerous job 
that requires a certain amount of maturity, decision-making capability, 
and perspective in order to perform safely. Federal fire agencies 
recognize that this level of maturity cannot be expected of 16- and 17-
year-old individuals and, through policy, will not place these 
individuals in hazardous roles.
    While some states allow individuals under the age of 18 to perform 
hazardous fire suppression duties on the fire line, this practice is 
not allowed by federal fire agency policy. In August 2003, the Forest 
Service and the Department of the Interior each established the policy 
that persons under the age of 18 years old will not perform hazardous 
or arduous duties during wildland fire management operations on federal 
jurisdictions, even if the minors are supervised by states or other 
entities. While legal minors are not to be employed in hazardous fire-
line positions, the policy does allow them to perform fire prevention, 
support, logistical, or other duties away from the fire-line--
activities which, if performed under agreements with existing state, 
local, and non-profit youth conservation corps, are consistent with 
H.R. 4838.
    Similarly, hazardous fuels reduction treatments or restoration 
activities require operating power equipment such as chainsaws, 
brushsaws, or using prescribed fire. This is extremely hazardous work, 
frequently on steep terrain in dense forest environments. We do not 
support an authorization for 16 and 17 year olds to use chainsaws or 
other power equipment in such hazardous situations.
    This concludes my statement, I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    The Chairman. Thank you, Mr. Rey. I am going to claim my 
time and yield to Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Thank you for testifying, Mr. Secretary. I appreciate your 
experience in these kinds of areas and issues. I heard you 
testify that certain acreage in the proposal, as presented in 
822, is not suitable for wilderness designation--I think that 
is what you said--but could be protected in another way. What 
do you mean by that, as you testify to that extent?
    Mr. Rey. It could be protected by another designation 
incorporated into the statute, either a national recreation 
area or a backcountry nonmotorized use designation. It would 
have the same net effect in terms of how the area is protected. 
It just wouldn't assign the wilderness title to an area that 
arguably lacks wilderness attributes.
    At the same time, as I have testified and have testified 
before the Senate, we don't oppose enactment of the bill as 
written. There are--and there have been in the past--instances 
where Congress has included areas in wilderness designations 
that lack wilderness attributes and indeed had roads. So we 
haven't been exactly purists in the past. So the Department is 
not a purist at this point.
    Mr. Nethercutt. What impact, if any, would there be on the 
Forest Service of wilderness designation versus other 
designation of protection?
    Mr. Rey. Probably minimal impact would be my guess.
    Mr. Nethercutt. You indicated the President, you expected, 
would be willing to sign 822. Would he also be willing to sign 
a measure that could be agreed upon by this Committee or by the 
Chairman, after consultation and discussion? Anything that you 
know of that would prevent him from signing legislation?
    Mr. Rey. No. We are supportive of the bill as introduced. 
If additional refinements can be made, we would be supportive 
of that as well.
    Mr. Nethercutt. All right. Thank you, Mr. Chairman.
    The Chairman. Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Rey. I just want to make sure 
that I understand. As far as you know, the Members of Congress 
from Washington in the First, Second, Third, Fifth, Sixth, 
Seventh, Eighth and Ninth support the underlying bill. The 
Member from the Fourth does not oppose it. The Executive Branch 
of the U.S. Government does not oppose the bill as currently 
written; is that your understanding?
    Mr. Rey. That is correct. I don't know for sure about the 
Members, but I will take your word for it.
    Mr. Inslee. I think I counted them pretty well.
    You said, quite candidly, that there have been occasions 
where Congress has adopted wilderness that includes area that 
have been affected at one time by human intervention. Would you 
agree with me that, in fact, that actually may be even almost a 
majority of wildernesses have had some property included in 
them that, in some fashion, at one time or another, have been 
changed in a visible way by human intervention?
    Mr. Rey. I don't think I could agree that the majority do, 
particularly if you consider the large acreage of wilderness 
estate in Alaska, which are pristine. But I think it is fair to 
say that it is not highly unusual for Congress to have included 
in previous wilderness bills areas that have had evidence of 
human impact, including road construction. I--
    Mr. Inslee. So, when Congress--I am sorry. Go ahead.
    Mr. Rey. I sort of view that as an affirmation that the 
construction of a road doesn't unalterably destroy the wild 
nature of an area.
    Mr. Inslee. So, when Congress, in 1964, adopted the Shining 
Rock wilderness in North Carolina, which almost the entire 
wilderness had been railroad logged between 1906 and 1926, and 
38 years later Congress suggested and declared it wilderness 
area, you don't think that created any difficulty for the 
Forest Service or was an adverse decision by Congress, do you?
    Mr. Rey. I am not sure what position the Administration in 
place at that time took in that bill, but I think that the area 
now, having regrown from that turn-of-the-century logging, 
doesn't exhibit much impact of human influence, except to 
someone who is a specialist and can go back and look at and 
look for the relatively limited evidence of human intervention.
    Of course, in our Eastern forests, they recover very 
quickly. The movie ``Last of the Mohicans'' was shot on Duke 
Power Company-managed timberland.
    Mr. Inslee. So, in the Mission Mountains wilderness area in 
Montana, in 1975, when it included acreage that had been 
logged, you don't think that creates any difficulty for the 
Forest Service, does it, that Congress declared that to be a 
wilderness area?
    Mr. Rey. Again, I don't know what the Administration in 
place in 1975 said about the passage or enactment of that 
legislation, but we are managing that area as a wilderness now 
without differentiation.
    Mr. Inslee. How about the 1984 wilderness designation of 
the Boulder Creek wilderness in Oregon that had old harvest 
units in it that are now included in the wilderness, does that 
cause the Forest Service any difficulty in managing the 
wilderness?
    Mr. Rey. I think my answer to that would be the same as my 
answer to the two previous questions.
    Mr. Inslee. How about the Great Swamp wilderness New Jersey 
adopted in 1968 that had miles and miles of road that were in 
the wilderness, does that cause you any difficulty?
    Mr. Rey. No. In fact, I think that it demonstrates that 
road construction does not necessarily decimate the wild 
character of an area.
    Mr. Inslee. The fact of the matter, I think what we come up 
with is the conclusion that wilderness has been successful in 
designation of areas that at one time or another have been 
changed by humans, and it becomes old growth over time, and the 
Forest Service enjoys its responsibility; is that a fair 
statement?
    Mr. Rey. We have been fully willing to implement the 
wilderness designations that Congress has enacted.
    Mr. Inslee. Thank you. I didn't ask you whether it was 
truthfully willing, but that is OK.
    Mr. Rey. I would say cheerfully willing.
    Mr. Inslee. That will do.
    [Laughter.]
    Mr. Inslee. Thank you, Mr. Rey.
    Mr. Rey. Thank you.
    The Chairman. I would ask unanimous consent that Mr. Larsen 
be allowed to sit on the dais and participate in the hearing. 
Without objection, so ordered.
    Mr. Rey, I find it somewhat ironic that, as we go through 
this hearing, that we hear, on the one hand, the argument that 
all of these areas that have been designated wilderness in the 
past have roads in them and that they are in their pristine, 
natural beauty and natural condition, and yet in the midst of 
all of the huge debate over roadless areas and how that if a 
road is built in an area it destroys it, and I find that 
somewhat ironic in going through this debate.
    But I do want to ask you one question. If I could have Mr. 
Inslee's picture on with the two kids, if you have that one 
there.
    Do you see anything in that picture that would be 
inconsistent with a wilderness area?
    Mr. Rey. Well, I think that was taken at a trailhead, so I 
wouldn't expect to see an automobile in a wilderness area, but 
I am assuming that that was the trailhead that led to the 
wilderness, and that is probably our parking area adjacent to 
what would be the wilderness boundary.
    The Chairman. In terms of access to these areas--and on 
this I do agree with Mr. Inslee that we need to have better 
public access into some of these areas because of pictures like 
that where kids have the opportunity to go in--I have concerns 
about, in terms of the designation of so many different areas 
as wilderness, about what impact that has on public access. And 
if you could clarify for the Committee, in terms of public 
access into a wilderness area, what are the limitations on 
that?
    Mr. Rey. No motorized use.
    The Chairman. So it is at the edge and as far as you walk 
in?
    Mr. Rey. Right. And in the past, where Congress has 
included areas with roads as wilderness, we have generally 
closed the roads, not generally, unless the legislation 
specified otherwise, we have closed the roads and started to 
restore them to natural condition.
    The Chairman. The Wilderness Act is pretty specific about 
what wilderness is. In reading directly out of the Act, ``The 
earth and its community of life are untrammeled by man, where 
man himself is a visitor who does not remain. Undeveloped 
Federal land, retaining its primeval character and influence 
without permanent improvements, the imprintment of man's work 
substantially unnoticeable.''
    In part of this area, and I believe that we are all in 
agreement on 90,000 acres or 90-plus thousand acres in this 
particular bill, but in part of this area that is included, 
there are roads, bridges, culverts that are built in those 
areas. Do you believe that that fits the definition of 
wilderness?
    Mr. Rey. Again, it doesn't fit the statutory definition or 
the definition that we use in the Forest Service's planning 
regulations, which is why those areas weren't recommended by 
the Forest Service for wilderness inclusion. But the question 
of how expansive or restrictive you want to make that 
definition, as far as it relates to specific areas, is 
ultimately a congressional prerogative not an executive branch 
prerogative.
    The Chairman. I am fully aware we have the ability to do 
that. We have done it in the past, but in terms of protecting 
an area--and Mr. Larsen, Mr. Nethercutt and others have told me 
that they really do believe that that 16,000 acres needs to be 
protected--if it was designated as a national conservation 
area, national recreation area, backcountry area, would there 
be development, logging, mining, any activities that would 
destroy the pristine nature of the area that Mr. Inslee so 
eloquently described?
    Mr. Rey. In the current Forest Service, nonmotorized 
backcountry use designation for the area, none of those 
activities would be allowed. If, as a matter of creating an 
alternative designation for the purposes of this legislation 
you were to do so, it would help if you stipulated what you 
didn't want to have happen in those areas as well because we 
wouldn't have the immediate reverence to the Wilderness Act to 
draw upon, so it would probably be best to be more expressed in 
the legislation if you choose an alternative designation.
    Should you decide to do so, the simpler approach would be 
either backcountry nonmotorized use or a national recreation 
area. Those are both designations with which the Forest Service 
is familiar.
    The Chairman. So, as long as we are specific about what is 
allowed and what is not allowed, you believe the Administration 
would be able to enforce that?
    Mr. Rey. I don't think we would have any trouble with doing 
that, no.
    The Chairman. Thank you.
    I would like to recognize Mr. Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman, and welcome, Mr. 
Rey. Good to have you here today.
    I am asking questions on H.R. 4838, which I think is a part 
of your testimony, also--
    Mr. Rey. That is correct.
    Mr. Tom Udall.--the Healthy Forest Youth Conservation Act. 
And my first question is you already have a policy in place 
about 16- and 17-year-olds working in these hazardous 
situations, is that correct, both in the Department of Interior 
and the Department of Agriculture?
    Mr. Rey. That is correct.
    Mr. Tom Udall. And our legislation, the legislation I am 
working with Representative Walden on, doesn't have anything in 
it that would waive that policy or push that policy aside in 
any way. Our legislation doesn't conflict with that, so I just 
wonder why you even raise that issue. We are not trying to 
violate that policy. I don't think we are advocating that we 
send young people into that situation. If you have that policy, 
I would assume you would, with this legislation, be able to 
make it consistent with the legislation, couldn't you?
    Mr. Rey. I think, obviously, we can work on this because I 
think we share the same intent. Our reading of the legislation 
is that it would provide the opportunity for 16-and 17-year-
olds to engage in all of the activities listed in the 
legislation. And a fair reading of that would be that it would 
contravene the existing policy we have in place, but if that is 
not the intent, we can easily work on language to correct that 
situation.
    Mr. Tom Udall. That would be good. And you don't have any 
problem with young people, and I am reading here from Page 3 of 
the bill, with young people performing rehabilitation and 
enhancement projects to prevent fire.
    Mr. Rey. No.
    Mr. Tom Udall. And here are some of the additional tasks, 
rehabilitating public land affected or altered by fires or 
providing disaster relief, those kinds of activities you 
wouldn't have a problem with these Youth Conservation Corps 
carrying out.
    Mr. Rey. Correct. Those are all inherently nonhazardous. In 
the existing Youth Conservation Corps work that we do, we 
obviously keep the young people that work on the national 
forests or the Department of Interior lands out of hazardous 
situations, and we limit the amount of mechanized equipment 
that we allow them to operate. We don't let them operate 
chainsaws very frequently or any other equipment that could end 
up causing them harm.
    Mr. Tom Udall. Now, shifting to funding, in your statement 
on Page 4, the third paragraph from the bottom, you talk about 
funding constraints. And I am not sure what that language means 
there. Are you saying you oppose it because there is a $25 
million appropriation for successive fiscal year in there? I 
don't understand that language. It is very amorphous. Could you 
just come out and flat say what you mean? You know, the budget 
is in such a bad situation, you don't agree with spending any 
money on this, I mean, what is the--
    Mr. Rey. I think the simplest way to express the concept 
embodied in there is that we don't necessarily believe that we 
will meet a $25-million authorization with a similar amount 
budget request, and we don't want anybody to have the 
expectation that if this bill passes this year, that there will 
necessarily be $25 million available for this kind of work.
    That having been said, typically, when Congress passes a 
new piece of legislation with an authorization, it is an 
incentive, when we put together the next year's budget, to 
reflect that with some financial support for the program, but 
we are not in a position at this moment to tell you how much 
that is going to be.
    Mr. Tom Udall. But one would think that, from your 
testimony, you believe that these are worthy activities and 
something worthy of being supported in terms of budget 
resources.
    Mr. Rey. Yes. And there are a lot of options we can look 
at. Assuming the bill is enacted, some of the work that we do 
through commercial contracts right now could be done through 
these kind of Youth Corps, and we can use some of the money 
that we would use for commercial contracts to support this. So 
there are some allocations that can be made if the bill is 
enacted.
    Mr. Tom Udall. Thank you, Mr. Rey.
    I would yield any additional time to Mr. Inslee.
    Mr. Inslee. Thank you. Some of these questions precipitate 
a couple.
    The Chairman. If the gentleman would suspend for a minute. 
I recognize Mr. Inslee for 5 minutes for a second round of 
questions.
    Mr. Inslee. Thank you. I appreciate that, Mr. Chair.
    First off, I just want to note Mr. Pombo asked about this 
picture. It is actually kind of interesting. Where this picture 
was taken, it is at a trailhead, and it would be outside the 
boundaries of the wilderness, but interestingly enough there is 
a trail from that location that goes into Barkley Lake--it is 
about a mile or two--which was consciously excluded from the 
wilderness.
    And the reason the drafters excluded it is they wanted to 
preserve the right for like Boy Scout groups to go in there 
with 15, 20 kids, which has historically been the situation, 
but which was not allowed in the wilderness without a 
particular permit. That is just one sort of more example I 
think that the drafters have been careful to preserve 
individualized recreation that these kids can enjoy.
    But that leads to my next question. I guess what I sort of 
hear you say, Mr. Rey, that you think if you called these 
16,000 acres nonmotorized recreation areas, it would be 
functionally equivalent to a wilderness designation. But I am 
not sure that is true. There are distinctions in management of 
wilderness and nonmotorized recreational areas, are there not?
    Mr. Rey. I will speak now to the Forest Service 
administrative nonmotorized backcountry recreation designation.
    The primary differences in management go into some of the 
preventive activities regarding fire suppression and also fuel 
reduction work. We won't do fuel reduction work in a wilderness 
area. We may do fuel reduction work, if it is necessary, in a 
backcountry, nonmotorized recreation area. But aside from the 
Forest Service administrative designation, which is just one 
example of near functional equivalent to wilderness, whatever 
alternative designation you choose, should you choose to do so, 
you can stipulate what the Congress wants done or not done as 
you wish.
    Mr. Inslee. So there are differences on fires, there are 
differences on fuels reduction. There is also a difference on 
actually campfires. You can't have a campfire in a wilderness 
area, can you?
    Mr. Rey. Yes.
    Mr. Inslee. You can. How about size of parties? There is a 
requirement on size of parties in a wilderness area, at least 
the ones I am familiar with in Washington.
    Mr. Rey. Yes, that is not a universal requirement. 
Limitations on party size are usually done on a case-by-case 
basis.
    Mr. Inslee. Let me ask you about trails. Mr. Pombo has 
expressed a need for access to people, which I agree with in 
wilderness areas. I have hiked on literally hundreds of miles 
of maintained trails in wilderness areas, including the Alpine 
Lakes wilderness. We do a 25-mile, 1-day jaunt through there, 
with all kinds of pretty well-maintained trails. There is 
nothing in a wilderness designation that prevents building a 
foot trail in the wilderness, is there?
    Mr. Rey. No. We maintain foot trails in wilderness areas, 
generally.
    Mr. Inslee. But you do it through hard, manual labor 
without using mechanical. Is that basically the situation?
    Mr. Rey. That is right. This is a little bit more 
expensive.
    Mr. Inslee. And if you see those sherpas hauling that stuff 
around, would you thank them for me? That is tough work.
    Mr. Rey. Well, we will put some of the youth, in this Youth 
Conservation bill on that task.
    Mr. Inslee. There you go. Thank you.
    The Chairman. Does anyone have any further questions they 
would like to ask Mr. Rey before I dismiss him?
    [No response.]
    The Chairman. Thank you very much, Mr. Rey.
    Mr. Rey. Thank you.
    The Chairman. Again, we appreciate, as always, your 
willingness to come before the Committee and testify.
    I would now like to call up our third panel. On Panel 3, we 
have Jeff Sax, Councilman with Snohomish County; Ed Husmann, 
Sky Valley Resident and Snohomish County Farm Bureau member; 
Mike Town, Friends of the Wild Sky; Gene Chase, Snohomish 
County resident; Chris Fadden, Vice President, Washington State 
Snowmobile Association; and Aaron Reardon, Snohomish County 
Executive.
    I would like to remind the witnesses that, under Committee 
Rules, you must limit your oral statement to 5 minutes, but 
your entire written statement will appear in the record. And to 
make that easier for you, the series of lights on that little 
box that you have got in front of you there gives you an 
indication. The green light is when your time begins, the 
yellow light, it is time to wrap it up, and then the red light 
I would appreciate it if you would conclude your statements.
    Mr. Sax, thank you for being here. We are going to begin 
with you.

              STATEMENT OF JEFF SAX, COUNCILMAN, 
                  SNOHOMISH COUNTY, DISTRICT 5

    Mr. Sax. Good morning, Chairman Pombo, members of the 
Committee, ladies and gentlemen. My name is Jeff Sax, and I 
live in Snohomish, Washington, and represent the Fifth Council 
District on the Snohomish County Council. I am here today to 
testify on behalf of the Snohomish County Council to enter our 
concerns about H.R. 822, the proposed Wild Sky bill.
    Much of the proposed Wild Sky area lies in Snohomish County 
and in my council district. Snohomish County covers 2,090 
square miles and is one of the largest counties in Washington. 
Snohomish County's varied topography ranges from saltwater 
beaches, rolling hills and rich river bottoms in the West to 
dense forests and alpine wilderness in the mountainous East.
    Looking at the beauty of our county, it is no surprise that 
you would seek to protect it. While 106,000 acres may seem like 
a small proposal, let me put that size into perspective for 
you. In Washington State, we are required to manage our 
planning under the Growth Management Act. The GMA was adopted 
because Washington State found that uncoordinated and unplanned 
growth posed a threat to the environment, sustainable economic 
development and quality of life in Washington. Known as the 
GMA, the Act--Chapter 36.70A RCW--was adopted by the State 
legislature in 1990 and has been amended several times.
    The GMA requires State and local Governments to manage 
Washington's growth by identifying and protecting critical 
areas and natural resource lands, designating urban growth 
areas and preparing comprehensive plans and implementing them 
through capital investments and development regulations. This 
approach to growth management is unique among States.
    Within the framework provided by the Act, local governments 
have many choices regarding specific content of comprehensive 
plans and implementing development regulations, all of which 
are required to be evaluated through the State Environmental 
Policy Act, SEPA, which is Washington State's version of the 
National Environmental Policy Act, NEPA.
    As such, under GMA, we have currently set aside 189 square 
miles out of the 2,090 square miles in our county to be 
designated for urban growth and intend to add only 11.9 miles, 
at the maximum, square miles to that in planning for the next 
20 years of growth, as required by State law. The proposed Wild 
Sky area encompasses 165.6 square miles, nearly equivalent to 
all of the area in our county that will allow growth. Thus, for 
the Nation, this is a small impact. For our county, the impact 
is very large. It is an impact that should be evaluated through 
the SEPA and NEPA process.
    However, our primary concern is not the size of the 
proposal or the designation, but that Wild Sky proposal does 
not follow the intent of the 1964 Wilderness Act. I have read 
the letter from Chairman Pombo to Congressman Larsen with my 
fellow council members and representatives from neighboring 
King County. Several of them were original supporters of the 
Wild Sky bill and remain supportive of some type of protection 
for the area. However, they too share Chairman Pombo's 
concerns.
    Opposition to the current Wild Sky proposal by Congressman 
Larsen and Senators Murray and Cantwell is based on 
straightforward requirements of Federal law. Federal law 
provides explicit criteria which must be met to justify 
wilderness area designation. The problem is that the bill 
doesn't meet these criteria.
    I will pass by some of my written testimony, since it is 
already entered, and I would like to get down to the 
transportation side that we have discussed in earlier 
questions. I would like permission to enter into the record, if 
possible, letters from delegation member cities and the county 
with reference to transportation on Highway 2.
    Snohomish is the third-most populace county in the State 
and one of the fastest-growing. The county's population, as of 
April 2001, is 618,000. Between 1990 and 2000, the population 
grew by about 30 percent. The unincorporated outside of urban 
areas' population is about 294,000. The incorporated inside of 
cities is 324,000. The Federal Government's NPO Puget Sound 
Regional Council, the population forecast for Snohomish County 
for Year 2010 is about 706,000; in 2002, 833-.
    We are in the process of laying the plans out now, 
according to the GMA, to accommodate an estimated 250,000 new 
residents to the county over the next 20 years. Much of that 
growth will be in cities near Wild Sky, and one of the 
obstacles facing it is providing transportation infrastructure.
    Senator Murray has publicly commented that the intent of 
the legislation is to protect the area for outdoor enthusiasts. 
In Washington State, outdoor recreation is more than just a 
leisure activity. It is also a key part of our economy. If the 
estimates quoted by Senator Murray are indeed accurate, this 
wilderness designation will provide access to almost 2.3 
million Puget Sound residents and an untold number of tourists 
to Wild Sky. We simply can't accommodate this project traffic.
    It is essential that we improve access to this area if this 
bill becomes law, particularly U.S. Route Highway 2, which is 
part of the Cascade Scenic Loop, encompassing three Federal 
highways, U.S. 2, I-90 and I-405. Doing so will make it easier 
for visitors to enjoy the area and support the local economy by 
purchasing goods and services in neighboring communities.
    I have met with members of the Highway 2 Safety Coalition, 
and they too share my concerns about this corridor. You will 
see some of those concerns in the record.
    In the past 20 years, Washington State DOT statistics 
indicate a total of 7,400 collisions and approximately 113 
deaths; 5,135 persons injured on the corridor between Snohomish 
and Stevens Pass. The average daily vehicle through Monroe is 
approximately 44,000. These figures increase substantially on 
special and holiday weekends to over 104,000 vehicles in Sultan 
alone.
    Highway 2 is a two-lane road, locally known as ``the 
highway of death.'' In the past 35 years, there have been no 
capacity improvements to this highway yet. East Snohomish 
County--my district--has grown and will continue to grow 
substantially.
    Mr. Chairman, if I could, could I continue for a few more 
minutes, if possible?
    The Chairman. I would really prefer that you wrap it up.
    Mr. Sax. Let me wrap it up then, sir.
    In the end, with all of the flaws of the proposal duly 
noted, it is not wholly impossible to revise the legislation so 
that it can meet the requirements of Federal law and gain true 
bipartisan support at the local level, State and Federal 
levels.
    I ask you to consider suitable alternatives that may be 
worked out in order to achieve true bipartisan support of Wild 
Sky and bring before a bill that meets the intent of the 
Wilderness Act, allows access to the area and, above all, 
allows the voice of the community to be heard.
    That concludes my remarks.
    [The prepared statement of Mr. Sax follows:]

        Statement of Jeff Sax, County Council Member, District 5

    Good morning, Mr. Chairman, members of the Subcommittee, Ladies and 
Gentlemen. My name is Jeff Sax and I live in Snohomish, Washington, and 
represent the Fifth Council District on the Snohomish County Council. I 
am here today on behalf of the Snohomish County Council to enter our 
concerns about the H.R. 822, the proposed Wild Sky bill.
    Much of the proposed Wild Sky area lies in Snohomish County, and in 
my council district. Snohomish County covers 2,090 square miles and is 
one of the largest counties in Washington. Snohomish County's varied 
topography ranges from saltwater beaches, rolling hills and rich river 
bottom farmlands in the west to dense forest and alpine wilderness in 
the mountainous east. Looking at the beauty of our county, it is no 
surprise that you would seek to protect it.
    While 106,000 acres may seem like a small proposal, let me put that 
size into perspective for you. In Washington State, we are required to 
manage our planning under the Growth Management Act (GMA).
    The GMA was adopted because the Washington State Legislature found 
that uncoordinated and unplanned growth posed a threat to the 
environment, sustainable economic development, and the quality of life 
in Washington. Known as the GMA, the Act (Chapter 36.70A RCW) was 
adopted by the Legislature in 1990 and has been amended several times.
    GMA requires state and local governments to manage Washington's 
growth by identifying and protecting critical areas and natural 
resource lands, designating urban growth areas, preparing comprehensive 
plans and implementing them through capital investments and development 
regulations. This approach to growth management is unique among states.
    Rather than centralize planning and decision-making at the state 
level, the GMA built on Washington's strong traditions of local 
government control and regional diversity. The GMA established state 
goals, set deadlines for compliance, offered direction on how to 
prepare local comprehensive plans and regulations and set forth 
requirements for early and continuous public participation.
    Within the framework provided by the mandates of the Act, local 
governments have many choices regarding the specific content of 
comprehensive plans and implementing development regulations, all of 
which are required to be evaluated thru the State Environmental Policy 
Act (SEPA), Washington State's version of NEPA.
    As such, under GMA, we have currently set aside 189 square miles, 
out of 2,090 total square miles, in our county to be designated for 
urban growth and intend to add only 11.9 miles to that in planning for 
the next 20 years of growth, as required by state law. The proposed 
Wild Sky area encompasses 165.6 square miles, nearly equivalent to all 
of the area in our county that we will allow growth. Thus, for the 
nation this is a small impact, for our county the impact is very large. 
It is an impact that should be evaluated through the NEPA/SEPA process.
    However, our primary concern is not so much the size of the 
proposed designation, but that Wild Sky proposal does not follow the 
intent of the 1964 Wilderness Act. I have reviewed the letter from 
Chairman Pombo to Congressman Larsen with my fellow council members and 
with representatives from neighboring King County. Several of them were 
original supporters of the Wild Sky bill and remain supportive of some 
type of protection for the area, however, they too share Chairman 
Pombo's concerns.
    Opposition to the current Wild Sky proposal by Congressman Larsen 
and Senators Murray and Cantwell is based on the straightforward 
requirements of federal law. Federal law provides explicit criteria 
which must be met to justify wilderness area designations. The problem 
is that this bill doesn't meet these criteria.
    In his letter, Chairman Pombo laid out a set of principles that all 
proposals for wilderness designation must meet before passing out of 
committee. Among them, proposals should adhere to outstanding 
Wilderness Study Area recommendations, including those areas deemed 
unsuitable.
    As you know, the National Forest Management Act requires the Forest 
Service to draft and implement forest plans and revise them every 15 
years, analyzing and identifying potential wilderness. Of the 106,000 
acres in the Wild Sky proposal, Abigail Kimbell of the U.S. Forest 
Service reports that currently 16,000 acres are unsuitable for 
wilderness designation as they include 35 miles of roads that are in 
predominantly low elevation forests that have been utilized for both 
timber and mining in the last 80 years. In fact, her proposal suggests 
that based on the 1994 forest plan only 33,000 acres are truly suitable 
for wilderness designation.
    The Northwest has long relied on the revenue and economic activity 
produced by management activities on our national forests. As you may 
know, the Northwest experienced extreme economic, political and social 
upheaval in the early 1990's following the Endangered Species Act (ESA) 
listing of the northern spotted owl. As a result, the Clinton 
Administration developed the Northwest Forest Plan in an attempt to 
balance the important goals of species protection, management of our 
national forests and much needed economic activity.
    Prior to the ESA listing of the northern spotted owl and the 
Northwest Forest Plan, nearly one-third of the Northwest's federal 
timberlands were available and allocated to sustainable management. 
Today only twelve-percent of the Northwest's federal timberlands are 
allocated to management activities as ``matrix'' lands. The current 
Wild Sky proposal would remove 5,002 acres of matrix suitable/available 
for scheduled timber harvest, both full and partial yields, from 
management activities.
    Snohomish County and Washington State also rely on timber 
harvesting revenues. Harvested timber in Washington State yields 
revenues that fund our education system and public service agencies, 
including city and county government. The Department of Natural 
Resources is the steward of approximately 3 million acres of state 
uplands in Washington State. As such, we have a vested interest in 
ensuring that access is maintained to property held by the county and 
the state Department of Natural Resources.
    These trust lands also provide revenue from the sales of timber, 
leases, and other resources. In the last fiscal year, DNR generated 
$260 million in non-tax revenue, including $67.9 million for statewide 
school construction and $58.2 million for counties and other local 
taxing districts.
    If we are not allowed to maximize our abilities to access and 
harvest these lands, forecasted revenue and programs funded by those 
monies are affected. Furthermore, wildfire, floods, insects and disease 
simply do not recognize federal-state land boundaries and any inability 
to manage our federal forestlands only puts state, local and private 
lands at greater danger from the risks of catastrophic events. I submit 
to you a breakdown from our Public Works department outlining the 
damage and cost of repair from a flood that took place on October 19, 
2003.
    The City of Index, population 157, which lies in my district and 
would be nearly surrounded by the proposed Wilderness Area, is one 
example of a local jurisdiction partially funded by timber revenue. 
This raises two curious questions. First, how would a community so 
small be able to absorb any impacts from lost timber harvest dollars? 
Second, and following on another concern raised by Chairman Pombo in 
his criteria, is risk assessment. How would the city of Index be able 
to mitigate fire and protect their city when they are surrounded almost 
entirely by a wilderness area?
    All large federal government projects normally go thru the NEPA 
process to determine impacts. Wilderness legislation does not require 
the NEPA process as was required in the Interstate 90 Land Exchange Act 
of 1998. I have not seen plans that call for risk assessment in my 
district, which must be consistent with fire management plans and allow 
for appropriate mechanized access for wildfire containment or disease 
control. Given our region's current drought condition and numerous 
fires already this year, this principle must be addressed.
    Abigail Kimbell, Associate Deputy Chief, U.S. Forest Service and 
John Phipps, Mt. Baker Snoqualmie National Forest Supervisor, have both 
raised questions about Wild Sky's adherence to the original 1964 
Wilderness Act, bringing attention to the issue of man's already 
noticeable imprint in the area.
    To remove that imprint, John Phipps, Mt. Baker Snoqualmie National 
Forest Supervisor wrote to Congresswoman Jennifer Dunn on June 5, 2002, 
``...the estimated cost to restore these roads to a wilderness 
character and convert 12 miles to trail is estimated at $6.5 million.'' 
The Congressional Budget office estimated that the total cost of Wild 
Sky between 2004 and 2008 will be $18 million.
    As an elected official, I cannot justify using hard earned taxpayer 
dollars to remove infrastructure that they already paid for. Our state 
is starved for transportation infrastructure dollars and it just 
doesn't make sense to take $18 million to remove roads in order to 
restore ``wilderness character.''
    Rather, I would suggest that you consider removing these 
questionable areas from the legislation and dedicate funds to improving 
access to the area. It would make more sense to use those dollars for 
improvements in the Cascade Scenic Loop, namely U.S. Highway 2, so that 
visitors could more easily and more safely access the proposed 
wilderness area.
    The need for safety improvements in that corridor has been stated 
time and time again. Multiple appeals have come to Congress from our 
local mayors, State Representatives Kirk Pearson and Dan Kristiansen 
and State Senator Val Stevens. I am asking you today to consider 
funding a corridor study for U.S. Highway 2 between the city of 
Snohomish and Stevens Pass, the area bordering the proposed Wild Sky 
area and serves as its only access road. This is the initial step 
needed in a process to improve safety and capacity on this highway.
    Snohomish is the third most populous county in the state, and one 
of the fastest growing. The county's population as of April, 2001 was 
618,600. Between 1990 and 2000, Snohomish County population grew by 
about 30%. The unincorporated (outside cities) population is 294,088 
and the incorporated (inside cities) population is 324,512. According 
to the Puget Sound Regional Council (1995), the population forecast for 
Snohomish County for year 2010 is 706,959, and for 2020 is 833,661.
    We are in the process of laying out plans now, in accordance with 
the Growth Management Act, to accommodate an estimated 250,000 new 
residents to our county over the next twenty years. Much of that new 
growth will be in the cities near Wild Sky and one of the biggest 
obstacles we face is providing transportation infrastructure.
    Senator Murray has publicly commented that the intent of this 
legislation is to protect the area for outdoor enthusiasts. In 
Washington State, outdoor recreation is indeed more than just a leisure 
activity it is also a key part of our economy. If the estimates quoted 
by Senator Murray are indeed accurate, this wilderness designation will 
bring nearly 2.3 million visitors and untold numbers tourists to the 
Wild Sky area. We simply can't accommodate this projected traffic.
    It is essential that we improve access to the area if this bill 
becomes law, particularly U.S. Route 2, which is part of the Cascade 
Scenic Loop, encompassing three federal highways, US-2, I-90 and I-405. 
Doing so will make it easier for visitors to enjoy the area and support 
the local economy by purchasing goods and services in neighboring 
communities.
    I have met with members of the Highway 2 Safety Coalition and they 
too share my concerns about this corridor. This coalition is comprised 
of local elected officials, businesspersons, administrators and 
concerned citizens working in partnership with the Washington 
Department of Transportation, Snohomish County, and all five city 
officials in the area.
    In the past 20 years, Washington State Department of Transportation 
statistics indicate a total of 7,454 collisions with approximately 113 
deaths, and 5,135 persons injured in the corridor between Snohomish and 
Stevens Pass. The average daily vehicle flow through Monroe is 
approximately 44,000; through Sultan 24,000 and Goldbar 12,000. These 
figures increase substantially on special and holiday weekends to over 
104,000 vehicles in Sultan alone.
    U.S. Highway 2 is a two-lane roadway known locally as ``the highway 
of death.'' In the past 35 years, there have been no capacity 
improvements to this highway, yet East Snohomish County--my district--
has grown and will continue to grow substantially.
    I would like to submit for your review letters from our Washington 
State Senator Val Stevens, Representative Dan Kristiansen, 
Representative Kirk Pearson, the Highway 2 Safety Coalition, Snohomish 
County Committee for Improved Transportation, Snohomish County Economic 
Development Council, local chambers of commerce, local business leaders 
and constituents in support of the corridor study.
    Another question that still lingers with the legislation is 
allowances for property protections if they exist within or adjacent to 
a potential wilderness area. It is my understanding, again from 
Chairman Pombo's correspondence, that all exceptions, such as those for 
snowmobile use, should be specifically called for in the legislation. 
Currently they are not. The area is frequented by snowmobiles, off road 
vehicles and private property holdings accessed by float plane. While 
it is my understanding that these stakeholders have been assured 
access, I cannot find those exceptions in the legislation as it is 
currently drafted.
    Finally, Chairman Pombo calls for community involvement, approval 
from the entire congressional delegation and adequate notice and local 
public hearings. To date, despite requests from the public and the 
Snohomish County Council, not a single Congressional hearing has been 
held in the district to collect input from the citizens it would 
affect. Meetings that were held were based on pending legislation, not 
the actual bill and maps before you. In the past few weeks, we've read 
about possible compromises in the newspaper, but have yet to see the 
alternatives on a map or in writing.
    Most disconcerting is the fact that the bill's sponsor, Congressman 
Larsen, a former member of the Snohomish County Council, has yet to ask 
for the opinion of the Council on this bill. Neither has Senator Murray 
or Senator Cantwell. Senator Murray promised last year at a Wild Sky 
Senate hearing on June 4th that she would seek local input and yet 
we've seen no efforts put toward that promise. In fact, neither Senator 
Murray or Cantwell, nor Congressman Larsen have responded to letters 
sent by our Council to their offices. Our new young executive, Aaron 
Reardon, who is here to testify on behalf of the County, also has yet 
to discuss this matter with the Council. Clearly this is not community 
involvement, involvement that would have come thru NEPA & the EIS 
process.
    However, we hear regularly from Forests for People, who have over 
1,400 members directly impacted by this legislation, about their 
opposition to Wild Sky in their backyard. The Snohomish County Farm 
Bureau as well as the Washington State Farm Bureau Board of Directors 
has also contacted my office in opposition to Wild Sky. One of the 
bill's original proponents, King County Council Representative Kathy 
Lambert, whose district would also include the Wild Sky area, has taken 
a second look at the current bill and raised the same questions as I 
have before you today in opinion editorials in our state. Many who are 
listed on the proponents list are taking a second look at the 
legislation.
    The original intent of the Act, which we would like to see 
preserved, says among other things that Wilderness is ``...an area 
where the earth and its community of life are untrammeled by man, ...an 
area of undeveloped Federal land retaining its primeval character and 
influence, without permanent improvements or human habitation, ...with 
the imprint of man's work substantially unnoticeable.''
    This is not to say that there aren't lands in the Mount Baker-
Snoqualmie eligible under the 1964 Wilderness Act that would help meet 
the goals of Wild Sky. I am not opposed to that. In fact, limiting the 
designation to these boundaries is an alternative that should be 
considered, along with ensuring a transportation infrastructure that is 
safe and can accommodate Senator Murray's predicted increase in traffic 
as we open this wilderness to 2.3 million local residents and untold 
tourists. Perhaps the 16,000 acres in question by the U.S. Forest 
Service could be maintained as national forest, or a national 
recreation area or other designation as a means of compromise--one that 
allows this bill to become reality.
    With all of the flaws in the proposal duly noted, it is not wholly 
impossible to revise the legislation so that it can meet the 
requirements of federal law and gain true bipartisan support at the 
local, state and federal government levels. I ask you today to consider 
suitable alternatives that may be worked out in order to achieve true 
bipartisan support of Wild Sky and bring forward a bill that meets the 
intent of the Wilderness Act, allows access to the area and, above all, 
allows the voice of the community to be heard.
    Mr. Chairman, that concludes my written testimony. I appreciate the 
opportunity to be here to today and welcome any questions you or the 
committee may have.
                                 ______
                                 
    The Chairman. Thank you, sir.
    I would now like to recognize Mr. Husmann for his 
statement.

       STATEMENT OF ED HUSMANN, SKY VALLEY RESIDENT AND 
              SNOHOMISH COUNTY FARM BUREAU MEMBER

    Mr. Husmann. Good morning, Mr. Chairman, Members, ladies 
and gentlemen. I am Ed Husmann, and I have lived a few miles 
from the Wild Sky area for more than 25 years in Sultan, 
Washington. I am here today on behalf of the Snohomish County 
Farm Bureau, the Chelan/Douglas County Farm Bureau, more than 
2,000 citizens who have joined Forests for People, myself and 
many others who have entrusted me to convey to you our 
opposition to the Wild Sky Wilderness Act of 2003, H.R. 822.
    I would formally like to request, with the Chairman's 
consent, to submit into the hearing record the following 
letters, memos, petitions in opposition to H.R. 822, as well as 
other supporting documents.
    The Chairman. Without objection, it will be included as 
part of your testimony.
    [NOTE: Numerous letters and statements submitted for the 
record on H.R. 822 have been retained in the Committee's 
official files.]
    Mr. Husmann. I have here more than 100 letters just 
recently written, of particular note from former Speaker of the 
House Clyde Ballard, who served 20 years in our legislature and 
7 years as speaker, also letters from State Senator Val 
Stevens, Representative Christensen, Pearson, Commissioners Ted 
Anderson, Don Munks, the mayor of Skykomish, and of course 
Skykomish resides right next to the wilderness area.
    I would submit that we do not need any more wilderness in 
Snohomish County, as for that matter, the State of Washington. 
Forty-seven percent--our national forest here in the State of 
Washington is 47 percent designated wilderness right now. Just 
exactly how much wilderness do we need?
    Snohomish County's portion of the Mount Baker--Snoqualmie 
National Forest will be 63-percent wilderness if Wild Sky 
passes into law. Is this appropriate or fair? Is this really 
the right thing to do?
    I believe the more appropriate question that we should be 
addressing is how much wilderness do we need? I am finding 
that, even today, after more than 3 years of Wild Sky, very few 
people know of it. Even fewer know what a wilderness is. In Mr. 
Ballard's letter, the second sentence says it all. ``The more 
details I become aware of--'' he is just becoming aware, and 47 
percent of our State is now wilderness. How did we get there? 
How unaware are we?
    Two meetings in Snohomish County in over 3 years on Wild 
Sky. Testimony? No testimony was taken, no wilderness 
education, no economic studies, no EIS or NEPA, no studies on 
access or impact studies to the surrounding communities. In 
fact, the EDC letter that you have contains no factual or study 
information. It was merely a letter written from the lady who 
wrote it. I don't think that is much community involvement.
    Is the area suitable? Well, if you obey the law, the 1964 
Act, which I think is fairly clear, the answer is, no. You may 
find a 5,000-acre piece here or there that comply with the 
provisions, but is that a mandate to designate?
    Now, I don't think anyone in this room is implying or 
plotting to destroy this wonderful area, certainly no one I 
know. I am not so sure that Mr. Town and I don't want the same 
things here--a beautiful forest that we can access and enjoy, 
forests that are safe, healthy forests that radiate their 
majesty. Now, I don't know about virgin forests or pristine or 
former glory or poor habitat or ancient, and actually I should 
know about ancient. The kids say I am older than dirt.
    What I do know about this place, the area of Wild Sky, is 
that it is beautiful. I also know that there has been lots of 
mining and logging up there not so long ago. And as Mr. Town so 
accurately points out, this area has recovered, even to its 
former glory, whatever that means. And all this happened under 
the stewardship and watchful eye of the Mount Baker-Snoqualmie 
National Forest. I say bravo to the national forests and their 
employees. That brings me to the point why this exercise if it 
is already pristine?
    The place where Mr. Town and I seem to part company is in 
the area of trust. Now, as I recall, the Wilderness Act says 
that only the forces of nature are to work in a wilderness 
area--forces like fires, floods, insects, and viruses. 
Actually, the way I read it, attempting to restore habitat, 
trammeling, is definitely against the law. The National Forest, 
like us, can only watch, at least the way I read it. No work or 
managing is to be done. I believe the National Forest is doing 
a good job, and I trust that they will continue to do so; Mr. 
Town and the Wild Sky supporters don't.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Husmann follows:]

             Statement of Ed Husmann, Sky Valley Resident, 
                and Snohomish County Farm Bureau Member

    Good morning Mr. Chairman, Members, Ladies and Gentlemen. I am Ed 
Husmann and I have been a resident of Sultan, Washington for 25 years, 
which is located a few miles west of the proposed Wild Sky wilderness 
area. My wife and I own twenty-three acres, with a small orchard 
operation, that has a direct view of the western edge of the area we 
are discussing today. I recently retired after 30 years of service as a 
Captain with United Airlines. I was also a Navy Pilot and served in 
Vietnam and retired in 1984 with a rank of Commander. I have a BS 
degree in Metallurgical Engineering, from the University of Nevada-
Reno. I also completed my teaching certification at Trenton State 
College and Postgraduate studies at Rutgers University. I taught at 
Somerset County Vocational High School, New Jersey for approximately 5 
years in the 1970's. I have 4 daughters and one son, along with two 
stepsons and a stepdaughter. My wife and I have 6 grandchildren. I 
currently am a Board Member of the Snohomish County Farm Bureau.
    I am here today on behalf of myself, the Snohomish County Farm 
Bureau, the Chelan/Douglas County Farm Bureau, the more than 2,000 
local citizens who have joined Forests for People, as well as many 
others who have entrusted me to voice their opposition to H.R. 822, the 
Wild Sky Wilderness Act of 2003. I would like to point out that our 
State Farm Bureau Policy book includes Forestry in the definition of 
Agriculture (Encl. 1) and that this policy book contains many policy 
statements that preclude support for this most restrictive federal land 
use designation. For clarity, I would also indicate to you that Chelan 
County is directly east of Snohomish County and shares a boundary line 
through the neighboring Sen. Henry M. Jackson Wilderness Area. 
Recently, Chelan County has suffered devastating forest fires and as we 
meet here today yet another forest fire is burning in the Icicle Creek 
drainage area. The citizens of Chelan County maintain a keen interest 
in any activity that may increase their exposure to losses from 
catastrophic wildfires.
    I would like to formally request, with the Chairman's consent, to 
submit into the hearing record the following letters, memos, and 
petitions in opposition to H.R. 822 as well as other supporting 
documents.
    Having lived and recreated in the Wild Sky area for the last 25 
years, I know the area very well. Furthermore, my wife, children, grand 
children, and I have all participated in both motorized and non-
motorized recreational activities in the proposed ``Wild Sky'' area 
over these years. I have day hiked, backpacked, off road motorcycled 
and mountain biked throughout this area. I have backpacked into Lake 
Isabel and my children and I have flown into Isabel for a picnic in a 
friend's floatplane. We enjoy these diverse activities and do not want 
to change any recreational opportunities afforded us, or for that 
matter, anyone, in this area. We only hope that the people using this, 
or any outdoor area, would use common sense, and are considerate of 
both the land and others in the area. Unfortunately, these qualities 
cannot be legislated.
    I would like to point out that the list of organizations in support 
of the ``Wild Sky'' (Encl. 2) might not, necessarily reflect the views 
of its members or patrons. The list published on the Wild Washington 
Campaign website lists, in particular, REI (Recreational Equipment 
Inc.), The Mountaineers and WTA (Washington Trails Association). I have 
been a member of REI for more than 30years and have spent an enormous 
amount of money at their stores and through their catalogue. I can tell 
you that my wife would rather shop at REI than Nordstrom's. We do not 
appreciate REI spending ``our'' dividends on lobbying ``Wild Sky'' into 
existence. We also belong to the Mountaineers and the WTA (Washington 
Trails Association). As a member in good standing of all of these 
organizations, I can report that the membership was never asked about 
taking a position on this legislation. We participated in ``National 
Trails Day'' both last year and this year. It was very interesting that 
one of the repair projects this year in the Darrington area was in a 
wilderness area. My friend and I volunteered for the ``extreme'' repair 
project and were among the 8 of the 75 volunteers that agreed to endure 
the ``tough day''. Mind you, both my friend and I are over 60 while the 
others were much younger. Wilderness areas are not friendly to us older 
folks! As a point of interest, the Forest Ranger stated that they used 
dynamite to move deadfalls and stumps in wilderness areas. That 
surprised me, but I was told that it was not ``mechanical transport''.
    Although I have tried, I have yet to understand why this area needs 
to be protected. What is the threat to this area? All of this land is 
part of the Mount Baker-Snoqualmie (MBS) National Forest. Are the 
``Friends of Wild Sky'' implying that the Federal government and the 
Forest Service are plotting to destroy this beautiful area? Last year, 
as well as today, Mr. Town testified (Encl. 3) on behalf of ``Friends 
of Wild Sky''. In his testimony before the Senate Energy and Natural 
Resources Subcommittee, Mr. Town described the Ragged Ridge area as 
``wilderness in the truest sense'' and an area of ``core security 
habitat.'' He states the lower North Fork of the Skykomish Valley 
contains ``beautiful ancient forests.'' He describes extensive 
``virgin'' forests in the upper Trout and Howard Creek areas. He 
reported that the areas that were logged around 1920 are now recovering 
naturally and that previously harvested stands in the North Fork area 
had grown back on their own, without protection, and have now almost 
returned to their ``former glory.'' ``Other than the occasional stump, 
these forests appear quite natural to almost all visitors as they 
assume the characteristics of true ancient forest.'' The truly amazing 
statement here is that Mr. Town claims this area has returned to a 
``true ancient forest'' and I find that confusing. Am I to understand 
that the loggers were correct all along--we can harvest the resources 
and these areas will return to their natural ancient state? Sounds like 
we owe a ``BRAVO'' to the employees of the Forest Service for a job 
well done. This is certainly contrary to environmentalist claim that 
once harvested these lands are somehow ``lost forever.''
    Contrary to the claims you may have read, local community 
involvement concerning this issue has been severely lacking. To date 
there have been only three quasi-public meetings in Washington State 
and all occurred before the Wild Sky legislation was crafted and the 
formal maps prepared. There was no public testimony ever heard at these 
meetings nor was there opportunity for such, and there are no 
mysterious file cabinets containing such materials as was claimed 
during the Senate hearing I attended in 2003. Furthermore, the meeting 
held in Seattle clearly cannot be considered local ``community 
involvement.'' The Wild Sky wilderness proposal is the quintessential 
example of a devil hiding in the details
    It is certainly not a bipartisan issue here in Snohomish County, 
which by the way, is where the land in question is located. You have 
letters on record from the Snohomish County Republican Party, Snohomish 
County Council, and elected officials from the 39th Legislative 
District, Sen. Val Stevens, and Representatives Kristiansan and Pearson 
(Encl. 4) Also, at the 2004 Snohomish County Republican Convention, a 
NO-Wild Sky resolution was passed unanimously.
    U.S. Highway 2, commonly referred to as the ``Highway of Death'', 
is the only access to this proposed wilderness area. It is deplorable 
that Senator Murray and Congressman Larsen would consider legislation 
that they say would generate additional traffic to this highway 
without, at the same time, working on ways to improve highway safety. 
It is ironic that if Wild Sky becomes wilderness, the Congressional 
Budget Office estimates the Federal government will have to spend 
millions of our tax dollars to destroy roads and any other evidence of 
man, in an attempt to create a wilderness where one presently doesn't 
exist. In addition, and to add to this ridiculous travesty, no formal 
studies have been done to determine either the environmental or 
economic impacts on surrounding communities served by the Cascade Loop 
Scenic Highway. Even more disturbing, is the misunderstanding of the 
impact this bill will have on the recreational opportunities in this 
area. I fail to understand why the supporters of the Wild Sky proposal 
did not first request to have this proposal reviewed under the National 
Environmental Policy Act as was recently done with the I-90 wilderness 
proposal in my state. Mr. Chairman and members of the Subcommittee, I 
urge you to ask the Wild Sky proponents if they would object having 
Wild Sky go through the NEPA process just like any other major proposal 
affecting public lands. I would hate to think that management of our 
Federal lands has gotten to the point where there was more formal 
environmental analysis done for the last outhouse placed on the Mt. 
Baker-Snoqualmie National Forest than there was for the Wild Sky 
Wilderness proposal.
    Let's be truthful. The 1964 Wilderness Act is really quite clear. 
It is the law and the intent is easily understandable. I believe in the 
``purity'' of this law, it clearly states wilderness areas are for the 
enjoyment of the American people the only actual species mentioned in 
the Act. This important legislation states that areas of wilderness, in 
their natural state, may be set aside and protected from the works of 
man, untrammeled by man. Wilderness areas are to be managed so as to 
maintain their natural condition, affected primarily by the forces of 
nature. Now, that's pretty clear, a wilderness has to have these 
characteristics prior to consideration for designation. Going into an 
area with bulldozers and track hoes to create a wilderness is 
definitely not what Senator Henry ``Scoop'' Jackson had in mind when 
this law was passed. It has to be wilderness to start with, no advanced 
degree required to understand that. Only the forces of nature may work 
in these areas, no chain saws and travel is by foot or horse, no 
mechanized transport. The American people may visit, you may look and 
enjoy the quiet but that is it, it is not a recreational (Enc. 7, pg3, 
Q2) area, it is a museum, look but don't touch. Pretty simple, and it 
makes the Wild Sky Wilderness proposal an entirely different 
proposition.
    The National Visitor Use Monitoring Results (Encl.5) indicates 
wilderness use is a relatively small percentage and narrow demographic 
portion of the Forest visitors. Nationally, there were 257 million 
(Encl.10, pg 8) visits that included 14.3 million wilderness visits. 
Additionally, another 258 million people enjoyed viewing National 
Forest scenery from non-Forest Service managed travels ways. I strongly 
suspect that the bulk of travel ways refers to roads and vehicles. 
These numbers strongly demonstrate that people use roads. More people 
enjoyed the National Forest via ``travel ways'' then all other visits 
combined. How can you justify closing roads in the face of these 
figures? And, wilderness visits, we have nearly half our National 
Forest locked up in wilderness now and only 5% of the site users go 
there. Even more graphic is adding those who basically sight see from 
their cars--wilderness visits become 2%. These are sobering statistics 
when considering the destruction of our forest roads, infrastructure, 
in the Wild Sky area at a cost of $18million or more to the taxpayers?
    Specifically, in the MBS area (Encl. 5, pg 8,9) there were 10.3 
million site visits of which .779 million were to wilderness. That's 7% 
of the site visitors use wilderness. This does not count the visitors 
that drive though for the scenic value of the Forest, which may be a 
figure that exceeds that of the site visitors. Why are you considering 
more wildernesses?
    In summary, this area is not wilderness to start with. Wilderness 
already comprises 47% of our National Forests in our State. Isn't this 
enough? If Wild Sky is enacted the National Forest in Snohomish County 
alone will be 63% wilderness designated land. Is that reasonable? This 
proposal is fraught with technical and legal problems. Many citizens 
including our elected officials are ignorant regarding this proposal 
(Encl. 6), its implications and even it's location. Those who do 
understand agree that this legislation will not enhance the economy. 
Either way, I am at a loss as to understand how you could make an 
educated decision without any formal studies or data.
    Officials at the Mount Baker-Snoqualmie National Forest do not 
appear to be excited about endorsing this idea and have clearly stated 
that no new trails would be constructed in this area regardless of Wild 
Sky (Encl 7, pg3, Q2). In addition, the cost of building trails in this 
area would exceed $100,000 per mile. New trails were one of the key 
promises made by the proponents of this bill. It now appears that this 
area is a habitat area for the Grizzly Bear, which, among other things, 
requires that no new trails be built.
    The Farmers and Cattleman (Encl. 8) who are traditional stewards of 
the land do not support this proposal. The issues of right of way, 
private property and safety all spell litigation. A potential lawsuit 
has already been filed (Encl. 9). In all the information that I have 
seen, read and heard, I am unable to find any compelling reasons to 
continue expending valuable energy on this legislation that further 
restricts our individual freedoms. Given the campaign season in full 
swing, this proposal has become a political issue and its merits good 
or bad are completely obscured by the politics of the day. Lastly and 
most sadly if this legislation is passed, some of the recreational 
freedoms that I, and my neighbors enjoy in this area will become 
Federal criminal offences, except walking and horseback riding. I 
strongly believe that the ``Peoples House'' should view this bill for 
what it is and give it no further action. Just say NO for ``we the 
people''.
    As Teddy Roosevelt once stated ``If your horse is dead, dismount''.
    As a postscript to my testimony, I would like to share with you a 
true story that I believe you are familiar with. This story is about 
consequences of our political meddling with Nature.
    There is a coined phrase that I hear often ``...we need to 
`preserve, protect, the owls, fish, trees, etc, the list is endless,' 
for our children and future generations.''
    This is a story about children, my children and their children and 
the ``children's pool'' in La Jolla California. One of my daughters and 
her family, two grandchildren, all reside in La Jolla. The children's 
pool was built a long time ago, in fact it all started in June of 1931. 
Ellen Scripps Browning donated an enormous sum, at that time, of money 
and in conjunction with the State of California, built a wall on the 
sea shore in the city of La Jolla. The surf in the area was rough and 
dangerous for the children. The wall was constructed to form a pool--a 
tide pool--for the children to swim, play, explore and discover sea 
life.
    This pool was built and put into a trust ``to be forever'' held by 
the City of San Diego (Encl. SD). The purpose being spelled out 
explicitly;
    1)  Exclusively for a public park and bathing pool for Children
    2)  The absolute right to fish
    3)  The state retains the mineral rights
In trust forever, the Children's Pool.
    This was a wonderful thing for about 50 years. Beginning in the 
1980's and furthered by the enlightened plant and animals FIRST 
movement, occasional visits to the area by Sea Lions became a concern 
for the Fiends of Sea Lions. It seemed that human activity in the 
children's pool disturbed the Sea Lions and it made the creatures 
nervous and shy about entering the children's pool. So, off to the City 
Council the Friends of Sea Lions marched, with their complaint. All 
this human activity was in fact disturbing the Sea Lions and the City 
needed to correct the problem.
    After many meetings, with the Friends of Sea Lions attending in 
force, the children and their parents were at the pool, a bipartisan 
agreement was forged--Sea Lions Yes, children No.
    As no one was allowed to hassle the Sea Lions, they populated the 
pool in force. Since these are marine mammals worthy of special 
recognition, the children's pool became a Marine Preserve. Well this 
activated the Marine Mammal Protection Act provisions, everyone out of 
the pool, and no fishing either.
    Well, the water in the pool was polluted with Sea Lion fecal 
material and, in reality; no children were in the pool anyway. For the 
past few years no one would want to go there anyway because of the 
smell and the mess--except a few angry Dads. They donned their 
wetsuits, masks, fins and snorkel, and entered into the pool. Of course 
the police had been tipped and the ``invaders'' were arrested as they 
exited the waters. No one went in after them, not in that water. They 
were handcuffed and carted off to jail.
    The status at this time, well, I believe some of the human 
``invaders'' were forced to pay the $1,000 fine imposed by the National 
Marine Fisheries Service. Apparently you can now merely stroll in the 
area, gas mask recommended, while populations of sea lions are 
exploding all over the west coast.
    To me the parallels are frightful. What in fact are we doing?
    Thank you for the opportunity to testify before this committee 
today.
                                 ______
                                 
    The Chairman. With all apologies to our witnesses, we have 
been called over to the House Floor. We have a series of three 
votes. It will probably be about 30 minutes that we will be in 
recess. Again, I do apologize to you for it, but we have no 
control over what they do on the floor. So as soon as we 
complete the votes, we will come back into the hearing and Mr. 
Town will be recognized for his testimony.
    The Committee stands in recess.
    [Recess.]
    Mr. Walden. [Presiding.] I am going to call back to order 
the Subcommittee on Forests and Forest Health. When we, as I 
understand it, when we left off, we have heard from two of the 
witnesses; is that correct? And we have four to go.
    I would now recognize Mr. Town for his statement. Good 
afternoon, and thanks for bearing with us on a rather hectic 
day. And we do appreciate Mr. Town's testimony. Let us move on 
now. We will get to him in a minute.
    Shall we go to Mr. Chase?

                  STATEMENT OF GENE L. CHASE, 
                   SNOHOMISH COUNTY RESIDENT

    Mr. Chase. Good afternoon. I have to change my speech. It 
originally said good morning.
    Mr. Walden. That is the way my day has gone too.
    [Laughter.]
    Mr. Chase. Yes, that is true.
    My name is Gene Chase, and I have lived, and worked and 
recreated in this Wild Sky area for the past 59 years. I am a 
lifelong resident of Snohomish County, having grown up in 
Everett, Washington, attended the University of Washington's 
College of Forestry, and now reside in Arlington. There are two 
Arlingtons--Arlington, Washington, and Arlington back here. I 
was a board member of the Arlington School District and 
currently a trustee of the Everett Community College.
    Since the 1950s, I have fished, hiked, hunted and worked in 
these areas. In addition, my family and I have owned 5 acres on 
the North Fork of the Skykomish for 45 years. Because of my 
lifelong attachment and commitment to the local communities of 
Snohomish County, the reason for my coming back here today, and 
the focus of my testimony, is to stress with each of you how 
important it is to study the Wild Sky wilderness proposal very, 
very carefully.
    I first began to practice forestry in the Wild Sky area in 
the 1960s, where I was surveying, working as a young forester 
for State Forestry and surveying some mining claims. I then 
went on and worked on some Forest Service timber sales in all 
of these areas and processed them.
    A side that amazes me is I realize now that the people I 
practiced forestry with in the 1960s and 1970s, we did a better 
job than we thought we were doing because now they are being 
considered for wilderness area. So we think we did a pretty 
good job, but maybe we are patting ourselves on the back.
    Since 1986, I have owned and operated my own boat-building 
company, specializing in timber sale road construction, road 
decommissioning, putting in fish-friendly culverts on portions 
of the Wild Sky, other areas of the Mount Baker-Snoqualmie, the 
Olympic National Forest and o on.
    I also want the Committee to know that Congressman Rick 
Larsen, whose family are friends of mine, and I have privately 
met on several occasions to discuss my deep concerns with this 
wilderness proposal. While I retain a high regard for 
Congressman Larsen, who represents our district well, I have to 
admit that I have some serious concerns about the suitability 
of the lands included in this legislation.
    I want to talk briefly about the apparent lack of process 
in this. We have really only had two, not hearings, but as I 
have sort of worked it, meetings out there on it, and there 
hasn't been enough, I feel, hearing and input involved in it. 
The original Wild Sky was not drafted until 2002. Whereas, 
those meetings were held I believe in 2000 and 2001. I would 
like you to take time to hold an important hearing out on the 
West Coast, if possible. That may not work, but I would like to 
have you look at it.
    I am trying to acquaint you with the area and stress that I 
have worked this area as a forester, as a road builder as a 
road decommissioner. When I was a young man, and a lot thinner, 
I used to crawl around and crawl up and down these trails and 
fish them and so on. So I do understand it.
    Portions of this area butt up against the Henry Jackson 
Wilderness Area. Senator Henry ``Scoop'' Jackson was another 
good old Everett boy. As an Eagle Scout, he hiked many of these 
areas. Scoop understood what wilderness was, and he understood 
what wilderness wasn't. In my opinion, the proponents of this 
legislation do not understand wilderness the way that Scoop 
Jackson understood the meaning of wilderness.
    Presently, the Mount Baker-Snoqualmie National Forest 
administers eight wilderness areas, totaling 720,000 acres. 
Nearly 42 percent of the 1.7 million acres on the forest are 
not wilderness yet they are reportedly used by only 13 percent 
of the national forest visitors, even though 55 percent of 
Washington's population lives within an hour drive of a 
wilderness area.
    I want the Committee again, and we have touched on it here 
earlier, to realize that there are entrances of man involved 
there. There is substantial human improvements within the Wild 
Sky area. There are 29 miles of road, 99 culverts, 60 of them 
rated as high risk of failure, 7 bridges, 1 concrete one which 
you have seen the picture of, and there is 6,000 acres that 
were previously harvested for timber. There are 3 dams, some 
that are abandoned, and there are cabins and so on. So this 
area is not untrammeled or so on. The issue, again, is of it 
has been visited by man, it has been worked by man, and so I 
think that those areas should be looked at.
    The next area I would like to talk about a little bit is 
the new trails. It has been bandied about by the Forest Service 
and so on, on building new trails. I think the issue here that 
should be studied is on this issue of the grizzly bear habitat. 
Even if you designate it and want to do it, I suspicion that 
you are going to have some serious problem with the grizzly 
bear habitat and the ability to build trails.
    I have, as a taxpayer and so on, I have sort of a question 
about building new trails on the Mount Baker-Snoqualmie. Right 
now, we have several trails closed. We have major roads that 
were washed out in the winter flood, and those are not being 
handled, so why set up expectations with more things when you 
can't take care of what you have already?
    I think as a professional forester--and I look upon myself 
as that, in that I graduated in forestry, though the Everett 
Herald thinks I am a logger--I have one thing to look at is the 
wildfire issue. This has to be addressed more carefully of how 
you handle it. Mr. Rey addressed it a little bit, but we should 
do some more studying on how we are handling fuel loading and 
so on in there.
    I am trying to make sure that I--thank you. I am going to 
wind it up.
    In the end, I guess I would ask you--in closing, I ask you 
to delay moving this legislation forward so as to allow further 
analysis and study. In my opinion, this is precisely what NEPA 
process is all about, and this Subcommittee needs to look no 
further than the proposed I-90 Wilderness in Washington in 
1998, where Congress requested an EIS to be involved. To me, 
this seems like a very prudent and responsible path forward and 
will go a long ways toward ensuring that Wild Sky receives 
appropriate protection.
    Thank you.
    [The prepared statement of Mr. Chase follows:]

          Statement of Gene L. Chase, C & C Contracting, Inc.

    Good morning, Mr. Chairman, members of the Subcommittee, ladies and 
gentlemen. Thank you for the opportunity to discuss my perspective, 
experiences, and concerns with the Wild Sky wilderness proposal. My 
name is Gene Chase, and I have lived, worked and recreated in the Wild 
Sky area for the past 59 years. I am a lifelong resident of Snohomish 
County, having grown-up in Everett, Washington, attended Forestry 
School at the University of Washington, and now reside in Arlington, 
Washington (yes, there is another Arlington and another Washington). I 
am a former Board Member of the Arlington School District, and I am 
presently a Trustee for the Everett Community College.
    Since the 1950's, I have hiked, fished, camped, and worked in most 
of the areas now proposed for inclusion in the Wild Sky wilderness 
designation. In addition, my family and I have owned 5 acres on the 
North Fork of the Skykomish River adjacent to the Wild Sky area near 
Index, Washington for 45 years. Because of my lifelong attachment and 
commitment to the local communities of Snohomish County, the reason for 
my coming back here today and the focus of my testimony is to stress 
with each of you how important it is to study the Wild Sky wilderness 
proposal very, very carefully.
    I first began to practice forestry in the Wild Sky area in the 
1960's where I was initially involved with surveying several of the 
former state forestlands mining claim parcels that you now see on the 
current wilderness proposal map. Beginning in the 1980's, I worked 
throughout the entire Skykomish River area as a forest manager for a 
now-closed plywood company. More specifically, I was personally 
involved in the administration of Forest Service timber sales in areas 
that are now surprisingly being proposed for wilderness designation 
under the legislation before you today. As an aside, I must be a better 
forester than I thought if lands I was involved in previously 
harvesting are now somehow now eligible for wilderness designation 
under the 1964 Wilderness Act. Also during the 1980's I was a very 
active participant in our local roadless area review process, more 
commonly known as RARE I and RARE II, as well as an active participant 
in the process of creating the Alpine Lakes Wilderness and Henry M. 
Jackson Wilderness areas.
    Since 1986, I have owned and operated my own road contracting 
company. For the past 18 years, my firm has constructed roads and 
trails, decommissioned roads, abandoned roads, and installed fish 
friendly culverts on several portions of the Wild Sky area, as well as 
other forested areas of the Mt. Baker-Snoqualmie National Forest, the 
Wenatchee National Forest, and the Olympic National Forest.
    I also want the Subcommittee to know that Congressman Rick Larsen 
and his family are friends of mine, and that he and I have privately 
met on several occasions to discuss my deep concerns with this 
wilderness proposal. While I retain a very high regard for Congressman 
Larsen who normally represents our District very well, I have to admit 
that I have some very serious concerns about the suitability of the 
lands included in his legislation.
    I want to bring to the Subcommittee's attention the apparent lack 
of process with this legislation. Although you have heard testimony 
about alleged extensive public involvement and local public hearings 
concerning Wild Sky, the truth of the matter is there has never been a 
public hearing in Washington State concerning this, or any other 
legislation, specifically pertaining to Wild Sky. At best, there were 
three local information sessions during the summer and fall of 2001 
during which time a map was distributed showing ``wilderness areas 
under consideration.'' The original Wild Sky legislation was not even 
drafted until the spring of 2002, well after these information sessions 
occurred. For the record, this is only the second public hearing on 
Wild Sky that has ever occurred--the first being before the Senate 
Energy and Natural Resources Committee in June, 2003. I would hope this 
Subcommittee will take the time to examine the record of the Senate 
committee hearing as many key concerns were entered into the record at 
that time. As you know, the companion legislation to H.R. 822 has twice 
passed the Senate by unanimous consent. The Senate has a long tradition 
of adopting wilderness legislation that is supported by both Senators 
from the affected state regardless of the merits of the legislation, 
and in exchange Senators from other states do not introduce wilderness 
legislation affecting states other than their own. Incidentally, Mr. 
Chairman, I want to thank you and this Subcommittee for taking the time 
to hold this important hearing to allow a full and fair airing of both 
the problems and opportunities with Wild Sky.
    The 1964 Wilderness Act explicitly defines wilderness to be 
``Federal land retaining its primeval character and influence, without 
permanent improvements or human habitation, which is protected and 
managed so as to preserve its natural conditions and which generally 
appears to have been affected primarily by the forces of nature, and 
with the imprint of man's work substantially unnoticeable.'' In my 
opinion, the plain meaning of this statute precludes creating 
wilderness areas for lands that previously that have had logging roads 
and spur roads constructed on them. In the case of Wild Sky, I have 
built and then decommissioned some of these roads that are now a source 
of controversy at today's hearing.
    As we all know, the 1964 Wilderness Act was a watershed event for 
land conservation in America. At the time of its passage, one of the 
Act's prime sponsors, Idaho Senator Frank Church, ideally hoped that 
one day the wilderness preservation system would grow to be 50 million 
acres. Well, today we have over 100 million acres of wilderness in our 
country. Portions of the proposed Wild Sky wilderness are adjacent to 
the Henry M. Jackson Wilderness Area named in honor of another Senator 
who understood and was a strong supporter of wilderness. Senator Henry 
``Scoop'' Jackson was an Everett, Washington native and as an Eagle 
Scout he hiked many of these areas adjacent to the wilderness that now 
bears his name. He understood wilderness. He knew what was wilderness 
and what it wasn't. I have serious doubts as to whether those who were 
involved with this proposal understand the meaning of wilderness the 
way that Scoop Jackson did. Presently, the Mt. Baker-Snoqualmie 
National Forest administers 8 separate Wilderness Areas now totaling 
721,781 acres. In fact, nearly 42% of the 1.7 million acres on the 
Forest are now Wilderness yet they are reportedly used by only 13% of 
the national forest visitors even though 55% of Washington's population 
now lives within a one-hour drive of a local wilderness area.
    I was also an active participant in the development of the current 
Forest Plan for the Mt. Baker-Snoqualmie National Forest. The Forest 
Plan Environmental Impact Statement (EIS) specifically analyzed the 
wilderness attributes of 29 separate roadless areas on the Forest and 
concluded that only 6 roadless areas had demonstrable wilderness 
potential. Only one of these areas, Eagle Rock, is located within the 
current boundaries of the Wild Sky Wilderness proposal. The Eagle Rock 
roadless area encompasses only 33,177 acres (vs. 106,349 acres in H.R. 
822).
    It is important for this Subcommittee to clearly understand there 
are substantial human improvements within the proposed boundaries of 
Wild Sky. These include:
    <bullet>  29 miles of roads
    <bullet>  99 culverts (60 rated as high risk of failure)
    <bullet>  7 Bridges, including 1 Concrete Bridge in West Cady Creek
    <bullet>  6,600 acres that were previously harvested for timber
    <bullet>  Old Dam (not functioning) at Lake Isabel
    <bullet>  Breached Concrete Dam at Rock Lake
    <bullet>  Dam and pipeline at Simms Lake
    <bullet>  Dam and pipeline at Sunset Lake
    <bullet>  Concrete foundation for ore processor in West Cady Creek
    <bullet>  USFS Cabin at Lake Isabel
    <bullet>  USFS Fire Lookout on Evergreen Mountain
    <bullet>  Cabins and Mining Equipment on private property in the 
Silver Creek area
    Furthermore, the actual number of older roads within the Wild Sky 
may actually be at least 60 miles, as the above-referenced mileage 
comes from Forest Service system roads that did not include unnamed and 
unnumbered so-called temporary roads that were also built for 
harvesting purposes. The Forest Service estimates the mileage of this 
type of road is likely greater than the 29 miles of system roads 
identified above.
    I believe this Subcommittee needs to grapple with whether or not 
some of the lands within the Wild Sky proposal are actually suitable 
for designation as wilderness as described in the 1964 Act. I am not 
alone in this view. In a June 2002 letter to Congresswoman Dunn 
concerning the Wild Sky wilderness proposal, the Mt. Baker-Snoqualmie 
Forest Supervisor wrote, ``within Washington state wilderness areas 
this definition has never included such substantially noticeable 
imprint of man's (sic) work. I feel that including these areas would be 
a change in the standard used by Congress in considering wilderness 
suitability (emphasis added).''
    In this same letter, the Forest Supervisor also addressed the issue 
of the costs of changing the current recreational access within the 
Wild Sky area if it were to be designated as wilderness. Specifically, 
the cost of new trail construction, if any were to occur within the 
wilderness proposal area, was estimated to be approximately $100,000 
per mile. In addition, the cost of converting about a third of the 
existing roads in the Wild Sky area to trails was estimated at $6.5 
million. The Congressional Budget Office estimated the cost of the Wild 
Sky wilderness legislation to be approximately $18 million, principally 
because of the cost of removing roads. Based on my experience, these 
cost estimates are likely conservative.
    Although H.R. 822 specifically calls for a new trail plan and 
system of hiking and equestrian trails within the Wild Sky, according 
to the Forest Service this language is likely in conflict with existing 
requirements based on the Endangered Species Act for protection of 
grizzly bear core habitat that would actually limit any new trail 
construction in the proposed wilderness area. In addition, the Forest 
Service reports that spotted owl habitat requirements for Late 
Successional Reserves under the Northwest Forest Plan would also limit 
new trail construction. In fact, in the aforementioned letter, the 
Forest Supervisor stated, ``contrary to popular belief, congressionally 
designated wilderness areas are not recreation resources per se.'' In 
this letter the Forest Supervisor goes on to say, ``if designated as 
wilderness it is likely that the Forest would adopt the position that 
no new trails should be built inside the Wild Sky (emphasis added).'' I 
have a hard time understanding how the public is served through 
limiting access by visitors to the Wild Sky area.
    I seriously question the need to decommission roads and make them 
into trails. Presently, there remains a serious backlog of needed road 
maintenance and trail work on the Mt. Baker-Snoqualmie National Forest 
and this situation was made significantly worse by the storms of this 
past winter which resulted in over $10 million in damage on the forest. 
Even before this storm event, several existing trails were already 
``closed'' on the Mt. Baker-Snoqualmie due to lack of money. Therefore, 
I recommend to this Subcommittee that these restrictions and 
limitations be further analyzed before adopting this legislation so as 
to avoid creating unreasonable, or unobtainable, public expectations 
for outdoor recreation in the Wild Sky area.
    In addition, there are approximately 2,200 acres of private land 
within the proposed wilderness area. The Forest Service estimates it 
would cost approximately $2.2 million to acquire these private lands.
    As a professional forester, it is important for the Subcommittee to 
understand that although the Wild Sky area is in western Washington 
which normally does not experience regular forest fires, there is and 
will remain a very real risk of catastrophic loss of this area to 
wildfire. The 1990 Forest Plan identified that most ecosystems of the 
Western Cascades developed under a fire regime of infrequent but very 
large, and high intensity, stand replacement fires on a return interval 
of once every 250 to 500 years and these fires were often catastrophic. 
Therefore, catastrophic wildfire in the Wild Sky area it is not a 
question of ``if'', but ``when''. At this point I am unaware of any 
efforts by local communities to develop Community Wildfire Protection 
Plans under the recently enacted Healthy Forests Restoration Act. In my 
opinion, development of these plans may be warranted as the Forest Plan 
Record of Decision anticipates that under current wilderness standards 
and guidelines, ``it is possible that once every 20 years or so, an 
individual fire may approach 1,000 acres in size.'' Without adequate 
regard to the threat of wildfire in the Wild Sky area, we put 
neighboring private and state lands, as well as the local communities, 
in very real danger.
    Although the Mt. Baker-Snoqualmie National Forest is one of the 
most productive national forests in the United States, there are sadly 
only 53,740 acres, of out of 1.7 million acres, allocated to matrix 
management under the Northwest Forest Plan. Of these matrix lands, 
7,653 acres or over 14%, now reside within the Wild Sky proposal area. 
I have personally had to suffer the hardships of the timber depression 
following the spotted owl crisis of the early 1990's when my former 
employer had to close a local plywood mill. Somehow, it appears 
patently unfair to me, my former co-workers, and friends in rural 
Snohomish County to further reduce the now minimal amount of federal 
lands allocated for multiple-use management. In addition, designating 
these matrix lands as Wilderness would require an amendment to the 
Northwest Forest Plan. Recently, environmental supporters of the Wild 
Sky wilderness proposal appealed the proposed Sky Forks Thin Project, 
in part citing that the proposed thinning units were adjacent to the 
proposed Wild Sky wilderness area. The Forest Service negotiated with 
the appellants to resolve this appeal by removing thinning units that 
were adjacent to the proposal area that resulted in a significantly 
smaller project. Thus, even the prospect of a wilderness proposal has 
resulted in precluding Forest Service activities and uses up to the 
boundary of the actual area.
    It is also important for the Subcommittee to understand that all 
wilderness areas on the Mt. Baker-Snoqualmie National Forest are 
designated Class I Airsheds under the Clean Air Act. If the Wild Sky 
proposal were to be enacted, it is presumed the Wild Sky area would be 
similarly designated as a Class I Airshed. The future impacts of such a 
designation on nearby private lands (up to a 50-mile radius) for 
current and future agricultural, forestry, commercial, and industrial 
activities are unknown at the present time and need to be evaluated.
    H.R. 822 does not provide for a specific exemption that would allow 
for the use of motorized equipment to decommission roads and bridges 
inside the wilderness proposal area. It is my understanding this issue 
was identified as a needed exemption during the June, 2003 hearing on 
S. 391 before the Senate Energy and Natural Resources Committee. There 
are numerous culverts within the Wild Sky area that need to be 
maintained, cleaned, etc., which can be done by hand labor. However, 
culvert replacement or removal can only be done by machine and current 
wilderness designations all restrict mechanized equipment. The 
proponents of this legislation like to cite the potential protection of 
important salmon spawning habitat as a benefit of wilderness 
designation. Unfortunately, if a culvert were to become blocked or 
washed out in a wilderness area, miles of salmon spawning habitat could 
be lost without the ability to bring machines in to make needed 
repairs. For example, two years ago it took almost a day to get 
permission to bring in a medic helicopter to simply take an injured 
hiker out of one of the wilderness areas.
    I could not help but note that the Wild Sky wilderness proponents 
recently stated to Chairman Pombo that the Forest Service is 10 years 
overdue on making wilderness recommendations under their NFMA planning 
obligations and use this argument to state that the Congress should 
move forward with legislative action. This is incorrect. The Record of 
Decision for the Mt. Baker-Snoqualmie Land and Resource Management Plan 
was signed on June 8, 1990. The 1984 Washington Wilderness Act stated 
that ``the Department of Agriculture shall not be required to review 
the wilderness option prior to the revision of the plans, but shall 
review the wilderness option when the plans are revised, which 
revisions will ordinarily occur on a ten-year cycle, or at least every 
fifteen years...'' Thus, the wilderness suitability analyses, forest 
plan standards and guidelines, and NEPA analyses associated with the 
Mt. Baker-Snoqualmie Forest Plan (which included substantial public 
involvement) are still fully within the timeframes described by the 
National Forest Management Act.
    In closing, I ask that you delay moving this legislation forward to 
allow for further analysis and study. In my opinion, this is precisely 
what the NEPA process is intended for, and this Subcommittee needs look 
no further than the proposed I-90 Wilderness in Washington State where 
in 1998 Congress directed that an Environmental Impact Statement be 
completed before finally deciding on which areas to formally designate 
as wilderness. To me, this seems like a very prudent and responsible 
path forward and will go a long way towards ensuring that Wild Sky 
receives appropriate protection.
    That concludes my written testimony, Mr. Chairman. I would like to 
thank you for the opportunity to be here today and would be happy to 
attempt to answer an questions you or the committee might have.
                                 ______
                                 
    Mr. Walden. Thank you, Mr. Chase. I am a little 
disappointed in your comments. However, you left out the most 
important Arlington, and that is Arlington, Oregon, which is my 
district.
    [Laughter.]
    Mr. Chase. My apologies.
    Mr. Walden. Yes, we will work on you.
    [Laughter.]
    Mr. Walden. Mr. Town, welcome. Please give us your 
comments, sir.

          STATEMENT OF MIKE TOWN, FRIENDS OF WILD SKY

    Mr. Town. Chairman Pombo, Congressman Inslee, and members 
of the Subcommittee, I would like to thank you for giving me 
the opportunity to testify today on behalf of the proposed Wild 
Sky Wilderness bill. I would also like to thank Congressman 
Larsen, Senator Murray and other members of the Washington 
congressional delegation who have championed this important 
legislation and would like to ask that my full statement be 
included in the Committee record.
    My name is Mike Town, and I am testifying today on behalf 
of Friends of the Wild Sky, an association of local residents 
and concerned citizens who support permanent protection for the 
Wild Sky country. My background includes an undergraduate 
degree in terrestrial ecosystems analysis and work experience 
in silviculture with the United States Forest Service. My wife 
and I are both science teachers, and we moved into the 
beautiful Skykomish Valley in 1988, and we continue to live in 
the shadows of the Wild Sky.
    I am testifying today based on my personal experience and 
knowledge of the Wild Skykomish Country. As an avid 
outdoorsman, I have spent the last 16 years exploring this 
beautiful area.
    Within the boundaries of the proposed Wild Sky Wilderness 
are lush old-growth forests, thousand-foot cliffs, pristine 
rivers, and secluded alpine lakes. The proposal protects over 
25 miles of the Skykomish River, which provides habitat for 
endangered species, world-class white water and renowned 
fishing. Other watersheds in the proposal contribute to clean 
and safe drinking water for the city of Everett, and the 
forested slopes reduce the potential for downstream flooding. 
Recreation abounds in the Wild Sky, as backcountry skiers, 
anglers, hunters, hikers, horseback riders and campers flock to 
this spectacular area. This steady flow of visitors is 
important to the economic stability of small towns in the 
Skykomish Valley.
    To prepare for today's hearing, I went out and investigated 
on the ground issues raised in testimony last year before the 
Senate Subcommittee on Energy and Natural Resources. Last year, 
it was claimed that approximately 27 miles of existing roads 
would be impacted. This overstates the effect of the proposed 
wilderness by not taking into account roads that have already 
been permanently decommissioned by the Forest Service or 
otherwise closed by the Agency or closed by acts of nature that 
prevent access. In reality, the Wild Sky Wilderness would 
impact only about 2 miles of roads that are currently passable 
by passenger vehicles.
    Small areas within the Wild Sky proposal had been affected 
by railroad logging in the 1920s. These areas are already 
recovering naturally from this impact. These stands, left to 
grow back on their own, have now almost returned to their 
former glory. Other than the occasional stump, these forests 
appear quite natural to almost all visitors as they assume the 
characteristics of true ancient forests.
    These previously impacted areas are crucial to protect 
stream habitat and to help ensure the survival of salmon, 
steelhead and bull trout.
    Concerns raised last year were appropriately rejected by 
the Senate Committee on Energy and Natural Resources on a 
bipartisan basis and later by the full Senate. I hope that this 
Committee will similarly reject those claims.
    Mr. Chairman, local support for Wild Sky is strong in the 
valley and includes endorsements by many local officials, 
businesses and over a thousand local valley residents who have 
voiced their support for the creation of the Wild Sky 
Wilderness.
    I would also like to add that this area serves as a leading 
laboratory for students of my wife and I who have taken to them 
into the Wild Sky to enjoy the beauty of this country while 
learning lessons about geology, history, culture, ecology and 
botany.
    My favorite memory of the Wild Sky is introducing my 
students to a wild salmon spawning site, one of the few places 
left in the Cascades where spawning salmon are so numerous that 
you can walk across the river on their backs. This river's 
headwaters is in the Wild Sky which still allows for one of the 
greatest spectacles of nature. Watching this display of nature 
with my students, I am reminded that the wilderness is not just 
about the present, but rather is about the preservation of the 
ancient attributes of nature.
    I cherish the hope that my teenage students will have the 
ability to share this experience with their grandchildren. 
Permanently protecting the Wild Sky Country lets this happen. 
It is a gift to the ages and a powerful legacy of this 
Congress. I urge the members of this Committee to support 
passage of the Wild Sky Wilderness bill.
    [The prepared statement of Mr. Town follows:]

            Statement of Mike Town, Friends of the Wild Sky

    Chairman Walden, Congressman Inslee, and other Members of the 
Subcommittee, I would like to thank you for giving me this opportunity 
to testify today on behalf of H.R. 822 the Wild Sky Wilderness Act. I'd 
also like to thank Senator Murray, and Congressman Larsen for 
sponsoring this important legislation and working diligently over the 
past three years to develop and promote the Wild Sky Wilderness 
proposal and House Members Jennifer Dunn, Jay Inslee, Norm Dicks, Brian 
Baird, Adam Smith and Jim McDermott for co-sponsoring this important 
legislation. I would like to further thank Congressman Nethercutt for 
his willingness to collaborate with staff from Senator Murray and 
Congressman Larsen's offices to work out differences in the boundaries.
    My name is Mike Town and I am testifying today on behalf of the 
Friends of the Wild Sky, an association of local residents and 
concerned citizens who support permanent protection for the Wild 
Skykomish Country. My background includes an undergraduate degree in 
Terrestrial Ecosystems Analysis and work experience in silviculture 
with the USDA Forest Service. Currently I am a high school science 
teacher. My wife, who is also a science teacher, and I first moved into 
the beautiful Skykomish valley in 1988, and we continue to live in the 
shadows of the Wild Sky country.
    I am also testifying today based on my extensive personal 
experience and knowledge of the Wild Skykomish Country. As an avid 
outdoorsman I have spent the last 15 years exploring the beautiful 
Skykomish area. Each year I hike, ski, and snowshoe more than 200 miles 
to the forests, high country meadows, secluded lakes and numerous 
mountain streams in the proposed Wild Sky Wilderness. My wife and I 
have written a newspaper column on the wonders of the Wild Sky region 
for our local newspaper the Monroe Monitor. Each summer I teach college 
courses on mining, ecology, and history within the boundaries of this 
wilderness proposal.
    I would like to take the entire Committee to see this special 
place, but the best I can do today is to try to describe in words why 
the Wild Skykomish Country is a perfect candidate for designation to 
our National Wilderness Preservation System.
    Within the boundaries of the proposed Wild Sky Wilderness are lush 
old growth forests, high peaks over 6000 feet tall, breathtaking 
waterfalls, 1000-foot cliffs, pristine rivers and secluded alpine 
lakes. The proposal protects over 25 miles of the Skykomish River, 
which provides habitat for endangered species, world-class white water 
and renowned fishing. Other watersheds in the proposal contribute to 
clean and safe drinking water for the City of Everett and the forested 
slopes reduce the potential for downstream flooding. Recreation abounds 
in the Wild Sky as backcountry skiers; anglers, hunters, hikers, 
horseback riders and campers flock to this spectacular area. This 
steady flow of visitors is increasingly important to the economic 
stability of small towns in the Skykomish valley.
    Since the Members of the Committee can't go there, I'd like to 
describe this special place--moving west to east:

Ragged Ridge
    The wild country directly north of Gold Bar and Index is an area of 
high lakes and ridges. From Arsenic Meadows to Northstar Mountain, one 
can wander through some of the loneliest terrain in the Cascades. 
Extensive middle elevation forests, mostly western hemlock and silver 
fir, cover the hillsides, with scenic parklands of mountain hemlock 
above. This is an area without established trails--this is wilderness 
in the truest sense, a great big blank spot on the map. It's a place 
where just about nobody ever goes, or, in more scientific terms, ``core 
security habitat,'' for many kinds of wildlife. This area also includes 
many streams, which form the headwaters of the Sultan River, which 
provide clean drinking and irrigation water to the City of Everett, and 
many residents in southern Snohomish County.

Lower North Fork Skykomish Valley
    The lower fifteen or so miles of the North Fork valley contain 
beautiful ancient forests with several trees over 8 feet in diameter. 
Some of this area was railroad logged in the 1920's and 1930's. During 
this time only the highest value trees were taken and much of the 
biological legacy survived. Most importantly, these areas were never 
replanted, and a diverse, naturally regenerated forest has grown back. 
There are many miles of these forests along the North Fork road, and 
from high vantage points in the Wild Sky they form a continuous green 
blanket over the entire lower valley. Many areas within this area 
include low elevation forest, which lie close to the river and are 
important for water quality and fish health.

Eagle Rock Roadless Area
    This country inside the Jack's Pass road loop is east and south of 
the lower North Fork, west of the Beckler River valley and north of 
Highway 2. The Eagle Rock area contains some of the most rugged 
mountain terrain in the Skykomish area, with sharp, jagged Gunn, 
Merchant and Baring peaks prominently visible from highway 2. Only one 
formal trail enters the area, to scenic and popular Eagle Lake at the 
end of Paradise Meadow.
    This is a place of many diverse attractions. On its southern edge, 
some of the most impressive old growth forests in the Cascades grows on 
low, south facing slopes just north of the village of Grotto. A large 
area of Alaska cedar forest is found near Eagle Lake, and further 
north, the valleys of upper Trout and Howard creeks support extensive 
virgin forest. Seldom visited lakes like Sunset and Boulder lay at the 
heads of valleys, offering outstanding fishing. Botanically significant 
areas like Paradise Meadow display rare orchids, and carnivorous 
sundews as well as a bouquet of flowers in the early summer. The 
central and northern reaches of the Eagle Rock area are little visited, 
and mysterious. Summits such as Conglomerate Point and Spire Mountain 
see only a few visitors in any year while other places like Bear 
Mountain and upper Bear Creek valley may go a decade or more without 
seeing any humans.

West Cady Ridge
    As one moves further up the North Fork Skykomish, the land begins 
to change. Rather than the sharp peaks, and fearsome brush and cliffs 
of Eagle Rock, the terrain opens up and the mountains grow gentler. 
Long ridges topped by extensive flower meadows provide extensive bear 
habitat and important wildlife corridors to other areas in the 
Cascades. This is a friendly, inviting country, slightly drier than 
areas further west. There are a number of popular trails, such as West 
Cady ridge and Scorpion Mountain. Certain other areas lend themselves 
well to off-trail wandering through open forests and meadows.
    As you can see, the Wild Sky country is a land of contradictions. 
It is rimmed by powerful mountains, cut by turbulent streams, 
punctuated with biologically diverse forests and meadows and filled 
with habitats for a wide range of common and rare species. Its pure 
waters provide adventure for white water rafters, habitat for fish, 
drinking water for Snohomish County, and flood control for downstream 
residents. Its recreational benefits are endless and its ecological 
significance so valuable that this area demands permanent protection.
    Unfortunately, the Wild Sky area was excluded from consideration in 
the 1984 Washington Wilderness legislation and left hanging at the end 
of the 107th Congress. However, 20 years after the creation of the last 
wilderness in Washington State, Congress can revisit the Wild Sky and 
grant the protection this unique and beautiful area deserves.
    Some have tried to portray the Wild Sky Wilderness area is not 
worthy of protection. I have had a chance to review their testimony 
submitted last year to the Senate Energy and Natural Resources 
Subcommittee on National Parks, Recreation, and Public Lands and 
Subcommittee on Forests and Forest Health. For the past 6 months, I 
investigated on the ground the issues raised. Here's what I've seen:
    It was pointed out that a small portion of the Wild Sky area had 
been previously logged. However, almost all of these areas are mostly 
at lower elevations, and most are already recovering naturally from the 
railroad logging that occurred during the 1920's and 1930's.
    For example, along the North Fork of the Skykomish there are forest 
stands that were logged about 80 years ago. These stands, left to grow 
back on their own rather than being reforested with a monoculture of 
Douglas fir, have almost returned to their former glory. Now they 
feature species diversity, multi-layer canopies and an abundance of 
ecologically important reproductive niches. These forests are in direct 
contrast to the second growth forest started from reforested trees, 
which are so abundant throughout the portions of the Cascades, which 
have been previously logged. Other than the occasional stump, these 
forests appear quite natural to almost all visitors as they assume the 
full characteristics of ancient forests.
    Another example of past logging is seen in the area of lower West 
Cady Creek, a tributary stream of the North Fork Skykomish River. This 
valley was partially logged, but extensive areas of old growth forest 
remain. Ten years ago the most significant logging road in this valley 
was decommissioned and the logged areas have now stabilized soils and 
begun to contribute significant ecological values. This vibrant lowland 
valley must be included in the Wild Sky Wilderness to protect the 
integrity of the remaining old growth and mature second-growth forests, 
water quality, and important wildlife corridors. It also provides a 
logical and manageable Wilderness boundary by excluding a non-
Wilderness finger intruding deeply into the proposed Wilderness.
    It is important to include these previously impacted areas in the 
Wilderness in order to protect stream habitat to help ensure the 
survival of salmon, steelhead and bull trout. It is also important for 
these low elevation forests to be better represented in Washington's 
Wilderness Areas, to fully reflect this especially important type of 
ecosystem and wild landscape, which promotes biodiversity and is absent 
in so many other wilderness areas in the state.
    It was claimed that the area includes approximately 27 miles of 
existing roads, some of which are all weather, drivable and graveled. 
Actually, the Wild Sky Wilderness would impact only about 2 miles of 
roads that are currently passable by passenger vehicles. The objections 
overstate the effect of the proposed Wilderness by not taking into 
account roads that have already been decommissioned--i.e., non-drivable 
and permanently closed by the Forest Service--and other roads that are 
currently gated or otherwise closed by the agency to prevent access. 
Landslides, washouts, and vegetation close a number of other road 
segments, or other random acts of nature.
    It was also suggested that the Rapid River road receives high 
levels of visitor use for recreation purposes, and should be excluded. 
It's important to clarify that the Wild Sky Wilderness proposal would 
only impact approximately 1 mile of the upper section of this road. The 
lower 5 miles of this road would remain open.
    The last mile of the Rapid River Road, which passes through 
towering stands of ancient forest, actually gets very limited 
visitation because it is rough and accesses only one dispersed 
recreation site. Many drivers stop at the Meadow Creek trailhead that 
is located outside of the wilderness boundary. In fact, last year I 
spent 4 hours along this section on Saturday of Memorial Day weekend--a 
beautiful sunny day, and did not see a single vehicle on the upper 
section of this road. In any case, it is important to close the upper 
portion of Rapid River Road for a number or reasons: the closed road 
could be converted into a barrier-free trail that is wheelchair 
accessible; closure will protect significant ancient forest and 
important riparian areas; and it will leave this low elevation area, 
which is open almost all year, accessible by a short hike. Indeed, 
leaving the last mile of this road in the Wild Sky provides a great 
opportunity for a family wilderness experience.
    Past mining activity was raised as an issue but it is not as 
significant as is contended. While large areas of the Cascades have 
experienced the region's mining history, no major mine site ever 
existed in the Wild Sky proposal. Mining in this area was mostly 
limited to small claims that were worked sporadically for short periods 
up until the 1950's. Today the visible evidence of mining activity is 
limited to an occasional mine portal, some old road disturbances and 
rare dilapidated miner's shacks, and most of these are actually on 
private lands which are surrounded by National Forest land.
    What the critics of the Wild Sky choose not to discuss is the 
strong local support for the Wild Sky in the valley and its endorsement 
by many local officials, businesses and over 1000 valley residents who 
signed a petition asking for the creation of the Wild Sky Wilderness. 
The Monroe City Council unanimously passed a resolution in support of 
Wild Sky and the Mayor of Index, the closest town to the proposal, 
testified before the Senate committee in 2002 in support of wilderness 
designation.
    Clearly, people in Snohomish County and eastern King County care 
about the quality of life they get from the Wild Sky country whether it 
be in the form of accessible wilderness oriented recreation, pure 
drinking water or the knowledge that the ancient forest and salmon will 
continue to provide solitude, serenity and enjoyment which is 
guaranteed with Federal Wilderness protection.
    The critics also ignore the open process Congressman Larsen and 
Senator Murray pursued in drafting the Wild Sky legislation. I attended 
the public meeting at Monroe where about a hundred interested people 
asked questions and gave input on the proposal. From my observations, 
most of the questions and observations were typical for a proposed 
Wilderness Area. I believe all the concerns have been addressed through 
the process. One example was the inclusion of a beautiful and 
ecologically significant grove of ancient cedars, which was added from 
a request from a local, Index resident. Another example was the 
deletion of many acres on Johnson and Windy Ridges brought about 
through meetings conducted by Senator Murray and Congressman Larsen 
with the snowmobile association.
    Finally, I would like to add that as science teachers this area 
serves as a living laboratory for our students who enjoy the beauty of 
the Wild Sky while also learning lessons about geology, history, 
culture, ecology and botany. My favorite memory is introducing my 
students to a wild salmon spawning site, which is one of the few places 
left in the Cascades where spawning salmon are so numerous that you 
could walk across the river on their backs. This river's headwaters are 
in the Wild Sky and it is the wilderness character of the forests along 
its banks, which still allow for one of the greatest spectacles in 
nature.
    When I am watching this display of nature with my students, it 
often dawns on me that wilderness is not just about the present, but 
rather is about the preservation of the ancient attributes of nature. I 
cherish the belief that with federal protection my teenage students 
will have the ability to share the experience of spawning wild salmon 
with their grand children. Permanently protecting the Wild Sky country 
lets this happen. It is a gift to the ages and a powerful legacy of 
this Congress. And it is my hope that the lowland forest, which makes 
up the heart and soul of this Wilderness proposal, continue to provide 
the inspiration to old and young alike, as an integral part of the Wild 
Sky Wilderness.
    In closing, I want to commend the members of the Washington State 
delegation for bringing disparate interests together--from timber 
companies, backcountry horsemen and environmentalists to residents and 
elected officials from local communities--to support this legislation. 
Washingtonians are committed to Wilderness and preserving our State's 
natural heritage. The members of the delegation deserve thanks for 
crafting this wilderness bill and for continuing the bipartisan 
tradition that has been so successful for wilderness protection in 
Washington State during the last 4 decades. I urge members of this 
Subcommittee to accept the boundaries of the current proposal as 
modified by our delegation from the original H.R. 822 and advance the 
Wild Sky Wilderness Bill to the House Floor for immediate action.
                                 ______
                                 
    Mr. Walden. Thank you, Mr. Town. I appreciate your comments 
this afternoon.
    Mr. Reardon, you are up next. I look forward to your 
comments. Thank you for being here.

                  STATEMENT OF AARON REARDON, 
                   SNOHOMISH COUNTY EXECUTIVE

    Mr. Reardon. Well, thank you, Mr. Chairman. Chairman Pombo, 
Chairman Walden, Representative Inslee and other members of the 
Subcommittee, I am honored for the opportunity to testify 
before you today on such an important issue for the citizens of 
Snohomish County.
    I am testifying today to express my strong support for the 
Wild Sky Wilderness Act, H.R. 822. This is an issue that I have 
followed closely over the last 3 years, first, as a member of 
the Washington State House of Representatives and then as a 
State Senator and now a Snohomish County Executive.
    The support for Wild Sky Wilderness is incredibly strong in 
Snohomish County. Thirty-five current elected officials, both 
Republicans and Democrats, representing Snohomish County 
citizens at the city, county and State Government level, have 
enthusiastically endorsed this proposal, and currently more 
than 30 local businesses support the proposal as well.
    This proposal's support extends far beyond our county 
boundaries. All told, more than 120 current and former elected 
officials across Washington State have endorsed this proposal, 
including the Republican majority leader of the Washington 
State Senate, and nearly 70 businesses and more than 50 
organizations have also lent their support to this issue.
    There has been an inclusive public process on H.R. 822. 
This support has been evident early on and has only grown over 
the last 3 years, as Senator Murray and Representative Larsen 
reached out to members in the Second Congressional District. In 
late summer, early fall of 2001, before the proposal was even a 
bill, Senator Murray and Representative Larsen organized two 
informational meetings in Index and in Monroe, two areas close 
to the proposal. Both meetings were well-intended. And in true 
Snohomish County spirit, dialog was healthy. Issues came out of 
these two meetings that were then included in the proposal.
    Other local meetings took place when the Cities of Monroe 
and Snohomish considered and passed resolutions in support of 
the Wild Sky Wilderness bill in 2003.
    Of course, in Washington, D.C., this proposed legislation 
has also been carefully considered and reviewed by the public 
and elected officials alike in both the Senate and the House. 
In fact, it has been heard five times prior to today's hearing.
    Senator Murray and Representative Larsen have done an 
exceptional job of crafting this legislation. It takes into 
account all sides of an issue and in particular those raised in 
public meetings. What stands out to me in this process is the 
public nature and the thoughtful deliberation in which all 
parties sought agreement.
    This proposal will protect 106,000 acres of snow-capped 
peaks, alpine meadows, old-growth forests and wild streams and 
rivers. The north folk of the Skykomish River, which runs 
directly through the proposed Wild Sky Wilderness, is one of 
the most productive salmon streams in the Puget Sound area. And 
as municipal Governments struggle to meet the challenge of 
restoring salmon habitat, preserving this ecologically critical 
area will go very far as we try to promote salmon recovery.
    The wild areas conserved as part of this proposal will 
ensure the protection of our water and air quality as well. In 
many cases, safe, clean drinking water depends on permanent 
protection of wild watersheds. The Wild Sky proposal includes 
part of the Sultan River basin watershed, which supplies 
drinking water for the city of Everett and most of the smaller 
communities in the South part of Snohomish County.
    Ray Stephanson, the mayor of Everett, has made this point 
abundantly clear. If I may quote, ``Protecting the Wild Sky 
area as wilderness is important for the citizens of Everett. In 
additional to local economic and recreational benefits, the 
proposal would permanently protect the headwaters which fed 
Spada Lake, the primary source for the city of Everett's 
drinking water.''
    As the population of Snohomish County grows, permanently 
protecting wild areas like those in the Wild Sky is critical in 
order to safeguard the quality of life that we enjoy here in 
the Pacific Northwest. From large cities like Everett to small 
towns like Index, from as far south as Lynnwood and as far 
north as Stanwood, this proposal defines the enduring values of 
our communities.
    Increasingly, wild areas are critical to sustaining local 
economies in Snohomish County. Wilderness means jobs, 
sustainable jobs--sustainable jobs in industries like tourism, 
recreation and vacation rentals that have always shown steady 
growth over the last decade. A recent report, ``Prosperity in 
the 21st Century West,'' analyzed Federal economic statistics 
from 400 western counties and found that new businesses, 
investments and residents tend to locate near public lands. 
Treport found that the better protected those public lands, the 
more they contribute to the economic vitality of a region.
    More than 30 local businesses, ranging from restaurants to 
sporting goods, vacation rentals, have all endorsed the Wild 
Sky proposal and, in part, because of the expected benefits to 
their business. Washington State, of course, is renowned for 
our wild forests which bring thousands of dollars and visitors 
to our communities and our cities. Many of these communities 
serve as gateways to national forests and wilderness areas.
    In closing, as one who was born and raised in Snohomish 
County and who now serves in its chief elected capacity, I 
marvel at the industrious nature and competitive spirit of our 
citizens. Whether it is landing the Boeing 7E7 or competing 
against the rest of the country for the 21st Century 
biotechnology jobs, our citizens know what they want, and they 
go after it.
    Snohomish County citizens are strong-willed, independent 
and earnest. We are that way because of our heritage. From 
commercial fishermen to loggers, from building the best 
airplanes in the world or working to find a cure for cancer, 
our families embrace the origin of our community.
    The Wild Sky Wilderness proposal reminds us who we are, 
from where we came, and why we have worked so hard. We work 
hard to build a better community for our children and to 
preserve those values indicative to Snohomish County spirit.
    The Wild Sky Wilderness proposal is emblematic of the 
enduring values of every citizen of Snohomish County, and I 
urge this Committee's support.
    Thank you.
    [The prepared statement of Mr. Reardon follows:]

         Statement of Aaron Reardon, Snohomish County Executive

    Chairman Walden, Representative Inslee and other members of the 
Subcommittee, I am honored for the opportunity to testify today on such 
an important issue for Snohomish County and our citizens.
    I am testifying today to express my strong support for the Wild Sky 
Wilderness Act (H.R. 822). This has been an issue that I have followed 
closely over the last three years as a member of the state House of 
Representatives, then as a State Senator and now as Snohomish County 
Executive.
    Snohomish County is a special place to live, in large part because 
of its unique natural heritage. Its varied topography ranges from 
saltwater beaches, rolling hills and rich river bottom farmlands in the 
west to dense forest and alpine wilderness in the mountainous east.
    The people who live here are equally impressive. Whether from urban 
areas like Everett or Edmonds or small rural communities in the 
Skykomish River Valley Cascade foothills like Index and Monroe, 
Snohomish County residents value our communities, our families and our 
environment.

Unprecedented Local Support
    As a result, the support for the Wild Sky Wilderness is incredibly 
strong in Snohomish County. Thirty-five current elected officials (both 
Republicans and Democrats) representing Snohomish County citizens at 
the city, county and state government levels have enthusiastically 
endorsed this proposal. More than 30 local businesses located in the 
Skykomish Valley in the small communities of Monroe, Sultan, Gold Bar, 
Index and Skykomish, and Baring in neighboring King County, have joined 
the chorus of support for this proposal.
    Of course, the support for this proposal is not limited to county 
boundaries. All told, more than 120 former and current elected 
officials throughout Washington State have endorsed this proposal. 
Nearly 70 businesses and more than 50 organizations have also expressed 
their strong support.

Inclusive Public Process
    Moreover, this support has been evident early on and has only grown 
over the last three years as the proposal has been carefully developed 
by Senator Patty Murray (D-WA), Representative Rick Larsen (D-WA) and 
others in the Washington Congressional delegation.
    In late summer and early Fall of 2001, before the proposal was even 
a bill, Senator Murray and Representative Larsen organized two public 
informational meetings for local citizens who live closest to the 
proposal. A packed house met in the scenic town of Index adjacent to 
the proposal and another well-attended public meeting took place in 
Monroe, the largest city within 15 miles of the proposed area. In true 
Snohomish County fashion, there was a healthy debate on both sides of 
the issue, including calls for protection of an old growth grove that 
had been left out of the initial proposal and concerns about impacts on 
snowmobile use.
    Other local public meetings took place when the cities of Monroe 
and Snohomish considered and unanimously passed resolutions in support 
of the Wild Sky Wilderness bill in 2003. Both city councils talked 
about the importance of protecting this unique natural treasure to 
preserve the quality of life that our citizens enjoy.
    In Washington, D.C., this proposed legislation has also been 
carefully reviewed by the public and elected officials. Committees in 
both the U.S. Senate and the U.S. House of Representatives have 
considered the Wild Sky legislation five times prior to today's 
hearing.
    Senator Murray and Representative Larsen have done an exceptional 
job of crafting this legislation. It takes into account all sides of 
the issue, and in particular those raised in public meetings. What 
stands out in this public process is the thoughtful deliberation by 
parties on all sides. This began early in the process--even before the 
introduction of the bill into Congress. For example, language was added 
after Representative Dunn worked with the Sea Plane Pilots Association. 
Because of her hard work, the Sea Plane Pilots Association endorses 
this proposal.
    Similar discussions were had to successfully address potential 
concerns raised by mountain bikers, back country horsemen, timber 
companies, private inholders, youth groups and disabled individuals. 
Thanks to the bi-partisan work of the Washington State congressional 
delegation, this bill has an unprecedented level of public support.
Benefits of a Wild Sky Wilderness to Snohomish County
    The Wild Sky Wilderness will bring a host of benefits to the 
citizens of Snohomish County.

Preserving our Natural Heritage
    This proposal will protect 106,000 acres of snow capped peaks, 
alpine meadows, old growth forests and wild streams and rivers. The 
north fork of the Skykomish river which runs directly through the 
proposed Wild Sky Wilderness is one of the most productive salmon 
streams in the Puget Sound area. As municipal governments struggle to 
meet the challenge of restoring salmon habitat, preserving this 
ecologically critical area will go along way to promoting salmon 
recovery.

Safe & Clean Drinking Water
    The wild areas conserved as part of the proposal will ensure the 
protection of our water and air quality. In many cases safe, clean 
drinking water depends on permanent protection of wild watersheds. For 
example, the Wild Sky proposal includes part of the Sultan River basin 
watershed, which supplies drinking water for the City of Everett and 
most of the smaller communities in the southern part of the county.
    Ray Stephanson, the Mayor of Everett has made this point abundantly 
clear, ``Protecting the Wild Sky area as Wilderness is important for 
the citizens of Everett. In addition to local economic and recreational 
benefits, the proposal would permanently protect the headwaters which 
feed Lake Spada, the primary source for the City of Everett's drinking 
water.''

Quality of life
    As the population of Snohomish County grows, permanently protecting 
wild areas like those in the Wild Sky is critical in order to 
safeguarding the quality-of-life we enjoy here in the Pacific 
Northwest. From large cities like Everett to small towns like Index, 
from as far south as Lynnwood to as far north as Stanwood, this 
proposal defines the enduring values of our communities. Residents of 
larger cities also value these wild areas as a welcome escape from the 
hustle and bustle of urban life.
    As Donnetta Walser, the Mayor of Monroe put it, ``Wilderness is 
important to Monroe not just because of the economic opportunities it 
will bring but also because it is essential to the quality of life that 
our residents enjoy. We enjoy having a foot in both worlds--being close 
to a big city like Seattle while being minutes away from permanently 
protected mountains, forests and rivers.''

Economic benefits
    Increasingly, wild areas are critical to sustaining local economies 
in Snohomish County. Wilderness means jobs--sustainable jobs, in 
industries like tourism, recreation and vacation rentals that have 
shown steady growth over the last decade. A recent report, Prosperity 
in the 21st Century West <SUP>1</SUP>, analyzed federal economic 
statistics from 400 western counties and found that new businesses, 
investments and residents tend to locate near public lands. The report 
found that the better protected those public lands are, the more they 
contribute to the economic well being of local families and businesses.
---------------------------------------------------------------------------
    \1\ Prosperity in the 21st Century West, Sonoran Institute. 2004. 
http://www.sonoran.org/programs/prosperity.html
---------------------------------------------------------------------------
    For this reason, more than 30 local businesses, ranging from 
restaurants to sporting goods to vacation rentals have endorsed the 
Wild Sky Wilderness proposal, in part, because of the expected economic 
benefits to their businesses. Washington State is renowned for its wild 
forests which provide world class opportunities to hunt, fish, kayak, 
horseback ride and relax. These visitors bring thousands of dollars 
each season to our cities and towns, many of which serve as gateway 
communities to national forests and wilderness areas.
    Kem Hunter, the current Mayor of Index, located adjacent to the 
proposed Wild Sky Wilderness put it this way, ``I've lived in this area 
for 26 years...I'm interested in an economy that's based upon jobs that 
stay with us such as those tied to the recreational opportunities that 
this Wilderness area would protect.''
    In closing, as one who was born and raised in Snohomish County and 
now serves in the capacity of its chief elected official, I marvel at 
the industrious nature and the competitive spirit of our citizens. 
Whether it's landing the Boeing 7E7 or competing against the rest of 
the country for 21st century biotech jobs, our citizens know what they 
want and they go after it.
    Snohomish County's citizens are strong willed, independent and 
earnest. We are that way because of our heritage. From commercial 
fisherman to loggers, from building the best airplanes in the world or 
trying to find a cure for cancer, our families have seen the good times 
and they've learned from the bad. The Wild Sky Wilderness proposal 
reminds us who we are, from where we've come and why we work so hard.
    We work to build a better community for our children and to 
preserve those values indicative to the Snohomish County spirit. The 
Wild Sky Wilderness proposal is emblematic of the enduring values of 
every Snohomish County citizen.
    Finally, Mr. Chairman, I have a letter from 34 elected officials in 
Snohomish County who support this bill. I would like to ask that the 
letter be included as part of the official hearing record.
                                 ______
                                 
    Mr. Walden. Thank you for your comments, Mr. Reardon.
    Now, we need to hear from Mr. Fadden. Thank you for coming 
today. We look forward to your comments.

          STATEMENT OF CHRIS FADDEN, VICE PRESIDENT, 
            WASHINGTON STATE SNOWMOBILE ASSOCIATION

    Mr. Fadden. Thank you, Chairman Walden, Committee members. 
I would like to thank you for allowing the Washington State 
Snowmobile Association the opportunity to testify on H.R. 822 
Wild Sky. WSSA became involved almost 3 years ago when several 
members attended a Wild Sky workshop in Monroe. WSSA was asked 
by those members to take action against this legislation. WSSA 
officials and members wrote letters and sent e-mails to 
Congressman Larsen and Senator Murray's offices asking that 
alternatives be sought out, such as a National Recreation Area 
or a new concept of a Backcountry Recreation Area.
    On December 5th, 2001, members of WSSA met with the aides 
from Congressman Larsen, Congresswoman Dunn, and Senator 
Marry's offices to discuss the wilderness area proposal. We 
supplied maps of the 2001 proposal with overlays that 
illustrated areas of motorized use. We suggested that for those 
areas an NRA would be a more appropriate designation, but were 
informed that the areas we had identified would be too small to 
manage as NRAs.
    When we offered the idea of Backcountry Recreation Area, we 
were told that the designation did not exist and that they 
would not spend the time writing the legislation for it.
    During the meeting, we were told by the Congressman and 
Senator's Aides that other user groups, including 
motorcyclists, mountain bikers and horsemen had met with them 
that day and had conveyed that they had little or no user areas 
inside the proposed boundaries. They did not foresee any 
conflict for their recreation and the proposed wilderness.
    After several failed attempts at getting other motorized 
groups back at the table, WSSA found itself the solitary 
motorized group in opposition to the proposed legislation. At 
that point, WSSA board members asked that I take the lead and 
try to negotiate motorized user areas out of the proposal.
    I then met several times with Senator Murray's aides, 
drawing lines on maps and discussing terrain features. When I 
brought up any other motorized use of an area, I was advised to 
remember that I was there to inform them only of snowmobile 
areas. After 5 months of bargaining, WSSA was asked to support 
the legislation for all the areas but one snowmobile area was 
removed. Eagle Lake area is inside the boundary still, and 
basically it was pointed out to us that if we removed it, it 
would be ``cherry stemming,'' and it caused an issue with the 
boundaries. I replied that WSSA would not support the 
wilderness bill, but offered that the Association may agree to 
remain neutral.
    After speaking to several WSSA board members, I was 
directed by the president at the time, Glenn Warren, to draft a 
letter agreeing to a stance of neutrality that he then approved 
for me to deliver to Senator Murray on May 16th, 2002.
    For clarification, the definition of ``neutral'' is not 
taking sides; not belonging to, favoring or assisting in any 
side of war, dispute, contest or controversy. We have seen in 
the past where we have been marked as supporting the bill, and 
I don't think that is quite true.
    Since that time, WSSA has haggled over a few boundary lines 
on maps that were added after the initial agreement, and they 
have since been removed. WSSA has had some internal turmoil 
over the neutral stance that the previous board had taken on 
Wild Sky. Earlier this year, at our annual meeting, a motion 
was made and passed to send a letter to Chairman Pombo, stating 
that in general WSSA does not support wilderness, without 
specific reference to Wild Sky, and that WSSA questions the 
validity of the 16,000 acres in the Wild Sky bill that 
apparently does not meet the wilderness definition. A member 
sent a letter out stating that we were opposing Wild Sky 
without the knowledge of the board, when in fact we were only 
asking that the Resource Committee take a closer look at the 
16,000 acres in question.
    I would like to state for the record that the Washington 
State Snowmobile Association will remain neutral on H.R. 822 
``Wild Sky'' through the end of this 108th Congress. If this 
bill does not pass during this Congress and is reintroduced in 
the 109th Congress, WSSA will reconsider its position.
    I would like to close by stating that WSSA has worked hard 
to represent snowmobilers in Washington State and negotiate a 
favorable outcome for our membership through involvement in 
drafting this legislation. While WSSA has agreed not to support 
nor oppose Wild Sky, recent opposition from other user groups 
and local Government representatives should indicate that a 
more careful review may be warranted. It is my sincere hope 
that you, the Resources Committee, carefully consider and 
evaluate the concerns brought forth today, knowing that over in 
Washington, the choices you make will have a very real impact 
on the people who currently recreate in the area known as Wild 
Sky.
    Thank you for your time.
    [The prepared statement of Chris Fadden follows:]

              Statement of Chris Fadden, Vice President, 
                Washington State Snowmobile Association

    Chairman Walden and Committee Members,
    I would like to thank you for allowing the Washington State 
Snowmobile Association the opportunity to testify on H.R. 822 ``Wild 
Sky''.
    WSSA became involved almost 3 years ago when several members 
attended a ``Wild Sky work shop'' in Monroe, Washington, on September 
6, 2001 and were asked to take action against this legislation. WSSA 
officials and members wrote letters and sent emails to Congressman 
Larsen and Senator Murray's offices asking that alternatives be sought 
out such as a National Recreation Area or a new concept of a Back 
Country Recreation Area.
    On December 5th, 2001, members of WSSA met with aides from 
Congressman Larsen, Congresswoman Dunn, and Senator Murray's offices to 
discuss the Wilderness area proposal. We supplied maps of the 2001 
proposal with overlays that illustrated areas of motorized use. We 
suggested that for those areas, a National Recreation Area (NRA) would 
be a more appropriate designation but were informed that the areas we 
had identified would be too small to manage as NRA's. When we offered 
the idea of a Back Country Recreation Area we were told that the 
designation did not exist and that they would not spend the time 
writing the legislation for it. During the meeting we were told by the 
Congressman and Senator's Aides that other user groups including 
Motorcyclists, Mountain Bikers and Horsemen had met with them that day 
and had conveyed that they had little to no user areas inside the 
proposed boundaries. They did not forsee any conflict with their 
recreation and the proposed Wilderness.
    After several failed attempts at getting the other motorized groups 
back at the table, WSSA found itself the solitary motorized group in 
opposition to the proposed legislation. At that point WSSA board 
members asked that I take the lead and try to negotiate motorized user 
areas out of the proposal.
    I then met several times with Senator Murray's Aides, drawing lines 
on maps and discussing terrain features. When I brought up any other 
motorized use of an area I was advised to remember that I was there to 
inform them only of snowmobile areas. After five months of bargaining 
WSSA was asked to support the legislation all but one of the snowmobile 
areas was removed (Eagle Lake, an area pointed to as being essential, 
included to prevent ``cherry stemming''). I replied that WSSA would not 
support the Wilderness bill, but offered that the Association may agree 
to remain neutral.
    After speaking to several WSSA board members, I was directed by the 
President Glenn Warren to draft a letter agreeing to a stance of 
neutrality that he then approved for me to deliver to Senator Murray on 
May 16th 2002.
    For clarification, the definition of ``neutral'' is: not taking 
sides; not belonging to, favoring, or assisting any side in a war, 
dispute, contest, or controversy.
    Since that time, WSSA has haggled over a few boundary lines on the 
map that were added after the initial agreement, and they have since 
been removed. WSSA has had some internal turmoil over the neutral 
stance that the previous board had taken on Wild Sky. Earlier this year 
at our annual meeting, a motion was made and passed to send a letter to 
Richard Pombo, as House Resource Committee Chair, stating that in 
general WSSA does not support wilderness (without specific reference to 
Wild Sky), and that WSSA questions the validity of the 16,000 acres in 
the Wild Sky bill that apparently does not meet the wilderness 
definition. A member sent a letter out stating that we were opposing 
Wild Sky without the knowledge of the board, when in fact we were only 
asking that the Resource Committee take a closer look at the 16,000 
acres in question.
    I would like to state for the record that the Washington State 
Snowmobile Association will remain neutral on H.R. 822 ``Wild Sky'' 
through the end of this 108th Congress. If this bill does not pass 
during this Congress and is re-introduced in the 109th Congress WSSA 
will reconsider its position.
    I would like to close by stating that WSSA has worked hard to 
represent snowmobilers in Washington State, and negotiate a favorable 
outcome for our membership through involvement in drafting this 
legislation. While WSSA has agreed not to support nor oppose ``Wild 
Sky'', recent opposition from other user groups and local government 
representatives should indicate that a more careful review may be 
warranted. It is my sincere hope that you, the Resources Committee, 
carefully consider and evaluate the concerns brought forth today, 
knowing that over in Washington, the choices you make will have a very 
real impact on the people who currently recreate in the area known as 
``Wild Sky''.
    Thank you for your time.
                                 ______
                                 
    Mr. Walden. Mr. Fadden, thank you for your time and for 
your work on this legislation and your comments today.
    I would like to enter into the record now correspondence we 
have received, some 265 letters and e-mails from people who are 
opposed to the legislation in its present form. And so without 
objection, those will be entered into the record.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Walden. I have wrestled with whether to say this or 
not, but I am going to because I think Mr. Reardon said, he 
talked a lot about process and the open process that has 
occurred here in the hearings and all, and I am not aware of 
any hearings in this Congress on the House side, other than 
this one, on this particular bill.
    You know the frustration I have had is back last fall, 
Senator Murray put a hold on a bill of mine to help provide 
some refunds to farmers who had not gotten water in 2001, yet 
paid for the delivery of that water. It was late at night. I 
was back in Oregon, and I got a call from my senior Senator. 
She apparently wanted a hearing on this legislation. And I 
wasn't Chairman of the Subcommittee at the time, but I 
indicated I don't have a problem having a hearing on any bill. 
I couldn't pledge to support the bill without ever seeing it.
    I never heard again from Senator Murray or her staff to my 
staff until about a month ago, when we had a bill that Senator 
Wyden and I had been working on to transfer some forest land to 
a parks and metro rec district in Bend, Oregon, the most 
rapidly growing county in my State. It had unanimous support in 
the Senate. She put a hold on that bill and never called. The 
staff never called us. Suddenly, there is a hold on this bill.
    Now, we worked around it because we had an identical bill 
on the House side that Senator Wyden had sent over, so we sent 
that through. So she has still got a hold on my parks bill. It 
doesn't matter now. So I called her. I said, ``Why? What is 
going on here.''
    ``You know what you have to do.''
    It is like, ``Do you ever think about coming over, sitting 
down and talking? I mean, I told you I have actually made 
requests for a hearing and talked to the Chairman about it.'' 
So anyway that conversation went nowhere.
    So I just want you to know that, that in this process it 
always seems to me to be more productive when it is open, 
hearings occur, and discussions occur like among I am sure the 
three Washingtonians that are here today. And, frankly, I don't 
like to deal with people in that sort of ``take a hostage and 
put a gun at your head'' mentality, and I just hope in this 
process, as you all work out your differences here, and among 
yourselves--these two gentlemen, especially, I know, put a lot 
of work into this, and I assume my Ranking Member here has as 
well. And so I think that is a better process to go through, 
and my faith in them is why I certainly have supported holding 
this hearing.
    I want to ask each of you, I have seen various studies that 
show wilderness is good for local economies and bad for local 
economies. This is that seesaw, yin-yang, I say it is good, you 
say it is bad. The Mount Baker-Snoqualmie already has 42 
percent in wilderness is my understanding, but recreation 
statistics show only 13 percent of recreationists visit it, and 
so I guess the question from each of you that I would like--
that and one other--is will creating more wilderness truly add 
more jobs to the economy? And I know that is important.
    The second question I have comes about from some work we 
are doing up on Mount Hood on a wilderness proposal. An initial 
proposal came out, and we all kind of learned quickly that you 
can't mountain bike, and I don't mean motorized, other than by 
muscle power, in a wilderness area. And I wonder if that issue 
has come to light here and if it is an issue at all. In my 
hometown, mountain biking has become a huge sport, and again 
muscle-powered mountain biking, and I just wonder if there are 
mountain bike trails here and if you all are looking at that, 
if that has become an issue.
    So maybe if you could address both of those questions and 
just kind of go--we will start, well, I assume snowmobile 
folks, if you want to start out, Mr. Fadden.
    Mr. Fadden. Wilderness, obviously, we are a motorized 
group, and wilderness would stop us from using any of those 
areas which would, in fact, hurt the local economies because we 
wouldn't be visiting those areas any more. I don't have the 
exact numbers, but we do spend per person at least $2,000 a 
year on overnight-type accommodations. So it would be a big 
economic impact.
    Mr. Walden. Do you know anything about nonmotorized 
mountain biking?
    Mr. Fadden. The nonmotorized mountain biking, we have spoke 
with them, on occasion, about those areas, and they don't have 
any current trails in there, but this would stop them from 
creating any new trails.
    Mr. Chase, I believe.
    Mr. Chase. Yes. I am not an economist, but I perceive that 
wilderness would do less because it is going to be more 
restrictive. You are not going to have snowmobilers in there. 
You are not going to have other people in there. And I am 
another step down the road because you might say I wear the 
resource flag of building roads and so on. But if you skip over 
that and just stay with the current situation, it will be less 
dollars going into there because there will be less visitors 
and less things to do.
    Mr. Walden. All right. Thank you. And do you know anything 
about mountain biking issues?
    Mr. Chase. No, that is the new generation.
    [Laughter.]
    Mr. Walden. It sure is. Those bikes are a couple thousand 
bucks I have discovered, too.
    Mr. Reardon?
    Mr. Reardon. Thank you, Mr. Chairman. As I referenced in my 
testimony, a recent report of ``Prosperity in the 21st Century 
West'' does identify economic investment following public 
lands. In terms of the details of wilderness, I don't have that 
information on me, but would be happy to forward that to the 
Committees.
    I also point to a document in the record from the Snohomish 
County Economic Development Counsel, which the whole focus is 
to expand the economy to generate revenues without having to 
raise taxes, and they are indeed supportive of this 
legislation.
    In terms of mountain biking, as the owner of a specialized 
``stump jumper,'' it does not at all discourage me that I can't 
mountain bike in the wilderness. There are plenty of places in 
Washington State that afford me that opportunity, in fact, 
around the Pacific Northwest. And as a resident of the 
community, and a lifelong resident of the community, I am more 
than happy to designate this as wilderness, to keep it open for 
hiking, so my daughter, and my wife and I can enjoy it.
    Mr. Walden. Thank you.
    Mr. Town?
    Mr. Town. On your mountain bike question, first, we have 
a--the local mountain bike group has supported the Wild Sky 
since the very beginning. There also is language in the bill 
that does a trail study in surrounding areas, not within just 
the Wild Sky area itself.
    I am a mountain biker and do considerable mountain biking, 
and I would find it very difficult to mountain bike anywhere 
within the Wild Sky area business of the steepness of the 
terrain. However, there are roads that go through the Wild Sky 
area that will remain open that I have mountain biked quite 
peacefully and happily.
    On the economic issue, just a real quick one. I am also not 
an economist, but it seems that a lot of wilderness areas are 
pretty remote, and the reason the visitation numbers are 
probably low is because of the remoteness. On the Wild Sky, 
this is much closer to populated areas, and I think that it 
will increase some visitation, and there will be some economic 
benefits because of that.
    Mr. Walden. I am going to have to excuse myself. I have to 
go chair yet another subcommittee, the one I have been chairing 
before. So I am going to turn the gavel over to Mr. Flake at 
this point, and then I will look to the record for the 
responses from the other two gentlemen.
    Thank you, again, for all of your input on this 
legislation, and to Mr. Nethercutt and Mr. Larsen for your work 
on it as well.
    Mr. Flake. [Presiding.] Thank you.
    I will now recognize Mr. Inslee.
    Mr. Inslee. Thank you. Just on that note on bicycling, it 
was interesting, when I was coming back Sunday from this climb 
of Mount Baring, on the ferryboat I ran into a pal of mine who 
had just been mountain biking at Gold Bar. There is a lot of 
great mountain biking at Gold Bar, and he thought the Wild Sky 
was a great idea as long as we have facilities outside the 
wilderness, which we have got plenty of, and he is happy about 
it.
    I want to address this issue of National Recreation Areas, 
which I am opposed to, as far as being a solution here, because 
I think they are kind of a half-baked quasi wilderness that 
really don't cut the mustard here for three reasons:
    One, they do allow other uses that are not allowed in the 
wilderness, at least in some circumstances. In fact, in the 
Eagle Cap wilderness, the statute actually would allow logging, 
mining and grazing. Now, that may not be, here, specifically 
the situation, but I don't think we should muddle that.
    Second, there is a public understanding, when you declare 
something a wilderness, the people in the State of Washington 
get it. They know what that means. If we start muddling around 
with different designations, you don't know what you are 
talking about.
    Third, you have got really just little slivers. If you cut 
out 16,000 acres of this, it is just little, tiny slivers, and 
it would just drive everyone nuts to manage them. In fact, if 
somebody could put the map up--could we put the map of it up 
there just to show what we are talking about if we cut these 
little slivers out of it. And maybe, Mike, could you just show 
where those little slivers would be if you cut 16,000 acres 
out? I don't think it is designated on the map, but I think you 
know where it would be. This is going to be an approximation, 
but just to give you--
    [Mr. Town approached the map and was speaking off-
microphone.]
    Mr. Flake. Excuse me. Could the gentleman speak with a mike 
so it can be on record?
    Mr. Inslee. I don't know if it is possible. Why don't you 
just point it out quietly, and then go back and speak. How is 
that?
    [Mr. Town pointed the area out on the map.]
    Mr. Inslee. The point I want to make is these are 
noncontiguous little, tiny parcels, sometimes 200 feet wide, 
and the Forest Service would have to manage three different 
types of forests sometimes within 350 feet. And people are 
going to be going from regular Forest Service land to national 
recreation land, to wilderness designation, within about 300 
feet, with different rules on whether you can start a campfire, 
how many people can be in your party. I just think that is 
really, really bad policy to carve up our forests in such 
little, tiny spots. I think it creates unnecessary problems.
    I want to ask, Mr. Town, if you could--this may be 
difficult because we don't have a mike--but if you can describe 
all of the accommodations that were made from day one to 
accommodate people's concerns about recreation and resource use 
issues.
    Mr. Town. If I may use the map again.
    Mr. Inslee. Mr. Chair, could we try that if he speaks very 
loudly?
    Mr. Flake. I will ask the recorder if that is possible.
    Would you bring the map over closer to the mike.
    Mr. Inslee. Yes, why don't you bring the map over where he 
is.
    Thank you.
    Mr. Inslee. Just hold it behind him.
    Mr. Town. If I talk as loud as I can from here, is the mike 
picking me up?
    Mr. Flake. Yes. It sounds like that is OK.
    Mr. Town. The original proposal, which was submitted at a 
public meeting in Monroe a number of years ago, was over 
120,000 acres, and a lot of people had input on that. And based 
upon the input of the people who were at that meeting and 
subsequent meetings, what happened is this area here was, and 
this area in here, and a portion of this area here was taken 
out of the proposal because of concerns raised predominantly by 
local snowmobilers.
    This area here was taken out of the proposal because of 
this issue that Mr. Inslee mentioned before about group sizes--
church groups and Boy Scouts--in order to get to Barkley Lake.
    This area here was taken out of the proposal in order to 
accommodate some concerns raised by the timber industry.
    This area here was taken out of the proposal because of 
some mineral issues on some old mining claims and some private 
land issues.
    These areas along the North Fork corridor were expanded, 
based upon concerns raised by the Forest Service and some other 
folks.
    So it started out as 120-, and then a lot of areas have 
been taken out, based upon public involvement, public 
discussion, to get to the original 106,000-acre proposal. And 
then, subsequently, another 2,000 acres was taken out just 
recently based upon some other issues that were raised, 
predominantly access issues, like, for example, this area here.
    I may also add that there was some additions that were made 
because of public input, and basically there is a great stand 
of old growth that was added in this area because of a local 
citizen who discovered that particular stand of trees.
    Mr. Inslee. Thank you. I don't know what our situation is. 
I do have some more questions, but I will defer.
    Mr. Flake. We need to move along at this point.
    Mr. Nethercutt?
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Thank you all for your testimony. We really appreciate your 
being here.
    I notice that Mr. Reardon, and Mr. Sax, and Mr. Town 
mentioned the likelihood of increased visitation, steady 
growth. Is it your conclusion that the growth will be increased 
if this area is preserved, as opposed to having it occur 
without it being preserved? Do you understand my question? Are 
you assuming that there is going to be an increase in growth 
and an increase in visitation because of it?
    Mr. Sax. Would you like me to--
    Mr. Nethercutt. Yes, sir. Maybe Mr. Sax or Mr. Town or Mr. 
Reardon or anybody else who wants to testify.
    Mr. Sax. Thank you very much, Representative Nethercutt, 
for the question.
    On a personal note, I would like to thank you, as the only 
statewide elected representative at the Federal level, to come 
and actually speak with me about the Wild Sky proposal.
    I look at Highway 2 in the corridor from Seattle all the 
way to Chelan as kind of the driveway for recreation in the 
Puget Sound area. Enormous amounts of people leave the urban 
metropolitan area on the weekends and on holidays and travel 
over. There are many opportunities for wilderness recreation on 
that driveway.
    Putting Wild Sky within a wilderness area, in its present 
form--the 106,000 acres as proposed--I think will actually 
diminish, it is my belief that it will diminish the activity 
for the cities of Index, perhaps increase Index, but decrease 
for Gold Bar, Sultan, because people will choose to bypass, 
those people that would like to recreate in a way that a 
wilderness perhaps prohibits. They will go over the mountain 
into Chelan County to participate in those activities.
    So my thought is the wilderness would probably restrict and 
decrease the activity in the national forest should it become 
wilderness.
    Mr. Nethercutt. How about you, Mr. Town? What is your take 
on it or do you see any change or any difference between one or 
the other?
    Mr. Town. Well, I don't know if I can answer anything 
specifically on growth. But in terms of visitation, I think 
that visitation will increase by a slight factor in this area 
because of it becoming wilderness.
    I disagree a little bit with the idea that people won't 
come here because it is wilderness. If this was an area in 
which we were taking user groups that were using this area, for 
example, dirt bikers and snowmobilers, and saying that they no 
longer could use this area, perhaps they would recreate in 
another area. But, realistically, right now within this 
proposal, the dirt bike crowd, for example, the ATV crowd, most 
of the ATV in this area, in the Highway 2 corridor, occurs 
outside of the proposal in a place called Reider Pit. It is a 
tremendously fabulous place to dirt bike. So I doubt people 
will leave because Wild Sky is part of it.
    On the snowmobile side, most of the snowmobile activity in 
the Highway 2 corridor also occurs currently outside of the 
wilderness proposal. And when the wilderness proposal becomes 
law, it still will occur in those areas. I doubt people will 
bypass those existing areas just because they are gone.
    Mr. Nethercutt. How about you, Mr. Reardon?
    Mr. Reardon. Snohomish County is a fast-growing place. it 
is going to keep growing regardless of Wild Sky or not. I think 
what it comes down to, Congressman, is the kind of growth that 
we are looking to attract. This designation of wilderness gives 
us an opportunity to identify it, to work toward it. That is 
why the local mayors of Index, Monroe and the outlying areas 
support the proposal because the old type of growth isn't 
coming back. It is not sustainable, and we are looking for 
options that are sustainable.
    So I think, in terms of that, growth is going to occur, but 
it gives us a chance to really identify the future that is 
possible in Snohomish County and go after it.
    Mr. Nethercutt. Let me ask, quickly, in the 30 seconds I 
probably have left, would you all support, assuming there is 
some bill that gets through this system and is preserving this 
area, would you support, and do you think there is a need for 
additional infrastructure assistance, highway money or other 
assistance that might help meet whatever growth or whatever 
changes might come with respect to this legislation?
    Mr. Reardon. In terms of the transportation side, as a 
former State lawmaker, both in the House and the Senate, I can 
say that, regardless of Wild Sky or not, the State of 
Washington needs money. We need to move on the transportation 
bill that is before the Congress, before the President, and the 
State of Washington needs to do their job as well.
    Wild Sky, I don't want to say is irrelevant, but it is, at 
this juncture, not a piece of the puzzle that is going to make 
a significant difference in my opinion.
    And you had a second question, Congressman? I am sorry.
    Mr. Nethercutt. No, that was it. I was just going to make 
sure--Mr. Sax, would you agree, as a public official?
    Mr. Sax. I would agree with our executive that we are 
transportation starved. And as Congressman Larsen talked about 
$1.4 million coming to two local communities, that is a nice 
help.
    We have been told, in order to provide true infrastructure 
enhancements on the Highway 2 corridor, we need to do a 
corridor study, 68 miles of Environmental Impact Study--it is 
an $8-million, 2-year study--just to start receiving Federal 
State allocations of funds to improve the roads. It is a 
terrible highway, and I would say that with or without Wild 
Sky, infrastructure does need to come to Snohomish County.
    My question is why spend $18 million, as Congress has 
forecasted, to remove the infrastructure should we put this 
wilderness in place, rather than spend that $18 million 
creating access to something that would be enjoyable to attend 
or to participate in.
    Mr. Nethercutt. Thank you.
    Mr. Flake. Thank you. We need to move along here, quickly, 
if we can.
    Mr. Udall, if you could go quickly, if we can. I believe we 
need to end at 2:00, and we have two more quick witnesses.
    Mr. Tom Udall. Thank you, and let me thank the panel for 
being here and say that I applaud Rick Larsen, and 
Representative Nethercutt, and Senator Murray for working in a 
bipartisan way on this legislation.
    And with that, I would yield to Representative Inslee.
    Mr. Inslee. Thank you. I will just hopefully make a couple 
of points.
    First, I want to make sure that we heard the words of 
Senator Henry Jackson's son, Peter Jackson, who in the record 
wrote to say, ``The argument that evidence of past human 
impacts of old logged areas, roads, culverts, lookout stands, 
cabins and the like disqualify those Federal lands from 
designation as wilderness, pursuant to the Wilderness Act of 
1964 is simply wrong. I am troubled and surprised that it would 
be raised again, fully 3 decades after my father,'' Senator 
Jackson, ``Congressman Saylor, Republican architect of the 
wilderness bill, and others who actually wrote the Wilderness 
Act said exactly that, and the entire Congress agreed.''
    I think that is powerful language from the son of the 
fellow who wrote the Act.
    I want to ask Mr. Town about the recovered areas, areas 
that originally were logged and now are growing back. I think 
we have a picture. If you could bring that picture, Mr. Town, I 
just want to ask you about that. I am told this is a picture 
taken in an area that had been logged. If you can just tell us 
what we see there.
    Take that over to Mr. Town, if you will, please, so he can 
point to it if he wants to.
    Mr. Town. This picture, Congressman Inslee, shows an area 
that was logged in the 1920s, and now it has returned to 
basically what most people would consider somewhat of a 
pristine state. It is right near the banks of the North Fork of 
the Skykomish River.
    And I think one of the issues of this 16,000 acres is that 
a lot of this acreage is right on the banks of the river, and 
the river itself maintains its water quality because of these 
forests.
    If I may draw an analogy in terms of the Wild Sky, the Wild 
Sky is like a human being. The North Fork of the Skykomish 
River is basically the most important portion of what is coming 
out of the Wild Sky to downstream residents. If you remove 
those low-elevation forests along the banks of the North Fork 
of the Skykomish River, what you really are doing is you are 
taking the heart and soul out of this proposal just like as if 
it was a human being. And that is what this issue, in terms of 
previously logged areas, most of those previously logged areas 
look exactly like this photograph.
    Mr. Inslee. Thank you. I have one more question for Mr. 
Sax, briefly.
    I have real, real trouble with people asserting there 
hasn't been a lot of public input in this process. Eighteen 
Snohomish County elected officials support this. Sixty-five 
mayors within an hour of this area support it. Eight members of 
the congressional delegation, two Senators and one Governor 
support this.
    There have been multiple, multiple public meetings on this, 
and I just really can't understand Mr. Sax's statement. I 
understand there was a meeting in Monroe, one in Index. Did you 
go to those? Did you have an opportunity to attend those?
    Mr. Sax. I was not able to attend those meetings.
    Mr. Inslee. Is that Mr. Larsen's fault?
    Mr. Sax. That is not Mr. Larsen's fault. I did not receive 
an invitation to the meetings.
    Mr. Inslee. But other people showed up, didn't they?
    Mr. Sax. And there was also a great deal of opposition that 
showed up to the meetings.
    Mr. Inslee. And I am sure they were listened to with 
great--in fact, a lot of their ideas were taken into 
consideration.
    Anyway, thank you very much, and I appreciate all of your 
testimony.
    Mr. Flake. Thank the gentleman.
    The gentleman from Washington wanted to make a closing 
statement.
    Mr. Larsen. Thank you, Mr. Chairman.
    I want to again thank Chairman Pombo and Chairman Walden 
for helping to make this hearing happen. And I want to thank my 
colleague from Spokane, Congressman Nethercutt, as well as 
Senator Murray, for all of the work that everyone has been 
doing on this, and of course Mr. Inslee as well.
    I want to thank all of the attendees who, I think, going 
through my list, I think all of them are constituents, and we 
live about as far north and west as you can get from this place 
in the Continental United States, and for them to make a trip 
out here for 4 hours of hearing is a great feat on their part, 
and you all deserve a lot of thanks for that.
    Chris Fadden, I want to thank you very much. We have had 
this issue of snowmobiles, snowmobilers and where are you on 
these issues, and I think you cleared it up very well today, 
and I really do appreciate that.
    We also ought to note that not only is Gene Chase not a 
logger, but a road contractor, not only a family friend, but 
was selected this year as Washington State's Community College 
Trustee of the Year and deserves a lot of thanks for his 
efforts on behalf of higher education in Washington State as 
well.
    Thank you, Mr. Chairman.
    Mr. Flake. Thank you, and I would like to thank the panel. 
You are done. Thank you very much.
    [Laughter.]
    Mr. Flake. I knew that would draw applause. Thank you. I 
thank the members for their questions as well.
    Mr. Flake. Since Mr. Neugebauer is not yet here, we will go 
ahead and call Art Pope. Mr. Pope is here, right?
    [Pause.]
    Mr. Flake. Thank you, Mr. Pope, for coming. He is the 
Executive Director of the Northwest Youth Corps. And before 
getting to your testimony, and I apologize, we won't have time 
for questions, given our congressional schedule. We need to be 
finished at 2:00, but Mr. Udall wanted to make a statement 
quickly or enter a statement into the record.
    Mr. Tom Udall. I will just be very brief here, Mr. 
Chairman.
    This is a bill that Representative Walden and I are both 
working on, which would allow the Secretaries of Agriculture 
and Interior to contract directly with the Youth Service and 
Conservation Corps to carry out rehabilitation and enhancement 
projects in our parks and forests, placing a priority on those 
projects that prevent and suppress wildfires in the wild and 
urban interface.
    This partnership between the Federal Government and the 
Nation's Service and Conservation Corps will provide cost-
effective assistance in preventing forest fires and providing 
disaster relief to at-risk communities.
    I have one of these conservation corps, called the Rocky 
Mountain Conservation Corps, in my district. You have 
disadvantaged youth working in a variety of situations. I think 
working in the forests could make a real difference to their 
lives and to healthier forests.
    And with that, Mr. Chairman, I would ask that my full 
statement be put in the record, and let us proceed with the 
panel.
    [The prepared statement of Mr. Tom Udall follows:]

Statement of The Honorable Tom Udall, a Representative in Congress from 
                 the State of New Mexico, on H.R. 4838

    Mr. Chairman, I would like to thank you for holding a hearing on 
H.R. 4838, The Healthy Forest Youth Conservation Corps. This 
legislation will allow the Secretaries of Agriculture and Interior to 
contract directly with Youth Service and Conservation Corps to carry 
out rehabilitation and enhancement projects in our parks and forests, 
placing a priority on those projects that prevent and suppress fires. 
This partnership between the federal government and the nation's 
service and conservation corps will provide cost-effective assistance 
in preventing forest fires and restoring damaged forest lands.
    In addition to providing additional resources to control forest 
fires, the program will offer important work experience to low income, 
disadvantaged, and often minority youth between the ages of 16-24 who, 
through the corps, will develop the skills and habits they need to 
become productive citizens.
    Research has shown that youth who complete corps programs have 
higher rates of employment and earn more than their counterparts. Corps 
members also score higher on measures of personal and social 
responsibility and are more likely to earn a college degree. Finally, 
not even taking into account the obvious cultural and financial 
benefits to society from protecting at-risk youth, corps generate $1.60 
in immediate benefits for every dollar in costs.
    I encourage my colleagues to support the Healthy Forest Youth 
Conservation Corps Act to enable local youth corps to work with the 
federal government to protect their communities. This is an opportunity 
to utilize cost-saving human resources to conserve, maintain and 
protect Federal land. It is an investment in our environment and in our 
country's youth. I look forward to working with you, your staff, and 
Congressman Walden on this legislation that will help provide a 
positive, long-term solution to a pressing need in our Nation's 
forests. Thank you very much.
                                 ______
                                 
    Mr. Flake. All right. We will do so. And because of time 
constraints, we will actually go to Mr. Neugebauer first and 
welcome his statement in explanation of this bill.
    Thank you for coming.

  STATEMENT OF THE HON. RANDY NEUGEBAUER, A REPRESENTATIVE IN 
     CONGRESS FROM THE STATE OF TEXAS, NINETEENTH DISTRICT

    Mr. Neugebauer. Thank you, Mr. Chairman. I want to thank 
you for allowing me to testify today regarding H.R. 4806.
    This bill provides for a land exchange between the Lincoln 
National Forest in New Mexico and Lubbock Christian University 
in my district. I believe this land exchange is in the best 
public interest, and it is fair and provides mutual benefit for 
both parties.
    Lubbock Christian University owns and operates Pine Springs 
Camp, which is located on 40 acres in the Lincoln National 
Forest. LCU also owns 80 acres of undeveloped land, which is an 
in-fill tract northwest of the camp, and this tract is 
surrounded fully by national forest land and has limited 
access.
    LCU would like to expand Pine Springs Camp in order to 
accommodate the growth of the number of campers since 1994. At 
that time, about 650 youth attended summer camp at Pine Springs 
each summer. Today, almost 1,250 young people are attending 
Pine Springs.
    In order for Pine Springs to have room for additional 
campers and activities, LCU has proposed to exchange the 80 
acres of undeveloped land that they own for 80 acres of land 
which borders the existing camp. The land that LCU proposes to 
acquire from the Forest Service is composed of two 20-acre 
tracts and one 40-acre tract. Pine Spring Camp would use the 
land for athletic fields and for possible amphitheater and new 
housing in the future.
    LCU is a nonprofit entity. Pine Spring Camp was deeded to 
the university in 1996 and has become an important part of LCU. 
Each summer, 10 1-week camp sessions are held at Pine Springs, 
and in the off-season the camp is used for college youth groups 
and church retreats. Summer camp sessions are staffed by church 
and youth minister volunteers and LCU students. Camp fees cover 
operating costs and camp improvements are made by volunteers 
through donations. Just like the university, Pine Springs camp 
is operated on a nonprofit basis.
    Without the land exchange with Lincoln National Forest, 
Pine Springs Camp has really no effective options for 
accommodating any increased demand for the programs that they 
are offering at the camp. The option of developing the 80-acre 
tract inholding that the camp has would be cost prohibitive and 
really I don't think is in the best interests of the national 
forest because, like I said, it is completely surrounded by 
national forests, and this would be a development that would be 
adjacent to a national forest all the way around it. Selling 
the inholding and using the proceeds to purchase additional 
land would also be difficult.
    LCU first met with the Forest Service regarding possible 
land exchange in April of 2001, and LCU worked with the Forest 
Service on an initial proposal and resolved the outstanding 
issues with a camp deed. As LCU learned more about the land 
exchange process, the length of time involved and possible 
expenses, they contacted my predecessor, Congressman Larry 
Combest, to further discuss that process.
    Last year, LCU asked me to work on a legislative exchange 
in order to expedite the process and help reduce the expenses 
that would make the exchange infeasible for them. Through this 
proposal and preliminary feasibility process, LCU informs me 
that Lincoln National Forest has remained interested in the 
exchange and supportive of the university's request because the 
forest would like to acquire the LCU's undeveloped 80 acres.
    H.R. 4806 moves this land exchange forward and helps reduce 
the expenses to both parties. As I mentioned previously, as a 
nonprofit, LCU has been concerned with the uncertainty in cost 
and time involved in the direct exchange with the Forest 
Service.
    Mr. Chairman, I will put the rest of my statement in the 
record, in order for time here, but I think you begin to get 
the gist that all of the parties have agreed to that. What the 
university would like to do is not spend all their money with 
lawyers in the long-term process of working through this 
exchange, and since all parties have agreed to go ahead and 
make the exchange, allowing the Forest Service to have this 80 
acres of pristine land back and not have a donut hole in the 
middle of it, and it would also provide growth opportunity for 
the church to operate that camp.
    I would be glad to answer any questions.
    [The prepared statement of Mr. Neugebauer follows:]

   Statement of The Honorable Randy Neugebauer, a Representative in 
             Congress from the State of Texas, on H.R. 4806

    Chairman Walden, Ranking Member Inslee and members of the Forest 
and Forest Health Subcommittee, thank you for allowing me to testify 
today regarding H.R. 4806.
    This bill provides for a land exchange between the Lincoln National 
Forest in New Mexico and Lubbock Christian University in my district in 
Texas. I believe this land exchange is fair and provides benefits for 
both parties.
    Lubbock Christian University (LCU) owns and operates Pine Springs 
Camp, which is located on 40 acres in the Lincoln National Forest. LCU 
also owns an undeveloped 80-acre inholding a few miles northwest of the 
camp. This tract if fully surrounded by National Forest land.
    LCU would like to expand Pine Springs Camp in order to accommodate 
the growth in the number of campers since 1994. At that time, about 650 
youth attended summer camp at Pine Springs each summer. Today, more 
than 1250 youth attend the week long sessions.
    In order for Pine Springs Camp to have room for additional campers 
and activities, LCU has proposed to exchange its undeveloped 80-acre 
inholding for 80 acres of National Forest land that borders the 
existing camp. The land LCU proposes to acquire from the Forest Service 
is composed of two 20-acre tracts and one 40-acre tract. Pine Spring 
Camp would use the land for athletic fields, an amphitheater and new 
housing.
    LCU is a non-profit entity. Pine Springs Camp was deeded to the 
University in 1996, and has become an important part of LCU. Each 
summer, 10 one-week camp sessions are held at Pine Springs, and in the 
off-season, the camp is used for college, youth group and church 
retreats. Summer camp sessions are staffed by church and youth minister 
volunteers and LCU students. Camp fees cover operating costs, and camp 
improvements are made by volunteers and through donations. Just like 
the University, Pine Springs Camp is operated as a non-profit.
    Without the land exchange with the Lincoln National Forest, Pine 
Spring Camp has no effective options for accommodating the increase in 
camper demand. The option of developing the 80-acre inholding as a new 
camp would be cost prohibitive. Selling the inholding and using the 
proceeds to purchase additional land near the camp would also be a 
difficult process.
    LCU first met with the Forest Service regarding a possible land 
exchange in April of 2001. LCU worked with Forest Service on an initial 
proposal and resolved some outstanding issues with the camp deed. As 
LCU learned more about the land exchange process, the length of time 
involved and the possible expenses, they contacted my predecessor, 
Congressman Larry Combest, to further discuss the process.
    Late last year, LCU asked me to work on a legislative exchange in 
order to expedite the process and help reduce expenses that would make 
the exchange infeasible for them. Through this proposal and preliminary 
feasibility process, LCU informs me that the Lincoln National Forest 
has remained interested in the exchange and supportive of the 
University's request.
    H.R. 4806 moves this land exchange forward and helps reduce 
expenses for both parties. As I mentioned previously, as a non-profit, 
LCU has been concerned with the uncertainty in costs and time involved 
in a direct exchange with the Forest Service. The legislation helps 
move the process along yet still includes a full land appraisal and 
review of the exchange. H.R. 4806 also allows the National Forest 
Service to reduce the amount of land conveyed to LCU in order to 
equalize the value of the land exchange, if necessary.
    By expanding Pine Springs Camp from its existing location through 
acquiring the federal lands, LCU will have space to allow for future 
growth. By acquiring LCU's inholding, the Lincoln National Forest will 
increase the Forest Service's undeveloped land within the forest. 
Ownership of the inholding will facilitate the Forest Service's 
management of this area of the Lincoln National Forest and give the 
Forest Service full discretion over how this land is used in the 
future.
    H.R. 4806 provides for the straightforward exchange of a small 
amount of land between the Forest Service and LCU. This legislation is 
non-controversial, and the exchange provides significant benefits to 
both parties. A lengthy and expensive exchange, however, reduces 
benefits and makes this exchange less appealing to both sides.
    Mr. Chairman, on behalf of my constituents at LCU and Pine Springs 
Camp, I ask that your Subcommittee help move this exchange through the 
legislative process during the remainder of this session of Congress.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions you may have.
                                 ______
                                 
    Mr. Flake. Thank you. We decided to forego questions so 
that we can get through the panel, and we will enter the entire 
statement into the record.
    Thank you for testifying on behalf of your bill today.
    Mr. Neugebauer. Thank you.
    Mr. Flake. We appreciate it.
    We will now go to Mr. Pope and ask you to summarize, in 5 
minutes, your statement, and the entire statement will be 
entered into the record.
    Thank you so much for being here.

  STATEMENT OF ART POPE, EXECUTIVE DIRECTOR, NORTHWEST YOUTH 
                             CORPS

    Mr. Pope. Thank you. Mr. Chairman, members of the 
Committee, I am honored to be here today to testify in support 
of H.R. 4838, the Healthy Forest Youth Conservation Corps Act 
of 2004.
    I want to thank Representative Walden, from my home State, 
and Representative Tom Udall for sponsoring this bill.
    I am the Director of Northwest Youth Corps. And though our 
offices are located in Eugene, Oregon, our youth crews work on 
projects throughout the State, as well as in Washington, 
Central Idaho and Northern California.
    I am also testifying on behalf of the National Association 
of Service and Conservation Corps, NASCC, which represents more 
than 100 corps programs and 23,000 corps members in 32 States 
and the District of Columbia. I have attached detailed 
descriptions of Northwest Youth Corp and NASCC for the record.
    As of July 8th, five Western States--Alaska, Arizona, 
Colorado, New Mexico and Washington--all reported large, active 
fires. At that time, 40,470 fires had consumed 2.9 million 
acres since the start of the year. Right now, large, highly 
active fires are burning in Alaska and California. Fire danger 
in the West remains high, and continued drought conditions are 
expected to extend the West's fire season again this year.
    The National Fire News notes that once firefighters control 
a wildland fire, another group of quiet heroes move into the 
area to start the healing. After a fire, extensive work is 
often needed to control erosion and protect water quality. Land 
management professionals often turn to corps programs for the 
resources they need to start the stabilization and 
reforestation process.
    For example, in 2003, the 1,000 corps members in our 
programs built or maintained 367 miles of trail, pruned 257 
acres of conifers, completed fuel reduction work on 147 acres, 
removed noxious weeds from 1,000 acres, planted 8,230 trees and 
covered 45 acres, collecting seeds needed for habitat 
restoration work.
    In 2001, the Southwest Youth Corps in Durango, Colorado, 
thinned or cleared 175 acres, created defensible space around 
20 structures, removed 33 truckloads of wood and created a 
series of fire breaks 1 to 4 miles long and 40 to 400 feet 
wide.
    In 2003, the Youth Corps of Southern Arizona partnered with 
the Apache-Sitgreaves National Forest, the Coronado National 
Forest and the Chiricahua National Monument to cut and pile 
excess fuels in order to reduce the potential for catastrophic 
fire.
    The nearly 90,000 alumni of the California Conservation 
Corps have dedicated more than 50 million hours to protecting 
and enhancing the environment and another 6 million hours to 
responding to emergencies like fires, floods and earthquakes.
    Corps programs offer Federal, State and local land 
management agencies a flexible, experienced workforce able to 
respond to emergencies and disasters on short notice. In 2001, 
16 Corps programs engaged more than 1,400 Corps members who 
provided 500,000 hours of service in our national forests. 
During this period, the Forest Service invested $4.2 million in 
these partnerships, while Corps programs contributed an 
additional $2.4 million in matching dollars.
    Today's Corps programs are direct descendants of the 
Civilian Conservation Corps of the Depression era. Like the 
legendary ``C's,'' corps programs are proven strategy for 
giving people the chance to change their communities and their 
lives. Corps give young people a chance to step up to a 
challenge, a chance to make a difference and sometimes just a 
vitally needed second chance.
    Working under the leadership of adults who serve as mentors 
and role models, Corps participants discover the pride in their 
abilities, learn the importance of teamwork and experience the 
recognition that comes from making a positive investment in 
their communities.
    Nationally, approximately 60 percent of Corps members are 
young people of color, 50 percent enroll without a high school 
diploma or GED and 55 percent come from homes where the annual 
income is less than $15,000.
    H.R. 4838 provides the additional resources needed to 
prevent and fight forest fires, protect rural communities and 
restore fire-damaged land. It will help Corps programs to meet 
the needs of our youth and help our young people to become 
productive members of society.
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to testify on this important legislation.
    [The prepared statement of Mr. Pope follows:]

        Statement of Art Pope, Director, Northwest Youth Corps, 
                      Eugene, Oregon, on H.R. 4838

    Mr. Chairman and members of the Subcommittee, I am honored to be 
here today to testify in support of H.R. 4838, the Healthy Forest Youth 
Conservation Corps Act of 2004. I want to thank Chairman Walden, from 
my home state of Oregon, and Rep. Tom Udall for their leadership.
    I am the Director of the Northwest Youth Corps (NYC). The NYC is 
headquartered in Oregon but also does work in Idaho, Washington State, 
and California. I am also testifying on behalf of the National 
Association of Service and Conservation Corps (NASCC) which represents 
the corps movement in Washington and consists of more than 100 corps, 
enrolling 23,000 corpsmembers in 32 states and the District of 
Columbia. I have attached detailed descriptions of the NYC and NASCC 
for the record.
    Based on our work in Oregon and reports from my colleagues around 
the country, I am convinced that corps have an important role to play 
in preventing forest fires and other natural disasters that endanger 
our forests, providing appropriate assistance to communities threatened 
by fires, and helping communities recover from the devastation caused 
by fires.
    As of July 8, five states--Alaska, Arizona, Colorado, New Mexico, 
and Washington--were reporting large, active fires and almost 300 large 
fires had been contained since January 1, 2004. In addition to these 
large fires, the National Interagency Fire Center reported that there 
had been 40,470 fires consuming 2.9 million acres since the start of 
the year. According to press reports, the extreme drought is expected 
to extend the West's fire season and drier than normal logs and trees 
are expected to fuel further fires as the heat wave conditions 
continue.
    According to the National Fire News ``as firefighters control 
wildland fires, another group of quiet heroes move into the area to 
start the healing. After a wildland fire, the land may need 
stabilization to prevent loss of topsoil through erosion and prevent 
the movement of dirt into rivers and streams. Land management 
specialists and volunteers jump start the renewal of plant life through 
seeding and planting with annuals, trees, and native species that help 
retain soils and fight invasive weeds. It's a long term process that 
comes alive as the wildland fires die down.''
    This is exactly the kind of work at which corps excel. In fact, we 
are already doing this work. Legislation such as H.R. 4838 will provide 
the federal government with the resources necessary to continue to 
utilize corps and cost-effectively fight wildfires. At the same time, 
this bill targets disadvantaged youth and encourages them to help 
themselves by helping their communities. For example:
    In 2003, NYC Corpsmembers built or maintained 367 miles of trail, 
pruned 257 acres of conifers, performed fuel reduction on 147 acres, 
removed noxious weeds from 1,000 acres, planted 8,230 trees, and 
collected seeds on 45 acres.
    Between April and October, 2001, the Southwest Youth Corps in 
Durango, Colorado thinned or cleared 175.5 acres, created defensible 
space around 20 structures, removed 33 truckloads of wood, and created 
a series of fire breaks that extended between one and four miles and 
were between 40 and 400 feet wide.
    In the past year, the Utah Conservation Corps did thinning in a 
wildland fire-urban interface zone outside of Park City that was a 
partnership between a homeowner's association and Utah Department of 
Forestry. In the past, it has carried out ``soil stabilization'' 
projects in the Bridger-Teton National Forest that included the 
rehabilitation and re-routing of trail in burn areas and building 
drainage structures.
    In 2003, the Youth Corps of Southern Arizona have partnered with 
Apache-Sitgreaves National Forest, the Coronado National Forest, and 
Chiricahua National Monument. Corpsmembers cut and piled excess fuels 
in preparation for a burn as part of a hazardous fuel reduction 
project. They also thinned and removed trees for habitat improvement on 
the Apache-Sitgreaves. The YCOSA worked with Ramsay Canyon, a facility 
of The Nature Conservancy in southern Arizona to remove hazardous, 
flammable material from buildings. Work to create defensible space was 
conducted several weeks prior to a fire and the Corps has received 
credit for saving the buildings. In the past, three camp crews were 
sent to fires on BLM and USFS areas (once in Wyoming and twice in 
Arizona.)
    The Coconino Rural Environment Corps located in Flagstaff, Arizona 
thins hundreds of acres of federal, state, county, city, and private 
lands every year. The Corps has created multiple partnerships in local 
communities to mitigate the hazards of catastrophic wild fires. Summit 
Fire Fuels Reduction Partnership has thinned land around more that 30 
homes in its local community. The Partnership also provided the local 
Native American Reservations with more than 400 cords of fire wood. 
Partnering with County and City Waste Management the partnership found 
a way to transport fire wood to community members in need with little 
to no cost to the project. The partnerships have also increased 
community awareness to the dangers of wildfire and the risks that may 
be associated with living in one of the most fire prone forests in the 
world, thus creating a more fire wise community.
    The CREC thins more than 500 acres a year and returns more than 
4000 acres to native grasslands. Forest restoration has also been a 
large portion of the forestry work CREC has done over the last several 
years.
    The Western Colorado Conservation Corps (WCCC) has done access and 
egress in urban interface in the Black Canyon of the Gunnison National 
Park housing area to insure safe passage for emergency response 
workers. Corpsmembers have been trained in firescaping around new 
suburban neighborhoods as cities spread into rural areas to provide 
both visually aesthetic and fire resistant landscape around structures 
of value and along the avenues of emergency response.
    In 2003, The Minnesota Conservation Corps responded to 45 wildfires 
that totaled 30,656 acres. It completed 920 home and property 
assessments (fire wise) relating to wildfire danger and defensible 
space and made recommendations to the home owners on how to make their 
property safer in the event of a wildfire.
    Corpsmembers also provided about 8,720 hours in indirect fire 
suppression activities including 5 miles of fire break construction, 
400 acres of timber stand improvement, and 5,560 acres of prescribed 
burns.
    In any given year, MCC plants 150,000 plus trees in areas that may 
or may not have been impacted by previous fires. MCC also completes 150 
Forest Inventory Analysis (FIA) plots each year for the Minnesota 
Department of natural resources Division of Forestry. These plots are 
then used in a variety of Forestry models including a wildfire model.
    The California Conservation Corps (CCC) is the nation's oldest, 
largest and longest-running youth conservation corps. Nearly 90,000 
young men and women have worked more than 50 million hours to protect 
and enhance California's environment and communities and have provided 
six million hours of assistance with emergencies like fires, floods and 
earthquakes.
    This June the CCC laid plastic and sandbags on Delta levees to 
prevent flooding; fought fires in Santa Barbara and Madera counties and 
surveyed for the glassy-winged sharpshooter (a major agricultural pest 
that cause Pierce's disease in grapevines and other diseases in other 
plants and has caused the loss of millions of dollars to wine grape 
growers) in Solano County. At the request of the San Joaquin County 
Office of Emergency Services and the state Department of Water 
Resources, 200 corpsmembers and staff were dispatched. The 15 crews 
placed heavy plastic sheeting and sandbags to protect 13.5 miles of 
interior levees not designed to hold flood waters. Corps headquarters 
or satellites sending crews included Chico, Delta, Fresno, Los Angeles, 
Monterey Bay, Norwalk, Placer, Pomona, Redding, San Luis Obispo, 
Siskiyou and Tahoe.
    At the same time, the CCC responded to the Delta levees, three 
crews were dispatched to the Gaviota Fire in Santa Barbara County. 
Corpsmembers from the Los Padres and Pomona centers assisted the 
California Department of Forestry and Fire Protection with logistical 
support.
    As crews finished up with the Gaviota Fire this month, the CCC was 
called upon to respond to the Source Fire in the Sierra National 
Forest, under the direction of the U.S. Forest Service. Fresno and 
Pomona corpsmembers provided assistance at the fire camp. As I have 
indicated, corps have experience working with federal, state, and local 
land management agencies. In 2001, 16 NASCC Corps engaged more than 
1,400 corpsmembers in projects in national forests and corpsmembers 
provided more than 500,000 hours of service. Indeed, the Forest Service 
invested $4.2 million in partnerships with Corps and leveraged an 
additional $2.4 million in match.
    Corps do fee-for-service work and meet the test of the marketplace 
everyday. If we don't meet or exceed expectations our partners go 
elsewhere. Enactment of H.R. 4838 and corresponding funding will enable 
us to do more.
    Corps are the direct descendents of the Civilian Conservation Corps 
(CCC) of the Depression era. Like the legendary CCC, today's Corps are 
a proven strategy for giving young men and women the chance to change 
their communities, themselves, and their families. By providing 
opportunity to young people who need a second chance, corps turn 
potential problems into valuable resources.
    Approximately 60% of NASCC corpsmembers are young people of color, 
50% enroll without a high school diploma or GED and 55% come from homes 
where the annual income is less than $15,000. A rigorous, random 
assignment evaluation conducted by Abt Associates/Brandeis University 
reports positive outcomes for young people who join a corps. The Abt 
Associates/ Brandeis University study also found that:
    <bullet>  significant employment and earnings gains accrue to young 
people who join a corps;
    <bullet>  arrest rates drop by one third among all corpsmembers;
    <bullet>  out-of-wedlock pregnancy rates drop among female 
corpsmembers; and
    <bullet>  corps generate $1.60 in immediate benefits for every 
dollar invested.
    Corps engage primarily young people ages 16-25 in service, training 
and educational activities. The corps model places young people under 
the leadership of adult leaders who serve as mentors and role models.
    In return for their efforts to restore and strengthen communities, 
corpsmembers receive: 1) a stipend; 2) classroom education to improve 
basic competencies and secure credentials; 3) technical skills 
training; 4) supportive services; and 5) a post-service educational 
award. Young men and women learn to value their personal contribution, 
learn the importance of teamwork and experience the recognition that 
comes from making a positive investment in their community.
    Corps are established pathways to re-integrate vulnerable young 
people into society. The supportive environment, the power of providing 
service to their own neighborhoods and the value of paid work to self-
esteem combine to strengthen the ties between a young person and his or 
her community.
    H.R. 4838 provides needed additional resources to meet the 
challenges posed by forest fires. Funding corps to thin forests 
generate community volunteers, and restore land after a fire occurs is 
a cost-effective way to reduce the danger of fires and their aftermath.
    Mr. Chairman, thank you again for the opportunity to testify on 
this important piece of legislation.
                                 ______
                                 
    Mr. Flake. Thank you for your testimony.
    I live in Arizona, just off the Rodeo-Chediski fire or I 
grew up in that area and saw so many youth groups come up after 
the fire and continuing to help out in the area there.
    Do you want to make any statement after this, quickly, 
before we thank the witness?
    Mr. Tom Udall. No, I just want to thank the witness and 
appreciate your courtesies, Mr. Chairman.
    Mr. Flake. Thank you.
    Thank you so much for waiting so long for the other panel 
and for delivering your testimony, and it will be printed in 
the record. And any questions that members might have, if you 
could respond to that in writing, I believe the hearing record 
will be open for 10 days for additional questions and answers.
    So thank you, and there being no further business before 
the Subcommittee, the Subcommittee stands adjourned.
    [Whereupon, at 2:01 p.m., the Subcommittee was adjourned.]

    [The prepared statement of Mr. Walden submitted for the 
record follows:]

 Statement of The Honorable Greg Walden, a Representative in Congress 
                 from the State of Oregon, on H.R. 4838

    As sponsor of the Healthy Forest Youth Conservation Corps, I'd like 
to say that the original intent was to include this provision in the 
Healthy Forests Restoration Act but could not do so because of a last-
second agreement during conference to exclude all extra provisions. The 
primary purpose of this bill is simply to provide at-risk and low-
income youth a chance to learn skills and become educated in forest 
restoration. Hopefully, then, these young adults will be able to join 
the existing and expanding workforce being deployed on our federal 
forests in fuels reduction, post-fire rehabilitation and other forest 
health projects. This is not only important for broadening 
opportunities for young people but it should also help provide new 
recruits for private companies as we greatly expand the size and number 
of fuels reduction projects authorized in HFRA. So it is not the intent 
of this bill to create competition for existing jobs but rather to help 
provide a pool of trained workers for companies to draw from. As we 
address the massive scope of the forest health problem on our federal 
lands,--190 million acres at risk of catastrophic fire--we will need to 
apply a broad array of projects and partnerships, private and public, 
across the landscape. The Healthy Forest Youth Conservation Corps will 
play a small but important role in this important endeavor.

                                 <all>

</pre></body></html>
